<html>
<title> - STATE AND LOCAL EFFORTS TO PROTECT SPECIES, JOBS, PROPERTY, AND MULTIPLE USE AMIDST A NEW WAR ON THE WEST PART 1 AND 2</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
   STATE AND LOCAL EFFORTS TO PROTECT SPECIES, JOBS, PROPERTY, AND 
        MULTIPLE USE AMIDST A NEW WAR ON THE WEST PART 1 AND 2

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

       Wednesday, September 4, 2013 (Part 1), in Casper, Wyoming
      Wednesday, September 4, 2013 (Part 2), in Billings, Montana

                               __________

                           Serial No. 113-49

                               __________

       Printed for the use of the Committee on Natural Resources




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

85-208 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 4, 2013, Part 1.............     1

Statement of Members:
    Daines, Hon. Steve, a Representative in Congress from the 
      State of Montana...........................................     5
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     3
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     4

Statement of Witnesses:
    Hendry, Robert L., Vice Chair, Natrona County Board of 
      Commissioners, Lysite, Wyoming.............................     6
        Prepared statement of....................................     8
    Lally, Meghan O'Toole, Sheep and Cattle Rancher, Savory 
      Wyoming....................................................    31
        Prepared statement of....................................    33
    Meyer, Jeff, Managing Partner, Sweetwater River Conservancy, 
      Alcova, Wyoming............................................    28
        Prepared statement of....................................    30
    Taylor, Renee C., Owner, Taylor Environmental Consulting LLC, 
      Casper, Wyoming............................................    22
        Prepared statement of....................................    24
    Wharff, Robert A., Executive Director, Wyoming Sportsmen for 
      Fish and Wildlife, Evanston, Wyoming.......................    15
        Prepared statement of....................................    17

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 4, 2013, Part 2.............    49

Statement of Members:
    Cramer, Hon. Kevin, a Representative in Congress from the 
      State of North Dakota......................................    57
    Daines, Hon. Steve, a Representative in Congress from the 
      State of Montana...........................................    54
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................    50
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................    52
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................    53

Statement of Witnesses:
    Cebull, Brian R., Billings, Montana..........................    71
        Prepared statement of....................................    73
    Galt, David A., Executive Director, Montana Petroleum 
      Association, Helena, Montana...............................    65
        Prepared statement of....................................    66
    Knox, Matt, Board of Directors, Fergus County Farm Bureau, 
      Representing Montana Farm Bureau Federation, Winifred, 
      Montana....................................................    62
        Prepared statement of....................................    63
    Robinson, Lesley, County Commissioner, Phillips County, 
      Malta, Montana.............................................    59
        Prepared statement of....................................    60
    White, Kerry, Executive Board Member, Citizens for Balanced 
      Use, Bozeman, Montana......................................    81
        Prepared statement of....................................    83
    Whiteman, Channis, Member of the Crow Tribe, Equipment 
      Operator, Cloud Peak Energy, Crow Agency, Montana..........    77
        Prepared statement of....................................    80

Additional material submitted for the record:
    Bullock, Hon. Steve, Governor, State of Montana, Letter 
      Submitted for the Record...................................    56



OVERSIGHT FIELD HEARING ON STATE AND LOCAL EFFORTS TO PROTECT SPECIES, 
  JOBS, PROPERTY, AND MULTIPLE USE AMIDST A NEW WAR ON THE WEST PART 1

                              ----------                              


                      Wednesday, September 4, 2013

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Casper, Wyoming

                              ----------                              

    The committee met, pursuant to call, at 9 a.m., in Wyoming 
Oil and Gas Conservation Commission, 2211 King Boulevard, 
Casper, Wyoming, Hon. Doc Hastings [Chairman of the committee] 
presiding.
    Present: Representatives Hastings, Lummis, Lamborn, and 
Daines.
    The Chairman. The House Committee on Natural Resources will 
come to order. The committee is meeting today to hear testimony 
on the hearing entitled State and Local Efforts to Protect 
Species, Jobs, Property, and Multiple Use Amidst a New War on 
the West.
    By way of introduction, I am Congressman Doc Hastings, and 
I live in Washington, in Washington State. I call it the real 
Washington. I spend part of my time every year back in 
Washington, DC, and my district runs throughout central 
Washington, and we are very familiar with the impacts of the 
Endangered Species Act in the Northwest. We are constantly at 
odds with it. Twenty years ago, Washington State as a whole was 
a--I won't say beneficiary but maybe a victim of the spotted 
owl. So I am familiar with that, and I am very pleased to be 
here in Casper, Wyoming today.
    Before we start today's hearing, I want to recognize my 
colleague and your congresswoman from Wyoming, Cynthia Lummis.
    Cynthia?
    Mrs. Lummis. Well, thank you, Mr. Chairman.
    I am so delighted that the Natural Resources Committee 
Chairman, Doc Hastings, has chosen to be here today, along with 
my colleagues, Representative Doug Lamborn of Colorado--
welcome, Doug--and our neighbor Steve Daines from Montana. We 
are really pleased that you have chosen Casper and our State of 
Wyoming as one of the sites for this important field hearing.
    Being that this is a congressional hearing, we are going to 
begin, as we do every session with the House of 
Representatives, with the posting of the colors and Pledge of 
Allegiance. So please join me in standing to recognize the 
Natrona County High School Mustang Battalion, who will post the 
colors; and Mr. Stan Low, a great American, who will lead us in 
the Pledge of Allegiance.
    [Pledge of Allegiance.]
    Mrs. Lummis. Well, thank you, Mustang Battalion; and thank 
you, Stan Low, for your service to our country and for being 
here today and leading us in the Pledge of Allegiance.
    I now recognize City Council President Paul Meyer for a few 
welcoming words.
    [No response.]
    Mrs. Lummis. Not here. And on his behalf I will just say 
welcome, and I yield back to the Chairman.
    The Chairman. With that, the way congressional hearings are 
held are typically we have opening statements by the Members 
and, of course, we will hear from the panel. Following hearing 
from the panel, there will be a round of questions from members 
of the committee.
    We do have a timeframe because we have to go to Montana for 
a hearing up there, so we have to be out of here just before 
11:00. If everything works well, we will do that.
    I now recognize myself for my opening statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. Today the Committee on Natural Resources 
continues its important oversight of the Endangered Species 
Act, with the goal of hearing specifically from an array of 
interests directly affected by the Endangered Species Act, and 
by that we mean States, local governments, sportsmen, and 
private property owners.
    I am pleased to be here in Casper, Wyoming this morning 
with Congresswoman Lummis and my two colleagues, one from 
Montana, one from Colorado. Congresswoman Lummis and I are co-
chairmen of the ESA Working Group. The Working Group is made up 
of Members from around the country who understand the need to 
carefully examine the Endangered Species Act. It is an act that 
has not been reauthorized for 25 years, and yet in that 25 
years the lack of reauthorization in the roughly 15 years 
before that, the recovery rate of those species that are listed 
was 2 percent or less.
    Already, this Working Group has received hundreds of 
comments from individuals seeking improvements to the ESA. In 
addition to this morning's hearing, later today the committee 
will be in Billings, as I mentioned, to hear from affected 
individuals there. In the coming weeks, the ESA Working Group 
will hold additional forums to ensure broader input from all 
States affected by this law.
    Ramped-up ESA listings, previously the 2011 settlement and 
executive orders, and actions by litigious groups, are wreaking 
havoc on people affected by the ESA, and that includes multiple 
use of lands that were designed for multiple use, rural 
economies, energy development, and even some States' own 
species conservation activities. Rather than ensuring the 
Federal Government cooperates with States to the maximum extent 
practicable on major actions affecting land and water within 
the States' borders, this administration is allowing ``sue and 
settle'' to dictate how Federal agencies prioritize endangered 
species listings.
    When species such as the grizzly bear, the gray wolf, or 
the dune sagebrush lizard are deemed healthy enough to be 
removed from the ESA list, States face more lawsuits from 
agenda-driven groups, blocking or delaying efforts that balance 
species conservation efforts with other important economic and 
recreational priorities. While the Interior Department's 
announced proposal a few months ago to de-list the gray wolf is 
encouraging, I have a healthy skepticism about when they will 
follow through on this long overdue decision and allow States 
to finally manage their wolves.
    I am also very troubled that, despite clear legal authority 
to the contrary, last week this administration finalized an 
Executive order that will effectively shut out Congress, shut 
out the States and the American public from knowing the true 
costs of ESA listings and critical habitat designations that 
was intended by the law. Already, hundreds of thousands of 
acres of private property have been included in habitat 
designations that will dramatically impact the future value and 
multiple uses of those lands.
    For example, the Canadian lynx habitat designation includes 
more than 16 million acres, including 8.5 million acres of 
private property. The Fish and Wildlife Service itself 
acknowledges that this could result in a loss of more than $2.3 
billion in development revenues.
    Serious questions remain about the lack of data and science 
supporting the measures the BLM, the Bureau of Land Management, 
and the Fish and Wildlife Service claim are needed for the 
greater sage grouse in 11 Western States. Even though 
significant State and local resources are being devoted for the 
sage grouse, in Wyoming alone, the BLM has altered, delayed or 
denied literally hundreds of oil and gas leases, mining and 
grazing permits, water pipelines and power transmission lines, 
and weed control projects--I get exhausted just talking about 
that--due to the sweeping sage grouse plans.
    Rather than force a massive land grab to meet arbitrarily 
set court deadlines, successful State, local and private 
species conservation efforts need to be encouraged and given a 
chance to succeed. Allowing the fate of species to be 
increasingly decided by Federal bureaucrats, lawyers or Federal 
judges is not working and undercuts the intent or the purpose 
of ESA.
    So I look forward to hearing from our witnesses today and 
having a robust discussion on ways that this 40-year-old law 
can be improved for species and people. In addition to the 
testimony from our witnesses, we also want to hear from 
everybody else who may be impacted by the ESA. So I encourage 
anybody that is sitting here and obviously not testifying to go 
online and visit our ESA Working Group at 
esaworkinggroup.hastings.house.gov and submit whatever comments 
to the Working Group.
    Now I would like to allow my colleagues to make brief 
opening statements. Everything we do in Congress is done by 
seniority, and Mr. Lamborn is next senior on the committee, so 
we will hear from him next.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Thank you, Mr. Chairman, and I appreciate your 
efforts putting together the hearings we are going to have 
today and being a leader in this area of endangered species and 
the other important issues that the Natural Resources Committee 
works on.
    I want to thank Cynthia Lummis also. She is a leader in the 
field of resources and energy in our committees in Congress, 
especially here on the Natural Resources Committee, and she has 
taken leadership in this area of the Endangered Species Act, 
and I appreciate that. It is an act that was well intended and 
has many good purposes and intentions, but I think it has been 
prone to some abuse on the part of those who want to shut down 
development, shut down the access of energy in the name of 
preserving species.
    We all want to make sure that our heritage of species are 
all protected and even restored, but we have a balance to 
reach, and I think we can reach that balance. The example of 
the Preble's Meadow jumping mouse comes to mind. That is a 
little critter that is found in Colorado and Wyoming and other 
places, but it has a unique status of when you go north of the 
State line, into Wyoming, it is not a threat or endangered, but 
if you go south it is. Animals don't recognize State lines. So, 
to me, that was an arbitrary distinction on the part of the--I 
believe it was the Fish and Wildlife Service. And yet it has 
had a very expensive impact in Colorado.
    Developments up and down the front range in Colorado are 
much more expensive if there is evidence that the Preble's 
Meadow jumping mouse has a home there. And yet there is science 
that says it is a sub-species. It belongs to the Bear Lodge 
jumping mouse family and is not a separate species in and of 
itself. The science is kind of mixed, and you can find contrary 
studies. And yet we have tried and tried and tried to get the 
ear of the Federal agency, and they really don't want to listen 
to us.
    So I am looking forward to the people who are going to be 
testifying today. I am going to yield back because I want to 
make sure our schedule keeps moving, but I do look forward to 
the give-and-take we are going to have and learning more about 
this critical issue.
    Mr. Chairman, I yield back.
    The Chairman. Thank you, Mr. Lamborn.
    Mrs. Lummis is next.

 STATEMENT OF THE HON. CYNTHIA M. LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Well, again, I want to thank the Chairman and 
all of you for attending this hearing today.
    The ESA is a subject that needs attention, having its 
authorization lapse more than 25 years ago. This hearing is 
appropriately timely and centered in a part of the country that 
has been ground zero, the West, for development of the ESA's 
policies.
    During the first half of the 20th century, this Nation had 
bountiful and almost unlimited natural resources that were in 
some ways exploited in a manner that caused great concern for 
the American people, such that during the second half of the 
20th century the command and control, big government and 
litigious policy by courtroom rather than policy by Congress 
seemed to dominate the manner in which natural resource policy 
was implemented.
    I am an advocate for 21st century conservation, a very new 
and different conservation ethic that recognizes sound science, 
recognizes our ability to have finite resources but utilize 
them in a smart, scientifically based way using private sector 
principles and voluntary efforts that actually create a better 
environment for species, for clean air, clean water, for 
business, for jobs, and for the American experience of 
recreationists, sportsmen, and people who use natural resources 
as their source of a livelihood.
    I think this morning we are going to hear examples of how 
that could be the case. We have people on the ground here in 
Wyoming who are implementing the 21st century conservation 
ethic and plowing new ground, creating new policies without the 
government's heavy hand dictating it. In fact, it is going to 
percolate up from a local level to the policymaking level.
    So I am very excited about the prospects of Wyoming being, 
as it frequently is, a leader in natural resource policy in a 
way that sets an example for the rest of the Nation and, 
indeed, the rest of the world. I am looking forward to our 
panelists discussing some of those very innovative, cutting-
edge new ideas for implementing the 21st century conservation 
ethic, including the Endangered Species Act and how it can move 
forward and advance a better environment for species and 
mankind, and I deeply appreciate your testimony here today.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank you very much for your statement.
    And last but certainly not least, I recognize our 
colleague, new colleague from Montana, Mr. Daines.

    STATEMENT OF THE HON. STEVE DAINES, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Daines. Thank you, Mr. Chairman. It is good to be here 
with our southern neighbor, Wyoming. Welcome.
    I am grateful to be here because the Endangered Species Act 
poses a challenge for my home State of Montana, as well as my 
colleagues here who represent Western States.
    I am a fifth-generation Montanan. I am an avid and 
passionate outdoorsman and sportsman, like most Montanans are, 
but I also recognize the need to keep that balance with jobs. I 
don't think they are mutually exclusive. I think we can have 
both. In fact, we like to say in Montana, we like to work well 
so I can play, with the quality of life that we have.
    But I believe the ESA should not be focused primarily on 
listing the species. It should be focused on recovering the 
species. We have that example certainly with the gray wolf that 
Idaho, Montana and Wyoming, other States have encountered. We 
were happy in Montana seeing the gray wolf finally de-listed in 
2011. In fact, I got a wolf tag in my pocket. We know how to 
manage predators in Montana. And I know that Wyoming's de-
listing of the wolf is important, as well.
    Our communities are safer now. Our ag and properties can be 
better protected from the gray wolf.
    Chairman Hastings, Representative Lummis and the other 
members of the committee are hoping that the FWS will finalize 
its decision to de-list the wolf in the lower 48 States.
    But besides the gray wolf, the grizzly bear poses a risk to 
resource development safety in our communities in Montana.
    And finally, I continue to keep a close eye on the Federal 
Government as the BLM moves forward with their safety routes 
conservation planning. Unfortunately, without reforming the 
ESA, again getting back to what it was designed to do is to 
recover the species, it has turned into a dream for litigants. 
I think the trial lawyers probably win more than anybody else 
in this process. In fact, Deputy Interior Secretary David 
Hayes, out-going Deputy Secretary, recently declared that 
critical habitat designations related to the ESA have been 
``fish in the barrel litigation for folks.''
    The proposed plan by BLM has the potential to significantly 
impact our ag, our oil and gas, our timber, fishing, hunting, 
and multiple use industries. We will be hearing about these 
challenges in my home State this afternoon. We will have this 
same hearing up in Billings.
    But thanks again for having me. I look forward to hearing 
the testimony. I yield back my time.
    The Chairman. I want to thank my colleagues for their 
opening statements. Now we will turn to our panel of five.
    You were asked by the committee to submit written 
statements, and your entire statement will appear in the 
record. What I would like you to do is to try to hold your oral 
comments to 5 minutes. In front of you we have a little machine 
there that is our timing lights. The green, yellow and red, 
they are kind of self-explanatory.
    The way it works, when the green light comes on, it means 
your time has started and you are doing very, very well. When 
you get to the yellow, that means you have used 4 minutes of 
your 5. And then when it gets to red, that means your 5 minutes 
are up. Obviously, we want you to complete your thoughts, but 
keep your oral comments within that time period and allow us to 
have more interaction at the end of the period.
    So with that, our first witness is Mr. Robert Hendry, Vice 
Chair of the Natrona County Board of Commissioners from Lysite.
    Mr. Hendry, you are now recognized for 5 minutes.

STATEMENT OF ROBERT L. HENDRY, VICE CHAIR, NATRONA COUNTY BOARD 
               OF COMMISSIONERS, LYSITE, WYOMING

    Mr. Hendry. Thank you, Mr. Chairman, Representative Lummis, 
and members of the committee. My name is Rob Hendry, and thank 
you for the opportunity to testify on the crucial issue of 
Endangered Species Act reform. I am a County Commissioner right 
here in Natrona County, so welcome to Casper.
    Together with my wife and two sons, we own and manage Clear 
Creek Cattle Company, a fourth-generation family ranch. I am 
past-president of the Wyoming Stock Growers Association, a 
livestock industry association that is represented in Wyoming 
since 1872, and I currently serve on the Agriculture, State and 
Public Lands and Water Resources Committee of the Wyoming 
County Commissioners Association. While the Wyoming Stock 
Growers and the Wyoming Commissioners Association concur with 
these remarks, they are my own.
    I want to share with the committee some financial impacts 
on the State of Wyoming that ESA has had. These include grizzly 
bears and wolves. In 2012, we had approximately 1,000 head of 
cattle killed. We had the value of $742,000; 1,500 head of 
sheep killed, at a value of $273,000. These are dollars that 
can't roll over in our community.
    If the little impacts of the Preble's Meadow jumping mouse 
in southeastern Wyoming and northern Colorado, this 
questionable sub-species which has been de-listed in Wyoming 
and then re-listed as a result of litigation is one of them. 
For example, when an aquatic species is listed, the laws and 
restrictions put upon water rights can have a major impact on 
both agricultural enterprises and land value.
    Further, the listing of plant species often leads to 
private land value loss or private land value loss or reduction 
in public land grazing.
    The ESA is 40 years old. It can be characterized like an 
over-aged truck. It serves a very useful purpose, but it is in 
bad need of repair. I would like to offer a few thoughts on how 
we can fix ESA in a meaningful manner.
    The first objective of the ESA should be to foster species 
management to avoid listing, to have the acknowledgement that 
this cannot be accomplished solely through Federal regulations. 
You have to work with land owners, industry, State and local 
governments to enhance species and habitat, and I can think of 
no better way than Wyoming's sage grouse core area strategy.
    It is often said that the cost of filing a petition is no 
more than a 48-cent stamp. We believe that listing a petition 
should be required to include a reasonable amount of peer-
reviewed science significant to support the claim and available 
scientific data on its historic range within North America.
    In reviewing and issuing the finding of a properly filed 
petition, the Service should be required by law to consult with 
State wildlife agencies operating within current and historic 
range.
    And when the Service determines that a listing of 
threatened or endangered is warranted, the delineation and 
designation of crucial habitat should be clearly in the 
recovery criteria and should accompany the listing.
    The designation of crucial habitat should always have an 
analysis on the impact of other wildlife and plant species that 
it may affect.
    It should have a clear, distinct population segment 
established in the legislation so that it is not subject to re-
definition and not subject to political science but subject to 
sound science.
    The role of the 4(d) rule should be expanded to ensure that 
it will always have a reasonable take of a species in the 
course of normal human activity.
    And when a species is listed with the establishment of a 
clear recovery criteria, citizens have certain knowledge of 
knowing that when the criteria have been met, then de-listing 
will automatically occur.
    Finally, the opportunity of litigation that comes to the 
Service's limited human and financial resources, while imposing 
huge, often immeasurable costs on the private sector and the 
revenues of the State of Wyoming.
    In closing, let me emphasize the real and measurable social 
and economic impacts of the ESA on ranchers and local 
governments. The energy, tourism, agricultural industry is the 
three-legged stool that provides a robust, healthy economy. It 
provides good-paying jobs in Wyoming, and it helps us pay our 
bills and put money away for a rainy day. Thank you.
    [The prepared statement of Mr. Hendry follows:]
  Prepared Statement of Robert L. Hendry, Vice Chair, Natrona County 
                Board of Commissioners, Lysite, Wyoming
    Mr. Chairman, Representative Lummis and members of the committee, I 
am Rob Hendry from Lysite, Wyoming. Thank you for the opportunity to 
present testimony on the critical issue of Endangered Species Act (ESA) 
reform. I am a Natrona County Commissioner. Together with my wife and 
two sons, we own and manage Clear Creek Cattle Company, our fourth-
generation family ranch. I am the past President of the Wyoming Stock 
Growers Association and I currently serve on the Agriculture, State and 
Public Lands and Water Resources Committee of the Wyoming County 
Commissioners Association. WCCA represents the elected commissioners of 
Wyoming's 23 counties. WSGA has represented Wyoming's livestock 
industry since 1872. While the WCCA and the WSGA concur with these 
remarks, they are my own.
    I wish to offer insight on two points: First, that the current 
implementation regime for the ESA creates too much uncertainty by way 
of its varied application, which creates headaches for the landowner 
while providing no sure foundation for the successful conservation of 
our Nation's most vulnerable species; and second, while the ESA has 
been interpreted to ensure the preservation of species ``whatever the 
costs,'' it does not necessarily mean that solutions cannot be obtained 
via a working collaboration between industry, environmental non-profit 
organizations, private landowners, the individual States, and the Fish 
and Wildlife Service (Service) to minimize those costs.
    The State of Wyoming has over 50 percent of Federal public land 
commingled with private lands. There are currently 17 listed and 
candidate plant and animal species in Wyoming. As demonstrated by the 
attached maps (See Exhibit 1) for these species indicating the areas 
for which section 7 consultation is required under the ESA, virtually 
every acre of our State is directly impacted by the ESA. These impacts 
include the economic impacts on Wyoming's key industries of energy, 
tourism, and agriculture; loss of revenues to State and local 
governments; and changes to the customs and culture of our citizens.
    Although the ESA as adopted by Congress in 1973 explicitly 
precluded the consideration of economic criteria in species listing, 
Congress soon recognized the potentially devastating economic impacts 
and responded in 1978 with the provision under section 4 that allows 
the Secretary to ``take into consideration the economic impact, . . . 
and any other relevant impact, of specifying any particular area as 
critical habitat.'' While this was an important step, several 
challenges remain.
    First, because the designation of critical habitat often occurs 
much later than the listing, significant economic impacts often occur 
prior to or absent the designation of critical habitat. Second, there 
is no well-developed nor widely accepted toll for measuring the 
economic impacts to the private sector and to local governments. While 
the Federal Government's forthcoming rule regarding the simultaneous 
disposition of its economic analysis upon the designation of critical 
habitat is welcome, the absence of factors in the proposed incremental 
analysis creates ambiguity where there is little room for it. Moreover, 
the absence of factors gives significant deference to the Secretary, 
which raises concerns that any economic analysis undertaken will be 
prejudiced by flavor of the day political machinations and not the kind 
of long-term strategic analysis required. Distinguished University of 
Wyoming Professor Jason Shogren noted this in a paper that he published 
on ``Economics and the Endangered Species Act.''

        ``The best measure of economic loss is opportunity cost--the 
        foregone opportunities due to restrictions on the use of 
        property due to listings, designation of critical habitat, and 
        recovery plans. Opportunity costs include the reduced economic 
        profit from restricted or altered development projects 
        including agriculture production, timber harvesting, minerals 
        extraction, and recreation activities; wages lost by displaced 
        workers who remain unemployed or who are re-employed at lower 
        pay; lower consumer surplus due to higher process; and lower 
        county property and severance tax revenue.''

    Professor Shogren focused on the lack of national data to measure 
the impact of the ESA on economic growth, as well as to measure direct 
private expenditures driven by the ESA.
    I want to share with the committee some of the financial impacts of 
the ESA on Wyoming agriculture. Too often an uninformed public assumes 
the economic impacts are limited to the costs of predation by large 
carnivore species including the grizzly bear and the currently delisted 
gray wolf. Reported losses of livestock in Wyoming to these two species 
in 2012 included approximately 1,000 head of cattle with a value of 
$742,000 and 1,500 head of sheep with a value of $273,000. While these 
numbers may seem relatively insignificant in relation to a $1 billion 
industry, it is important to recognize that these losses fall 
disproportionately on producers in those areas inhabited by these 
protected species. The impact of these species is even greater in other 
areas for which economic data is lacking. These include:

  1.  Direct impacts of grizzly bear and gray wolf activity on 
            livestock weight gains;
  2.  Additional labor and equipment costs associated with livestock 
            protection and predation deterrence;
  3.  Reductions and/or restrictions placed on public land grazing due 
            to the presence of grizzly bears or gray wolves;
  4.  Compliance with food storage, carcass disposal and other 
            regulatory burdens;
  5.  Difficulty of finding employees who are willing to tend livestock 
            in grizzly bear occupied areas; and
  6.  Diminished value of grazing permits and private grazing lands in 
            bear and wolf occupancy areas.

    At the other end of the spectrum from the grizzly bear is the tiny 
but impactful Preble's Meadow Jumping Mouse found only in southeastern 
Wyoming and northern Colorado. This questionable subspecies, which has 
been delisted in Wyoming then relisted as a result of litigation, has 
burdened agriculture with:

  1.  Restricted ability to clean irrigation ditches;
  2.  Restrictions on changes in agricultural practices under the 4(d) 
            rule;
  3.  Real time costs of continued participation in numerous public and 
            industry meetings held to address mouse issues due to the 
            fact that many of our agricultural producers do not have 
            hired labor, and therefore time away from the farm/ranch 
            directly impacts ranch work and profitability; and
  4.  Direct cost of ranchers who have employed biologists or 
            environmental consultants to conduct studies to counter the 
            evidence on habitat and mouse classification presented by 
            the USFWS.

    I merely offer the grizzly bear, gray wolf, and preble's jumping 
mouse as specific examples. Comparable costs to agricultural producers 
can be traced to many of the other listed animal species. For example, 
when aquatic species are listed, loss of, or restrictions upon, water 
rights can have a major impact on both the agricultural enterprise and 
on land values. Further, the listing of plant species often leads to 
reduced private land values and loss or reduction in public land 
grazing permits.
    The response of Federal land management agencies to the presence of 
listed or candidate species often goes far beyond the specific 
requirements of the ESA. Allow me to provide a very recent example. In 
2012, the U.S. Forest Service initiated a section 7 consultation with 
the Fish and Wildlife Service (Service) on livestock grazing on a 
complex of nine allotments on the Bridger-Teton National Forest. The 
outcome was a biological opinion that authorized the lethal removal of 
no more than three female grizzly bears over the next three grazing 
seasons. This summer the Wyoming Game and Fish, in consultation with 
the Service, removed two female bears that were habitual killers of 
cattle. Following removal of the second bear, the U.S. Forest Service 
advised the permittees that, if a third female grizzly was lethally 
removed, they would require that all livestock be removed from these 
allotments. While this threat has been withdrawn at this time, it is 
indicative of the pressure faced by Wyoming ranchers.
    Let me now turn to one of the most challenging and costly impacts 
of the ESA to the ranching industry--incessant litigation. When I 
became President of the Wyoming Stock Growers Association in 1999, for 
example, one of my first actions was to establish a Litigation Fund. At 
that time, WSGA had served our industry for over 125 years without 
having to engage in litigation to protect our members' interests. Since 
1999, however, WSGA has expended several hundred thousands of dollars 
in defending its members' private property rights and Federal grazing 
permits from challenges by groups that believe environmentalism takes 
place in the courts, such as Centers for Biological Diversity and 
Western Watersheds Project, as opposed to groups who are interested in 
making meaningful impacts on the ground. Furthermore, these challenges 
are typically premised, in whole or in part, on purported threats to 
listed species.
    The costs associated with litigation are not limited to the State 
and the associations I represent today alone. According to the 
Department of Justice, it spent more than $15 million on attorney fees 
for alleged violations of the ESA in just the past 4 years. Even more 
shocking is the following: In fiscal year 2011, the Service, spent over 
75 percent of its $20.9 million listing and critical habitat budget 
responding to litigation alone. That leads me to question the 
underlying efficacy of the ESA in its current form. These precious 
resources should not be spent in the courts. This is money that could 
be spent on enhancing our land and wildlife habitat, instead of paying 
lawyers and clogging the court system.
    Compounding the litigation issue is that the ESA lacks any 
certainty in its status review and the delisting processes. The result 
of these ambiguities is, again, litigation. The grizzly bear has been 
delisted and relisted due to litigation. The gray wolf was delisted, 
relisted, and is now threatened by litigation to relist again in 
Wyoming. The preble's jumping mouse was delisted, then relisted by way 
of litigation. The bottom line is that when the listing of an iconic 
species such as the Greater Sage Grouse is determined by the Service as 
not warranted, these groups just come back again through litigation 
until finally reaching their objective of securing a listing. A listing 
of the Greater Sage Grouse will cripple our State and local economies.
    In the end, all of these potential economic pitfalls and 
encumbrances, in their aggregate, have a negative economic and cultural 
impact on Wyoming's counties. I can speak on behalf of all County 
Commissioners in Wyoming that no elected official wants to see the 
destruction of a species, especially when practicable, workable 
alternatives are obtainable. Too often conservation and economic 
development are held to be mutually incompatible. Perhaps that is the 
flavor of the day in Washington, but in Wyoming we have proven time and 
again the effectiveness of collaboration to obtain real, workable 
solutions to the issue at hand. Whether it is Hydraulic Fracturing, 
Sage Grouse Core Area Development or Carbon Sequestration, Wyoming has 
continually demonstrated its willingness to take the lead and to work 
with myriad Federal and State agencies, local government, as well as 
private parties to develop solutions that not only minimize detrimental 
impacts to our most vulnerable flora and fauna, but also encourage 
sustainable economic growth in Wyoming.
    Essentially, the ESA can be compared to the ranch pickup that is 40 
years old. It still serves a very useful purpose, but badly needs a 
tune-up. I would like to offer a few thoughts as to where one might 
begin to reform the ESA in a meaningful manner:

  1.  The first objective of the ESA should be to foster species 
            management that avoids listing. There needs to be 
            acknowledgment that this cannot be accomplished solely 
            through Federal regulation. It is best accomplished when 
            landowners, industry, and State and local governments are 
            motivated to proactively act to enhance a species and its 
            habitat. I have found no better example of this than the 
            leadership that Wyoming has exhibited in protecting and 
            enhancing the sage grouse through its Core Area Development 
            program;
  2.  It is often said that ``The cost of filing a listing petition is 
            no more than a 48 cent stamp.'' We believe that a listing 
            petition should be required to include a reasonable amount 
            of peer-reviewed science sufficient to support a claim that 
            the subject of the petition is a distinct species or 
            subspecies and a description of available scientific data 
            on its current and historic range within North America. A 
            listing petition should only be valid for a single species 
            or subspecies and, in turn, a legal challenge to a 90-day 
            or 12-month finding should be limited to that specific 
            species or subspecies;
  3.  In reviewing and issuing a finding on a properly filed petition, 
            the Service should be required by law to consult with State 
            wildlife agencies operating within the current and historic 
            range;
  4.  When the Service determines that a listing as threatened or 
            endangered is warranted, the designation of critical 
            habitat and the delineation of clear recovery criteria 
            should be required to accompany the listing. The 
            designation of critical habitat should include an analysis 
            of the impact on other wildlife or plant species that may 
            be affected;
  5.  A clear definition of ``distinct population segment'' should be 
            established in legislation so that it is not subject to 
            ``redefinition'' by subsequent solicitors as it has been in 
            the past;
  6.  The role of the 4(d) rule should be expanded to assure that it 
            will support reasonable ``take'' of species in the course 
            of normal human economic activity;
  7.  When a species is listed with the establishment of clear recovery 
            criteria, citizens should have the certainty of knowing 
            that, when those criteria have been met, delisting will 
            automatically occur; and
  8.  Finally, the opportunity for litigation that consumes limited the 
            Service's human and financial resources while imposing 
            huge, often immeasurable, costs on the private sector and 
            the revenues of State and local governments must be 
            stemmed.

    In closing, let me again emphasize the real, often immeasurable 
social and economic impacts of the ESA on ranchers and local 
governments in a State such as Wyoming that is natural resource 
dependent for its economy and its culture. The energy industry, tourism 
industry and agricultural industry is the three legged stool that 
provides a robust and healthy economy. These industries provide good 
paying jobs for Wyoming citizens. They also help us pay our bills and 
put money in the bank for a ``rainy day''. As it is currently 
implemented, the ESA is too far reaching in its impacts on both the 
species it seeks to protect and the lives that it impacts to allow so 
many of these impacts to be left to the regulatory and judicial 
processes. After 40 years, the need for greater Congressional direction 
is abundantly clear and that should be that the conservation of species 
is necessarily best accomplished by those closest to the resource.
    Thank you for the opportunity to appear before you today. I look 
forward to answering questions.
                       Joint WCCA/WSGA Exhibit I
 fws federally listed, proposed and candidate species in wyoming areas 
                   subject to section 7 consultation
Contents

Wildlife

    <bullet> Greater Sage-grouse (Candidate)
    <bullet> Yellow-billed Cuckoo (Candidate)
    <bullet> Colorado River Fish (Endangered)
    <bullet> (Bonytail, Colorado Pikeminnow, Humpback Chub, Razorback 
            Sucker)
    <bullet> Kendall Warm Springs Dace (Endangered)
    <bullet> Platte River Species (Endangered)
    <bullet> (Interior Least Tern, Pallid Sturgeon, Piping Plover, 
            Western Prairie Fringed Orchid, Whooping Crane)
    <bullet> Wyoming Toad (Endangered)
    <bullet> Black-footed Ferret (Endangered, Experimental)
    <bullet> North American Wolverine (Proposed)
    <bullet> Canada Lynx (Threatened)
    <bullet> Grizzly Bear (Threatened)
    <bullet> Preble's Meadow Jumping Mouse (Threatened)

Plants

    <bullet> Fremont County Rockcress (Candidate)
    <bullet> Whitebark Pine (Candidate)
    <bullet> Blowout Penstemon (Endangered)
    <bullet> Colorado Butterfly Plant (Threatened)
    <bullet> Desert Yellowhead (Threatened)
    <bullet> Ute Ladies'-tresses (Threatened)

    Please Note, All Information Can Be Found At: http://www.fws.gov/
wyominges/Pages/Species/Species_Endangered.html.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Mr. Hendry.
    I will recognize now Mr. Robert Wharff, Executive Director 
of the Wyoming Sportsmen for Fish and Wildlife, from Evanston, 
Wyoming.
    Mr. Wharff, you are recognized for 5 minutes.

  STATEMENT OF ROBERT A. WHARFF, EXECUTIVE DIRECTOR, WYOMING 
       SPORTSMEN FOR FISH AND WILDLIFE, EVANSTON, WYOMING

    Mr. Wharff. Thank you, Honorable Chairman Hastings, 
Representative Lummis, and members of the Natural Resources 
Committee. I go by Bob Wharff, unless my mom is yelling at me. 
I do appreciate the opportunity to appear before the Natural 
Resources Committee today and testify about sportsmen 
concerning the State and local efforts to protect species, 
jobs, property, and multiple use amidst a new war on the West. 
I have some materials that are in a packet, Mr. Chairman, and 
with your permission, I would request that those materials are 
entered into the record.
    The Chairman. Without objection, they will be part of the 
record.
    Mr. Wharff. Thank you, Mr. Chair.
    My testimony will focus mainly on two species which are 
most likely to impact Wyoming sportsmen and hunters which come 
here seeking the adventure of a lifetime. In Wyoming, we have 
seen both the grizzly bear and the gray wolf meet and maintain 
recovery objectives. Both of these species have been removed 
from Federal protections, and both have been re-listed as a 
result of the courts being used by litigants to maintain 
protections when these species have met and continue to exceed 
recovery goals.
    While both of these species have followed similar paths, 
they both have taken different paths to get where we are today.
    In the packet that I handed out, Mr. Chairman, there is a 
map, and just for brevity because I don't feel like doing this 
for 5 minutes, you will see a map that I was able to take from 
the Game and Fish Department. It shows Yellowstone National 
Park. The red boundary shows the recovery zone. The purple 
boundary shows what they identified as simple grizzly bear 
habitat, and the little blue dots are capture locations where 
the Game and Fish Department capture grizzly bears and either 
relocate them, or in some instances those animals were 
euthanized.
    I think this does highlight a flaw within the Endangered 
Species Act, and that is that wildlife management is not an 
exact science. Multiple fabrics can and do influence responses 
from our vast wildlife resources. The very nature of the beast, 
the grizzly bear, so to speak, is its ability to surmount and 
overcome challenges they face in the untamed Wild West.
    I am going to go on and talk about wolves, and I really 
would ask the committee to read through this on your travels up 
to Billings, because I am just going to touch it light. There 
is a lot of material in here. There is an article in here that 
I really would encourage you to read when you have time. It is 
one that we published in our quarterly publication.
    But for brevity's purpose, I think this speaks volumes. If 
you look at this map, this map shows the distribution of Rocky 
Mountain health in the world. This map shows Shiras moose 
distribution. You guys can probably barely even see that in the 
green. There is another one that shows that the blue is Big 
Horn. The red shows distribution of gray wolves.
    Now, I am going to depart from my presentation. It speaks 
volumes. Why are we putting our carriers at risk to protect a 
species that is anything but threatened? It was brought in as a 
non-essential experimental population, and it has been treated 
with kid gloves, and we were promised it would not have local 
impacts. I can tell you I have a lot of friends in Wyoming that 
would tell you they are lucky to be here today.
    I have included a statement. Unfortunately, he addressed it 
to the State of Wyoming, Mr. Chair. I hope you guys would still 
consider that even if we are not all from here. But it is a 
personal comment from an individual that runs a family 
business, and he talks directly about the impacts, his 
experience due to the impacts of wolves and grizzly bears on 
his personal business.
    I think that the wolf also highlights another problem 
caused by the ESA and the manner in which it is implemented. 
Ultimately, it is Wyoming and the citizens of this State that 
will be tasked and burdened with the cost of maintaining and 
sustaining this recovery of non-essential experimental 
population of gray wolves found within its borders. Yet, a 
court far removed from the area may, in fact, decide how 
Wyoming and its citizens will live with a species that we have 
recovered.
    And just, Mr. Chairman, I have a point in my comments. I 
know that the Working Group had asked a series of questions. I 
did answer those for the committee. I am not going to bother 
since it is recorded here.
    I did also capture some possible solutions. Just for 
brevity, I do think one of the things that I see lacking is I 
believe that the States are better suited to manage wildlife. 
That is what they do, and I think they do it well. I think we 
probably shouldn't look away so we can make them more of an 
even partner with the U.S. Fish and Wildlife Service under the 
Endangered Species Act.
    One of the other points is single species management. This 
simply doesn't work. Mr. Chairman, we have not seen it yet, but 
at some point in time we are going to see species advocates 
given protections either from the Migratory Bird Treaty, and an 
example of that is the raven. I think we are starting to see 
that ravens are having a far greater impact on our sage grouse 
populations than anybody had foreseen, and I do think those are 
critical factors that we have to address in how do we resolve 
these conflicts.
    Unfunded Federal mandates, I know we have gone over that a 
little bit. Fiscal Year 2012, Mr. Chairman, Wyoming contributed 
$1.7 million just to grizzly bear management. Of that, the 
Federal portion was $126,000. I don't feel that is a very fair 
or admirable sharing of the responsibilities. Government 
accountability and human health and safety, those are all 
factors, Mr. Chairman.
    And since I am out of time, I will stop there. Thank you 
for this opportunity.
    [The prepared statement of Mr. Wharff follows:]
  Prepared Statement of Robert A. Wharff, Executive Director, Wyoming 
           Sportsmen for Fish and Wildlife, Evanston, Wyoming
    Honorable Chairman Hastings, Representative Lummis and members of 
the Natural Resources Committee,
    I appreciate the opportunity to appear before the Natural Resources 
Committee and testify in behalf of sportsmen, concerning ``State and 
Local Efforts to Protect Species, Jobs, Property and Multiple Use 
Amidst a New War on the West''.
    I have some materials that I will give to the committee which I 
have obtained from individuals which wanted their story to be told but 
due to time constraints, I will not be able to cover all of them. With 
your permission I would request these materials be added to the record.
    My testimony will focus on the two species which are most likely to 
impact Wyoming's Sportsmen and our non-resident hunters which come here 
seeking the adventure of a lifetime!
    We have seen both the grizzly bear and the gray wolf meet and 
maintain recovery objectives. Both of these species have been removed 
from Federal protections and both have been relisted as a result of the 
courts being used by litigants to maintain protections when these 
species have met and continue to exceed recovery goals.
    While both of these species have followed similar paths, they both 
have taken different paths to get us where we are today.
                             grizzly bears
    Grizzly bears remain an icon of the Untamed Wild West. In 1975, 
grizzly bears were given Federal protections to allow their numbers to 
increase and to ensure that they had room to roam. Throughout this 
entire process, wildlife biologists were continually developing and 
modifying techniques designed to afford some level of comfort in 
stating the obvious; grizzly bear numbers were increasing. As those 
numbers continue to increase, it is only natural to expect that you 
will see greater conflicts between this magnificent animal and the 
humans which reside in proximity to their recovery areas.
    I have provided you with a map as I believe the visual speaks 
volumes as to the successfulness of efforts to protect and restore 
grizzly bears to a sustainable population. You can see the recovery 
area outlined in red, the identified and accepted suitable habitat 
outlined in purple. The blue dots identify 2012 Capture Location Sites. 
The continued expansion of grizzly bears is a good sign that we have 
healthy and robust populations of bears; however, it also demonstrates 
the fact that we will most assuredly continue to see an increase in 
human/bear conflicts. We have recently seen about 4-5 incidents this 
year and hunters have yet to enter the remote areas in pursuit of their 
quarry. Just 2 years ago, we saw two people in Wyoming that lost their 
lives to grizzly bear encounters and a few more that were injured but 
survived the ordeal. Most of these incidents resulted in the grizzly 
bears (if they could be found and confirmed the perpetrator) ultimately 
forfeiting their lives as well.
    In 2012, within Wyoming but excluding National Parks, there were 28 
known or probable human-caused mortalities of grizzly bears. A known 
mortality occurs when the carcass of the bear is found and a probable 
mortality denotes that no carcass was found but the bear is believed to 
have sustained an injury that would result in the death of the animal. 
Cubs-of-the-year whose mother is a known mortality is considered 
probable mortalities. In 2012, 4 cubs-of-the-year were counted as 
probable mortalities but the WY G&F report didn't identify in which 
category they occurred.
    According to the WY G&F report; 3 grizzly bears died from Natural 
causes, 11 were killed in self-defense, 12 were removed by agency 
personnel, 1 was killed after being struck on a highway and 1 was 
mistakenly killed by a black bear hunter.
    Of the 12 removed by agency action; 5 were removed due to livestock 
depredation, 6 were removed due to property damage and human food 
rewards and 1 individual was removed because it had become extremely 
habituated to humans.
    The report also noted that 5 of the 12 bears removed by agency 
personnel occurred outside of the Suitable Habitat Boundary. Several of 
the reported self-defense mortalities and the mistaken identification 
by a hunter are currently under investigation.
    I mention this information for two reasons; first, I believe too 
many people believe that ESA protections prevent the death of grizzly 
bears; and second, grizzly bears are a human health and safety issue 
that often are not given adequate consideration.
    Grizzly bears were delisted at the request of the USFWS and this 
decision was based upon the best available science but the agency 
tasked with making the decision as to whether or not threats have 
adequately been addressed and recovery goals obtained and sustained 
over a considerable period of time. Litigants were able to successfully 
obtain court orders to trump this decision and grizzly bears have once 
again been placed under Federal protections.
    It appears as though, given the time the USFWS, has been able to 
collect scientific data that demonstrates the perceived threats were 
there but that grizzly bears are able to switch to alternative food 
sources and will continue to maintain and sustain themselves at 
recovery level objectives.
    This does highlight a flaw within the ESA; wildlife management is 
not an exact science. Multiple factors can and do influence behavior 
and responses from our vast wildlife resources. The very nature of the 
beast, so to speak, is of its ability to surmount and overcome 
challenges they face in our Untamed Wild West.
                              gray wolves
    The gray wolf is an entirely different tale to be told.
    Gray wolves were first listed as threatened and endangered in the 
lower 48 States in 1974. In 1978, saw the reclassification of the Gray 
Wolf in the United States and Mexico, with the determination of 
Critical Habitat in Michigan and Minnesota. In 1994, under a specially 
created and newly established classification; Nonessential Experimental 
Population of gray wolves were defined and brought into what is now 
known today as the Northern Rocky Mountain (NRM) Distinct Population 
Segment (DPS). The DPS designation was adopted in 2003, when wolves in 
the NRM had obtained and maintained recovery objectives for 3 
consecutive years.
    The primary three States contained with the NRM DPS are Idaho, 
Montana and Wyoming. All three States presented the USFWS with their 
preferred gray wolf management plans. It is not surprising for me to 
see that when you look at the official USFWS Web site the Nonessential 
Experimental Population Segment is now only mentioned as an 
Experimental Population. Words do matter and it is important as you 
look at the ESA and how it has morphed into something far different 
than its original intended purpose.
    It is important to understand that initially, these three States 
were collectively tasked with recovering this Nonessential Experimental 
Population of Gray Wolves within this specific geographical region 
known as the NRM DPS. Wolf experts were asked to review all three State 
wolf management plans to determine if collectively, they would allow 
for gray wolves to be maintained and sustained. Some expressed concerns 
about Wyoming's plan but ultimately 10 out of the 11 experts stated 
that gray wolves would be maintained and sustained under all 3 unique 
State plans. It wasn't long however until Wyoming and its plan was 
placed under closer scrutiny. Wyoming's plan was and remains a plan 
that would contain wolves to areas of the State where they have 
suitable habitat and are the least likely to get into conflict with 
current and well established uses that Wyoming citizens desire to 
maintain. Wyoming was first isolated by the other two States and the 
USFWS in an attempt to force Wyoming to reconsider the plan adopted by 
its citizens. In 2005, we saw for the first time, actions that were 
applied to Idaho and Montana. Both States were awarded greater 
management flexibility under the newly established 10(j) rules of the 
ESA.
    In 2008, we saw the USFWS remove the NRM DPS from Federal 
protections and saw the implementation of the 10(j) rules which were 
afforded only to Idaho and Montana. The importance of this step was 
that now States and tribes with approved USFWS plans were now able to 
better address ``unacceptable impacts'' to wild ungulate populations. 
Wyoming was excluded from this reprieve for our wild ungulates because 
the USFWS was unwilling to accept Wyoming's wolf management plan. 
Because Wyoming had made changes to our plan during the 2007 
legislative session, Wyoming was included in the recommendation to 
remove Federal protections; however, the 10(j) ruling allowing for 
greater management flexibility to protect our wild ungulate populations 
was NOT available or afforded to Wyoming.
    In 2009, Wyoming was once again treated differently than the other 
States within the NRM DPS. The USFWS, who actually helped Wyoming 
modify its 2007 plan to conform to their requested changes, once again 
declined in 2009 to defend Wyoming's plan and claimed it did not 
contain an adequately regulatory mechanism for the purpose of the ESA.
    Wyoming was once again forced to defend the legitimacy of their 
wolf management plan and wolf management decisions were once again 
turned over to the courts.
    In 2011 we saw the final delisting of the NRM DPS, excluding 
Wyoming.
    In 2012 we finally saw the delisting of gray wolves for Wyoming; 
however, that action was challenged in two different District courts 
outside the State of Wyoming. One of those courts has remanded 
authority back to the Wyoming District court; while the other, located 
in Washington, DC seeks to determine whether or not Wyoming should have 
the ability to manage wolves according to their wolf management plan.
    This also highlights another problem caused by the ESA and the 
manner in which it is implemented, for it is ultimately Wyoming and the 
citizens of this State that will be tasked and burden with the costs of 
maintaining and sustaining this recovered Nonessential Experimental 
Population of gray wolves found within its borders; yet, a court far 
removed from the area impacted may decide how Wyoming and its citizens 
will live with a species they have recovered.
    The ESA working group created by the Natural Resource Committee has 
asked for an open and honest discussion and seeks to answer the 
following questions:

How is ESA success defined?

    This is one of the major problems within the ESA. To some success 
is simply the listing of a species; to others, success is not achieved 
until a listed species is once again removed from Federal protections.
    Here is a story recently ran on FOX5 news from Las Vegas, NV about 
the Desert tortoise.
http://www.fox5vegas.com/story/23256865/desert-tortoise-faces-threat-
from-its-own-refuge#.UhunqKDj_WE.gmail.

            Desert Tortoise Faces Threat From Its Own Refuge

    For decades, the vulnerable desert tortoise has led a sheltered 
existence.
    Developers have taken pains to keep the animal safe. It's been 
protected from meddlesome hikers by the threat of prison time. And 
wildlife officials have set the species up on a sprawling conservation 
reserve outside Las Vegas.
    But the pampered desert dweller now faces a threat from the very 
people who have nurtured it.
    Federal funds are running out at the Desert Tortoise Conservation 
Center and officials plan to close the site and euthanize hundreds of 
the tortoises they've been caring for since the reptiles were added to 
the endangered species list in 1990.
    Officials expect to put down more than half the 1,400 tortoises at 
the research and holding facility in the coming months in preparation 
for closure at the end of 2014.
    Is this success?

How do we measure ESA progress?

    I believe this is another problem within the ESA as no current 
process requires an assessment or process to determine if progress is 
being made. The ESA, some would argue, is more about stopping progress 
than it is about protecting species. Listing is a well-defined and 
relatively simple process; whereas, removing a species from Federal 
protection is anything but defined. Often, in Wyoming, we have seen the 
goal posts moved once a species has met recovery goals and new bench 
marks have been established.

Is the ESA working to achieve its goals?

    The first paragraph in your email introduction states clearly: 
``The Endangered Species Act (ESA) was created four decades ago in 1973 
to preserve, protect and recover key domestic species. Since that time, 
over 1,400 U.S. domestic species and sub-species have been listed. Most 
species remain on the list and hundreds more could potentially be added 
within just the next 2 years.'' It would appear as though the mission 
of the ESA has continued to expand without ever having actually 
achieved many of its goals.

Is species recovery effectively prioritized and efficient?

    With a recovery rate of around 1 percent for species listed as 
threatened or endangered; clearly, it would cause the common person to 
conclude that the ESA is flawed and anything but efficient. It would 
also appear as though the purpose has expanded beyond preserving, 
protecting and recovering key domestic species to include all species.

Does the ESA ensure the compatibility of property and water rights and 
species protection?

    It would appear as though more weight is given to species 
protection over that of property and water rights. I know of local 
businesses which have been negatively impacted by indirect impacts 
associated with continued protections of recovered species. The town of 
Dubois, Wyoming has probably suffered more than any other town in 
Wyoming.

Is the ESA transparent, and are decisions open to public engagement and 
input?

    The ESA has definitely become much more than transparent. Some 
organizations, it would appear, have been able to turn the ESA and some 
species into a cash cow. Decisions are open to the public and input is 
readily obtained; however, it would appear as though nothing carries as 
much weight as litigation. This in turn causes the public to lose faith 
in the process and I believe puts species more at risk because the 
public is pushed aside by those who benefit from species listing. 
Notice I said listing not recovery of the species. Once a species is 
delisted or removed from Federal protections, it can no longer be a 
cash cow.

Is litigation driving the ESA? Is litigation helpful in meeting ESA 
goals?

    As a member of a group that has been forced to turn to litigation 
in order to get fair consideration of Wyoming's wolf management plan I 
can state that litigation is necessary at times. However, I do wonder 
whether or not litigation is driving the ESA. Unfortunately, as I 
stated earlier, I believe some organizations attempt to stop delisting 
from occurring as recovered species don't seem capable of generating 
money as do species which remain listed and under current threats, 
whether those threats are real or imagined.

What is the role of State and local government and landowners in 
recovering species?

    I believe it was the intent of those who created the ESA to involve 
State and local government as well as private landowners; however, I 
believe their role has been greatly diminished due to the lack of 
understanding of the powers they have under the ESA. Landowners should 
be more involved with recovery efforts as successful recovery efforts 
are more likely to occur if landowners and affected communities rally 
around threatened or endangered species.

Are changes to the ESA necessary?

    Yes, I believe that the ESA is in need of some changes.
Possible Solutions
    States should be given equal status with the USFWS and 
decisionmaking powers should be equally shared between the Secretary of 
Interior and Governor of each respective State.
    States are better suited to manage our wildlife resources than the 
U.S. Fish and Wildlife Service (USFWS). States are already paying the 
costs for species recovery. States are better suited to work 
collectively with effected communities and assess and understand the 
actual economic impacts. The USFWS adds complexity to the process and 
allows litigants to search for courts that are far removed from the 
impacted areas and thus easier to manipulate.
    One need only look at how the wolf delisting has occurred in 
Wyoming to see an exact example of the debacle the ESA has become. From 
the very beginning Wyoming has been thwarted from implementing a plan 
the people of Wyoming desired.
    It is ultimately Wyoming citizens which will ensure that the 
species remains recovered. It is the Wyoming citizens which have been 
obligated to shoulder the cost; both indirectly and directly. It is our 
wildlife resources which are being sacrificed on the altar of wildlife 
worshipers because some would prefer to feed wild animals rather than 
allowing Wyoming's citizens to be fed via our own wildlife resources. 
It is Wyoming's citizens which are faced with the possibility that 
someone else may determine our fate.
    Couple this with the fact that Wyoming is spending on average $1 
million a year managing grizzly bears even though this species has 
surpassed recovery goals, was delitsed in 2007 only to be relisted by 
people that are not tasked with paying the management costs nor forced 
to live daily with the potential threat of a grizzly bear encounter. 
The USFWS orders the destruction of several grizzly bears every year 
yet hunting them is unacceptable. The truth is that sportsmen were and 
remain the first conservationists. We put our money where our mouths 
are, so to speak.
Single Species Management Does Not Work
    Congress needs to amend the ESA to stopped single species 
management from trumping management of the whole ecosystem. One of the 
problems within the ESA is that it forces one species to take a higher 
priority over the complete ecosystem and other species within it. There 
are a lot of examples of how good intentions have led to bad outcomes 
simply because by protecting one species we have altered the natural 
balance. If something is NOT changed soon, we will soon see species 
being listed as a direct result from species which Congress has either 
protected via treaty or granted protections under the ESA.
    Wildlife populations are highly variable. By granting protections 
to some species, the ESA is potentially causing some species to be 
maintained at much higher densities than would have naturally occurred. 
This in turn may be causing significant impacts to species from 
increased competition for food, space and water. It also may cause some 
species to be more at risk of predation since some species appeared to 
have been more migratory in the past, are now becoming year round 
residents. An example of this would be raven's (protected under the 
Mexican Bird Treaty) and sage grouse (a species currently under threat 
of listing).
Unfunded Federal Mandates
    The ACT states; encouraging the States and other interested 
parties, through Federal financial assistance and a system of 
incentives, to develop and maintain conservation programs which meet 
national and international standards is a key to meeting the Nation's 
international commitments and to better safeguarding, for the benefit 
of all citizens, the Nation's heritage in fish, wildlife, and plants.
    The ESA is costing States millions of dollars. In Wyoming, grizzly 
bears have a price tag of approximately $1 million per year. The USFWS 
has contributes ______ per year toward grizzly bear management costs.
    What recourse currently exists for States to recuperate the costs 
of a listed species? As I stated earlier, the States are task with both 
the burden and cost of protecting a listed species; yet, the ESA is 
protecting that species for the entire Nation. More needs to be done to 
understand the actual costs of the ESA to affected States.
Government Accountability
    The USFWS also needs to be held accountable for commitments they 
make. Wyoming was told that wolves would have no economic impact to the 
State; yet, countless people have been impacted by the Nonessential 
Experimental Population of gray wolves foisted upon the State. People 
should not be told there will be no economic impact and then left to 
suffer under continued protections of a recovered species. How is the 
USFWS held accountable for statements they make at the onset to listing 
a particular species? It appears as though they can make any statement 
and then simply walk away once the process has started.
Human Health and Safety
    Human health and safety also seems to be something that needs to be 
added to the ESA. As the grizzly bear distribution map I presented 
shows, grizzly bears are expanding beyond their Primary Conservation 
area and their identified suitable habitat. This will continue to cause 
an increase in human/grizzly bear conflicts. Is it acceptable for the 
USFWS to put human lives at risk? Can we honestly state that the 
constitutional guarantee that no person or class of persons shall be 
denied the same protection of the laws that is enjoyed by other persons 
or other classes in like circumstances in their lives, liberty, 
property, and pursuit of happiness when only a very few States subject 
their citizens to the risk of a grizzly bear encounter we continually 
endure in our State?
    Another issue is with regards to diseases associated with 
Nonessential Experimental Population of Gray Wolves; Echinococcus 
granuioslis (E.g.). I have included a letter from the USFWS to an 
individual which had contacted U.S. Senator John Barrasso (R-WY). While 
the letter is meant to dispel concerns about this tapeworm, it also 
leaves some questions unanswered. How much more at risk are those which 
live in close proximity to wolves than those which live elsewhere? Once 
again, are we as westerners being exposed to threats that other U.S. 
citizens are not? It appears that more research should have been 
conducted prior to gray wolves being introduced. Congress needs to 
ensure that the ESA cannot continue to create different classes of 
people nor put human lives at risk by exposing them to threats imposed 
upon them by the continued protection of recovered species.
    The Congress finds and declares that the United States has pledged 
itself as a sovereign state in the international community to conserve 
to the extent practicable the various species of fish or wildlife and 
plants facing extinction, pursuant to--

    (A) Migratory bird treaties with Canada and Mexico;
    (B) The Migratory and Endangered Bird Treaty with Japan;
    (C) The Convention on Nature Protection and Wildlife Preservation 
in the Western Hemisphere;
    (D) The International Convention for the Northwest Atlantic 
Fisheries;
    (E) The International Convention for the High Seas Fisheries of the 
North Pacific Ocean;
    (F) The Convention on International Trade in Endangered Species of 
Wild Fauna and Flora; and
    (G) Other international agreements.

    How do the grizzly bear, wolf, and other species discussed here 
today fit into the international intent of the ACT?
    We are the envy of the World because of our abundant and rich 
wildlife resources.
    Thanks for your time and service in the U.S. House of 
Representatives and for the opportunity to provide my thoughts and 
comments pertaining to the ESA and its impact on Wyoming's Sportsmen 
and Sportswomen.
                                 ______
                                 
    The Chairman. I want to let you know that I can give a 
little time, but a little time.
    Mr. Wharff. Thank you again.
    The Chairman. Thank you for your testimony.
    I would now like to recognize Ms. Renee Taylor, owner of 
Taylor Environmental Consulting here in Casper.
    Ms. Taylor, you are recognized for 5 minutes.

   STATEMENT OF RENEE C. TAYLOR, OWNER, TAYLOR ENVIRONMENTAL 
                CONSULTING LLC, CASPER, WYOMING

    Ms. Taylor. OK. I want to thank the committee for inviting 
me here this morning. I have a small consulting business here 
in Casper, and I have been active in the environmental industry 
one way or the other for the last 30 years, and with the ESA 
directly.
    I will explore some of the frustrations that I have seen 
and felt with the ESA and the impact it has on effective 
species conservation, jobs, property, and multiple use based on 
my experience with the Preble's Meadow jumping mouse and the 
greater sage grouse.
    Frustrations with the ESA generally fall into three 
categories, the selective use of data and research, ESA 
decisions driven by litigation and settlements, and the lack of 
consideration for public participation and conservation 
actions.
    In August, you heard from Dr. Ramey about the data 
requirements of the act. ESA decisions are to be based on the 
best available data, not outcomes that are founded on data that 
is unavailable and therefore cannot be tested or replicated.
    Similarly, we see the ever-increasing use of predictive 
modeling to determine outcomes well into the future. However, 
the Service never tests these models to determine if they are 
real-world, accurate situations. Instead, the Service deems 
them accurate and demands conservation action based on them.
    Selective use of peer and non-peer-reviewed literature is 
also an issue to us. The agencies tell us that all information 
used for decisionmaking must be peer reviewed. However, in 
agency decisions we often see select non-peer-reviewed 
materials, including gray literature, alongside peer-reviewed 
works, while data provided by industry or private parties is 
often ignored.
    Moving conservation targets are also an issue for us. The 
mitigation bar is continually being revised as a result of 
``emerging information.'' We never allow an ESA or conservation 
decision to play out long enough to see if the findings were 
correct or if the applied mitigations actually work.
    Agency response to our concerns is that the sky is falling 
and we must do whatever we can to conserve the species if we do 
not act immediately. This is not sound science.
    Section 4 of the ESA contains timeframes for completing the 
various statutory phases of the listing. If the Service 
actually adhered to these timeframes, the vast majority of the 
litigation could be avoided.
    Settlements between a plaintiff and the U.S. Fish and 
Wildlife Service are generally crafted in a vacuum and targeted 
toward the outcomes desired by the plaintiff. The potentially 
affected parties--States, tribes, landowners, business 
entities, et cetera--should be, must be included in these 
deliberations. We saw the outcome of this closed process again 
last week with the settlement between the Service and the 
Center for Biological Diversity regarding the Mexican wolf in 
Arizona and New Mexico.
    Settlements between the Service and plaintiffs, such as 
that in 2011 with Wild Earth Guardians and the Center for 
Biological Diversity, which requires the Service to reconsider 
listing decisions and to specify the timeframes within which 
they should do so, not only allows the plaintiffs to set the 
agency's priorities but takes staff away from more pressing 
conservation issues such as agreements with landowners and 
States who are trying to work within the act and the associated 
regulatory systems.
    Litigation-driven outcomes end up with decisions being made 
by individual judges on information provided by often special-
interest select experts. Judges are not supposed to be making 
scientific decisions within the ESA.
    Local and State conservation efforts are ignored or co-
opted by negotiated settlements, and Section 6 of the ESA 
directs the Service to work with States and to accept 
applicable and appropriate State conservation programs.
    Because of the lack of time, I am going to skip a whole lot 
relative to the Preble's Meadow jumping mouse, but please be 
assured that this is a perfect example of what is wrong with 
the ESA, and litigation dragging outcomes. This mouse should 
not be listed in the State of Wyoming. Sorry about Colorado.
    [Laughter.]
    Mr. Lamborn. Apology accepted.
    [Laughter.]
    Ms. Taylor. The greater sage grouse is another example of 
things going awry. The State of Wyoming has done its job 
through its MOU with the Fish and Wildlife Service, BLM and the 
other States to enact conservation planning for the greater 
sage grouse in its State and on a local and statewide basis. 
Because of what I will call the conservation NGO's don't like 
our conservation plan, and they don't like the fact that the 
Service does not list species, they constantly take the species 
to court, where Judge Winmill is directing the Service and the 
BLM in how they are to do their sage grouse decisions. This is 
not appropriate.
    A significant portion of the range is a huge deal. That is 
how the Service was forced to vacate its de-listing of the 
Preble's Meadow jumping mouse, because the significant portion 
of the range policy that was in service was vacated, and 
Wyoming could get sucked into a sage grouse conservation 
program through listing because there is no significant portion 
of the range policy.
    The fact that you have this strong, stable sage grouse 
population and conservation practices that work should not 
punish you by being listed. You should be rewarded by not being 
listed.
    The State of Wyoming and its conservation partners, its 
citizens, have worked for 10 years to come up with a viable 
conservation plan.
    Thank you, sir.
    [The prepared statement of Ms. Taylor follows:]
  Prepared Statement of Renee C. Taylor, Owner, Taylor Environmental 
                    Consulting LLC, Casper, Wyoming
    I will explore the frustration with the ESA and the impact it has 
on effective species conservation, jobs, property and multiple use 
using two species I am very familiar with; Preble's meadow jumping 
mouse and greater sage-grouse.
    Our frustrations with ESA generally fall into three categories, (1) 
selective use of data and research, (2) ESA decisions driven by 
litigation and settlements and (3) lack of consideration for public 
participation and conservation actions:

    <bullet> In August, you heard from Dr. Ramey about the data 
            requirements of the Act, ``the best scientific and 
            commercial data available.'' ESA decisions are to be made 
            based on the best available data, not outcomes that are 
            founded on data that is unavailable and therefore the 
            outcomes cannot be replicated and the data cannot undergo 
            additional testing through the scientific method.
    <bullet> Similarly, we see the ever-increasing use of predictive 
            modeling to determine outcomes well into the future; 
            however, the Service never tests these models in a real 
            word situation to determine if the modeled outcomes are 
            accurate. Instead the Service deems them accurate and 
            demands conservation action based on them.
    <bullet> Selective use of peer and non-peer reviewed literature by 
            agencies (i.e. FWS and BLM). We are told by FWS that all 
            information used in their decisionmaking must be peer 
            reviewed; there is nothing in the act about only peer 
            reviewed materials being considered. However, in agency 
            decisions we often see select non-peer reviewed materials, 
            including gray literature, being cited alongside peer 
            reviewed works. While data provided by industry is often 
            ignored.
    <bullet> Moving conservation targets: The mitigation bar is 
            continually being revised as a result of emerging 
            information. We never allow an ESA/conservation decision to 
            play out long enough to see if the findings were correct or 
            if applied mitigations work. Our response is always ``the 
            sky is falling and the species is going to blink out'' if 
            we do not act immediately. Mother Nature does not react 
            like that.
    <bullet> Section 4 of the ESA contains timeframes for completing 
            the various statutory phases of species listing. If the 
            Service actually adhered to these timeframes the vast 
            majority of the litigation could be avoided, it is the 
            slipping of these requirements that provides the 
            opportunity for settlements that leave other interested and 
            potentially affected parties out of the loop.
    <bullet> Settlements between a plaintiff and the USFWS are 
            generally crafted in a vacuum and targeted toward the 
            outcomes desired by the plaintiff. The potentially affected 
            parties (States, tribes, landowners, business entities, 
            etc.) must be included in these deliberations. We saw this 
            again last week with the settlement between the Service and 
            the Center for Biological Diversity regarding the Mexican 
            wolf in Arizona and New Mexico.
    <bullet> Settlements between the Service and plaintiffs, such as 
            that in 2011 with Wild Earth Guardians and Center for 
            Biological Diversity, which requires reconsideration of 
            species listing decisions and specifying the timeframes 
            within which to do so, not only allows the plaintiff to 
            sets the agencies priorities but takes staff away from more 
            pressing issues such as conservation agreements with 
            landowners and States who are trying to work within the act 
            and associated regulatory system.
    <bullet> Litigation driven outcomes with decisions being made by 
            individual judges based on information provided by often 
            special interest selected ``Experts,'' during settlement 
            hearings/conferences.
    <bullet> Local and State conservation efforts are ignored or co-
            opted by ``emerging science,'' negotiated settlements and 
            litigation. Section 6 of the ESA directs the Service to 
            work with States and to accept applicable and appropriate 
            State conservation programs, among other things.
1. Preble's Meadow Jumping Mouse (PMJM or Zapus hudsonius preblei)
  (a) 1998--Listed in Colorado and Wyoming, listing was preceded by 
            significant trapping effort in Colorado but only one 
            trapping event in historical range of the species in 
            Wyoming.
  (b) 1999--a private landowner in SE Wyoming came forward to conduct 
            an extensive trapping program in the historical range and 
            in habitats that were ``similar'' to those where the 
            subspecies was found in Colorado. Resulting in the capture 
            of 33 individuals, 24 more than the Wyoming historical 
            record.
  (c) FWS gathers a ``Recovery Planning Team'' which meets extensively 
            for the next 5 years with no measurable outcome.
  (d) June 2003--FWS designates critical habitat in Wyoming and 
            Colorado for the subspecies.
  (e) December 2003--Dr. Ramey determines the PMJM is not a unique 
            subspecies.
  (f) December 2003--State of Wyoming filed their first petition to 
            delist.
  (g) February 2005--FWS publishes proposal to delist PMJM in Wyoming.
  (h) 2006--Dr. King (USGS) determines the PMJM is a unique subspecies.
  (i) FWS enters into a hand selected peer review panel process to 
            ``evaluate'' the genetics work completed by Drs. Ramey and 
            King; FWS ``Peer Review'' panel is initiated on two 
            occasions.
  (j) Sept. 2006 (through Oct. 2007)--Wyoming files notice of intent to 
            sue FWS over non action on the 2005 petition to delist.
  (k) 2008--Delisted in Wyoming.
  (l) 2009--Petition filed by Center for Native Ecosystems, followed by 
            a court order, to re-instate regulatory protections for 
            PMJM in Wyoming based on issues related to the definition 
            of ``significant portion of the range'' (SPR).
  (m) August 2011--to comply with the Court Order the PMJM is re-listed 
            in Wyoming based on vacating the FWS policy on SPR.
  (n) December 2011--the Service and National Marine Fisheries Service 
            notice of draft policy regarding application of SPR; the 
            Service has yet to finalize the rule defining this critical 
            piece of the act, which would allow them to list species 
            only where they are at greatest risk.
  (o) May 2013--Again, (from the 2011 settlement agreement) a court 
            ordered date by which to conduct the 5-year status review 
            and (finally) address the two petitions to delist received 
            in 2003 (FR Vol. 78, No. 101, pg. 31680). The status review 
            again re-iterates the lack of risk to the species in 
            Wyoming from oil and gas development, farming and livestock 
            ranching. But stresses the potential impact from human 
            population growth in the four Wyoming counties where PMJM 
            is found, reveling a 13 percent increase (20,410 people) by 
            2030 including the concern that Cheyenne might grow by 
            8,372 soles. The review also discusses the potential 
            negative effects on PMJM habitat from climate change and 
            fire. These out comes are derived through modeling efforts 
            extending out 30 to 50 years and completely ignores the 
            fact that fires and climate change have occurred over the 
            range of the species since it came into existence. Not to 
            mention that population growth of 20,000 persons is minute 
            and will generally not occur within Preble's habitat. Based 
            on these finding the Service determined that the risk to 
            the species is significant therefore it could not de-list 
            the species in Wyoming.

    All this is over a mouse that Gwilym Jones, in his 1981 
encyclopedic review of the Genus Zapus, states ``There is no evidence 
of any population of Zapus hudsonius (ZH) being sufficiently isolated 
to warrant subspecific status'' (Jones 1981). What Dr. Jones points out 
is that these 14 to 19 ``subspecies'' of Zapus hudsonius are really 
races, not subspecies worthy of ESA protection.
    Genetics has a long history of the argument between ``Lumpers'' 
(Dr. Ramey) and ``Splitters'' (Dr. King). ZH is ripe territory for such 
arguments but so are domestic cats and dogs. Basically, following the 
same logic used to determine that the PMJM is a unique subspecies, we 
could also demonstrate that your cat and mine are separate subspecies 
and one or the other may be worthy of ESA protection. As Dr. Taylor 
Haynes, so eloquently stated at a Preble's Recovery Team meeting, ``A 
species being rare or uncommon does not equal a species at risk of 
extinction and ESA protection.''
    Another important point brought out by Dr. Jones (1981) is that 
``populations of the progenitors of the (Zapus) genus were isolated by 
the thawing of the glaciers and associated meltwaters with further 
isolation of groups occurring during periods of environmental drying.'' 
So much for the ``climate change'' we discuss today being a unique 
event in the history of the earth. Indeed, climate change is one of the 
natural forces of evolution. Sadly, the Service determined it could not 
recognize the work of Dr. Jones, or his 569-page dissertation, as it 
was not ``peer reviewed.''
    This mouse is the perfect example of everything wrong with ESA, 
initial decisions based on little or no data, private parties have to 
do the work of the Service to collect the necessary data. The bright 
spot in the story is that the FWS staff acknowledged the new data and 
the cooperation of landowners, eventually amending the listing decision 
based on a petition from the State. Unfortunately, as we see so often, 
the special interest NGO's don't like sound, on the ground science-
based decisionmaking and sued for a re-evaluation of the delisting; 
eventually ending with the court ordered listing of a species in an 
area where no risk to the species has been documented. Special interest 
driven decisions are the outcome and completely ignore the potential 
impacts to the very people who have provided habitat for the species 
while also providing jobs and food for the Nation and their families.
2. Sage-grouse
    The greater sage-grouse story in Wyoming generally starts in 1999 
when the game and fish departments in States within the range of the 
species, BLM and USFWS enter into an Memorandum of Understanding to 
look at the species and what could be done to conserve it. The States 
were tasked with developing State and local level conservation plans; 
these were to address conservation taking into consideration local 
economies, impacts and habitats. This story begins with the threat of 
the ESA, do something to conserve the species or we will have to list 
it!
    Wyoming completed its statewide plan in 2003 and immediately set 
about the local planning process. All these workgroups included members 
from the oil and gas and mining industries, wildlife biologists, 
private landowners, agriculture, ``conservation'' NGO's, local 
government, NRCS, WGFD and the BLM, with the Service in attendance. 
These planning efforts were completed and evolved into an Executive 
order issued by Governor Freudenthal in 2008, with the goal of 
maintaining or enhancing the sage-grouse population in designated Core 
Population areas. This EO has been amended twice since 2008 with the 
latest in 2011 (SWED 2011).
    In a 2011 letter to Governor Mead, the USFWS stated it ``continues 
to view implementation of the Executive order as an adequate mechanism 
to preclude the need to list this species and if the Executive order 
remains a sound policy to manage and protect sage-grouse populations in 
Wyoming. The Service believes the Executive order can result in the 
long-term conservation of the Greater sage-grouse and thus reduce the 
need to list the species under the Endangered Species Act of 1973, as 
amended (16 U.S.C. 1531 et seq.). If fully implemented, we believe the 
Executive order can provide the conservation program necessary to 
achieve your goal of precluding listing of the Greater sage-grouse in 
Wyoming.''
    The BLM Washington Office IM 2012-043 further affirmed the Wyoming 
Core Population Area Protection process by stating, ``The BLM field 
offices do not need to apply the conservation policies and procedures 
described in this IM in areas in which (1) a State and/or local 
regulatory mechanism has been developed for the conservation of the 
Greater Sage-grouse in coordination and concurrence with the USFWS 
(including Statewide Executive Order 2011-5, Great Sage-Grouse Core 
Area Protection; SWED 2011); and (2) the State sage-grouse plan has 
subsequently been adopted by the BLM through the issuance of State-
level BLM IM.''
    In February 2012 the BLM Wyoming State Office issued IM WY-2102-
019, Greater Sage-Grouse Habitat Management Policy on Wyoming BLM 
Administered Public Lands Including the Federal Mineral Estate. This IM 
provides guidance to BLM Wyoming field offices regarding management 
consideration of greater Sage-grouse habitats for proposed activities 
until the resource management planning amendments are completed. This 
IM is consistent with the Washington IM mentioned above and the State 
Executive order.
    The Wyoming Conservation Strategy, as described in the EO, is 
premised on the concept of managed development of oil and gas, mining 
and wind energy in Core Population areas, those areas of the State with 
the most robust populations of sage-grouse. Approximately 86 percent of 
the grouse in the State receive enhanced protection under this program. 
The Core concept was based in large part on research findings that 
illustrated that sage-grouse and oil and gas development can and do co-
exist (Taylor et al. 2007 and 2011). Publically available Wyoming data 
was used in this effort to determine under what conditions grouse 
exhibit a decline or avoid an area. The EO then used other Wyoming 
based research findings, relative to avoidance of oil and gas 
operations, and buffered this information to provide an added 
conservation cushion.
    A key component of the Wyoming conservation strategy is the 
analysis of all projects, that require a State or Federal agency 
permit, proposed within a ``Core Population Area.'' This GIS analysis 
of disturbance and disruptions (DDCT) evaluates the level of existing 
and proposed surface disturbance and disruptions (active well sites and 
or mining locations) within 4-miles of a sage-grouse lek (the 
definition of the analysis area is more complicated than this). In my 
experience, these analysis areas can be quite large, for example 
55,0000 acres to evaluate the effect of fewer than 10 new well sites. 
If the proposed project will not exceed the disturbance and disruptions 
limitations stipulated in the Executive order the project receives a 
``concurrence'' or ``go-ahead'' letter from the WGFD. In the event the 
project analysis reveals that these limitations will, or already are 
exceeded, the WGFD and the BLM (if involved), work with the proponent 
to reduce/mitigate impacts to the species. This process needs to be 
followed for a number of years so we can determine if it works to 
``maintain or enhance'' sage-grouse populations in the State of 
Wyoming. Only after the program is tracked and the population data 
analyzed over a good number of years (3 year running average as stated 
in the Wyoming Conservation Strategy) should we make any changes.
    All that said, none of this is adequate enough for the 
``conservation'' NGO's who continue to pound the table with new 
emerging research ``demonstrating'' that the EO and IMs are not 
adequate. They continually take their case to U.S. District Court Judge 
John B. Lynn Winmill, who has mandated BLM consider the National 
Technical Team (NTT) Report (BLM 2011) in the process of amending nine 
BLM Resource Management Plans to more fully address sage-grouse 
conservation. Similarly, the NGO's have demanded, and BLM capitulated, 
that a ``Recovery Alternative'' be considered. Neither of these 
``conservation'' strategies recognizes the valid existing rights of oil 
and gas lessees, the rights of private landowners, and the resource 
based economies of the State or the multiple use mandate of the BLM. 
They certainly do not recognize that in Wyoming oil and gas, 
agriculture and sage-grouse have co-existed quite nicely for over 100 
years.
    Long story short, regardless of the broad based public process and 
cooperation that went into the development of the Wyoming sage-grouse 
conservation program or the endorsement of the Wyoming concept by USFWS 
and BLM, the threat of the ESA listing is constantly hung over the 
issue and used as a battering ram to force more stringent conservation 
measures to be implemented.
    As with the PMJM, the definition of SPR and a clear policy for its 
use is of critical importance to the State of Wyoming. Without the 
ability to identify and provide listing protection to the species in 
those areas where it is truly at risk due to a lack of conservation 
effort, Wyoming could end up included in a listing decision because of 
its strong and stable grouse population and conservation practices. 
This would effectively punish the State and its citizen partners for 
their hard work in developing and implementing grouse conservation.
    The courts should not control the outcome of the ESA. ESA decisions 
should rely solely on the best available data not the professional 
opinion of folks with a conservation bias. Sage-grouse represents one 
of, if not the largest, voluntary conservation efforts in the history 
of ESA but this could all be lost if the court and special interest 
plaintiffs are allowed to direct the outcome. I suspect that if this 
were to happen the Service would be hard pressed to garner much public 
support in the future. The Service should acknowledge the tremendous 
level of public participation and effort that has gone into the range 
wide conservation of sage-grouse and allow it to play out. The BLM (in 
the case of sage-grouse) and the Service constantly kowtow to the 
demands of the litigants who use the courts to move forward their case 
leaving those that have participated honestly in the regulatory process 
in the dust.
    In closing, I must admit I am not an advocate of opening up the 
ESA; I have grave concern about the effort being taken over by special 
interests, just as has occurred with ESA to date. The USFWS must be 
directed to operate as was originally conceived in the act; sound 
science based on the best available data. The ESA contains timeframes 
for acting on petitions, if the Service were to abide by these 
constraints there would be little fodder for litigants. And last, in 
this era of bio-politics, when cohorts of researchers control the 
published literature and therefore the conservation outcome, any change 
in the ESA will not affect the apparent lack of scientific integrity. 
Regardless of the good intentions of this committee, honesty in the use 
of the scientific method cannot be legislated.
Literature Cited
    Bureau of Land Management. 2011. A Report on National Greater Sage-
grouse Conservation Measures. National Technical Team. On line at: 
https://www.google.com/
url?sa=t&rct=j&q=&esrc=s&source=web&cd=1&cad=rja&ved=0CC
sQFjAA&url=http%3A%2F%2Fwww.blm.gov%2Fpgdata%2Fetc%2Fmedialib%2Fblm
%2Fco%2Fprograms%2Fwildlife.Par.73607.File.dat%2FGrSG%2520Tech%2520Team
%2520Report.pdf&ei=KLUjUrfND6veyQHN9oBY&usg=AFQjCNHgNuTc3NkzaIBHO
kYhnTdJawD-kg&bvm=bv.51495398,d.aWc.
    Jones, G.S. 1981. The Systematics and Biology of the Genus Zapus 
(Mammalia, Rodentia, Zapododae (Canada, United States). Indiana State 
University, Terre Haute, Indiana.
    Taylor, R.C., Matthew Dzialak and Larry Hayden-Wing. 2007. Greater 
Sage-grouse Populations and Energy Development in Wyoming. Online at 
http://bogc.dnrc.mt.gov/PDF/WYsageGrouseNov2paper.pdf.
    Taylor, R.C., Brook Russell and Bryan Taylor. 2011. Synopsis, 
Greater Sage-grouse Populations and Energy Development in Wyoming--2010 
Update.
    USFWS. 2011. Letter from R. Mark Sattleberg, Wyoming Field Office 
Field Supervisor, Ecological Services to Matthew H. Mead regarding the 
Wyoming Executive Order 2011-5 Greater sage-grouse protection. Dated 
June 24, 2011. Reference number ES-61411/WY11TA0313.
    SWED. 2011. State of Wyoming, Executive Department. Executive order 
2011-5, Greater sage-grouse core area protection. Online at http://
wgfd.wyo.gov/web2011/Departments/Wildlife/pdfs/
SAGEGROUSE_EO_COREPROTECTION0000651.pdf.
                                 ______
                                 
    The Chairman. You are very perceptive.
    [Laughter.]
    The Chairman. Thank you very much. Your comments on the 
Preble mouse are in the written statement, so it is part of the 
record.
    Ms. Taylor. Thank you.
    The Chairman. I would now like to recognize Mr. Jeff Meyer, 
the Managing Partner for the Sweetwater River Conservancy in 
Alcova, Wyoming.
    Mr. Meyer, you are recognized.

  STATEMENT OF JEFF MEYER, MANAGING PARTNER, SWEETWATER RIVER 
                  CONSERVANCY, ALCOVA, WYOMING

    Mr. Meyer. Good morning, Mr. Chairman, and welcome to 
Wyoming. It is a pleasure to join you, Congressman Lummis, and 
your colleagues to talk about species protection, jobs, 
property, and multiple use. I am Jeff Meyer, the Managing 
Partner of the Sweetwater River Conservancy.
    The Sweetwater River Conservancy is headquartered 40 miles 
southwest of Casper on the Pathfinder Ranch. It is comprised of 
nine working cattle ranches located along the North Platte and 
Sweetwater Rivers. The SRC lands total 712,000 acres, an area a 
little bit larger than the State of Rhode Island.
    Today these historic lands offer a powerful platform to 
realize three groundbreaking ideas: first, an idea to bring 
willing landowners and investors together to expand the 
protection of Wyoming's iconic wildlife; second, an idea to 
help Wyoming capitalize on its abundant natural resources; and 
third, an idea to demonstrate how keeping intact landscape-size 
parcels of private land is good for business.
    Earlier this year, with the full support of the State of 
Wyoming, SRC submitted applications to the United States Army 
Corps of Engineers to create a Wetland, Stream, and Riparian 
Mitigation Bank, and the U.S. Fish and Wildlife Service to 
create a Sage Grouse Habitat Conservation Bank, all on SRC-
owned lands. We will submit a third application for a raptor 
bank later this year. These banks will be the first of their 
kind in Wyoming and the largest ever in the United States.
    The enactment of the Clean Water Act and the Endangered 
Species Act in the 1970s set the stage for our strategy today. 
These laws were motivated in part by the loss of critical 
habitat and the fragmentation of large landscapes. Today, four 
decades later, the debate surrounding the implementation of 
this legislation continues to rage and the time for new 
thinking seems ripe.
    To protect critical habitat, regulators apply the principle 
of no net loss and condition the issuance of a permit on the 
ability of a developer to mitigate the consequences. They 
require the developer to, first, avoid the impact when 
possible; second, minimize the impact; and third, compensate 
for unavoidable impacts. But without a clear way to meet these 
requirements, a project can languish for years or be derailed 
altogether.
    Within the third category, compensatory mitigation, we 
believe SRC will make a constructive contribution toward the 
goals of the ESA.
    SRC lands are home to high-quality habitat for the greater 
sage grouse, raptors, black-footed ferret, and several other 
plants and animals that are being carefully monitored by the 
U.S. Fish and Wildlife Service. Throughout the past 5 years, 
over 100 scientists have spread out over our ranches to catalog 
these resources. They worked their way over four mountain 
ranges, 70 miles of major river frontage, across hundreds of 
miles of side streams and tributaries, and through tens of 
thousands of acres of sagebrush scrub lands. This unparalleled 
body of knowledge served as the basis for the applications we 
recently submitted.
    Once approved, we will actively restore and enhance the 
water quality and wildlife habitat on our lands using private 
capital and following strict scientific protocols approved by a 
task force of State and Federal regulators. These improvements, 
known as ``lift,'' will create certified credits that can be 
used by developers to offset the impacts of energy projects 
elsewhere in the same geographic service area.
    The price for these credits will be negotiated on a willing 
seller/willing buyer basis. No one will be obligated to buy 
them, and developers will have the option of doing their own 
compensatory mitigation or contracting with others. It is our 
business assumption, however, that by investing heavily in the 
preapproved, up-front mitigation, we will have an appealing 
product that adds valuable clarity and predictability to the 
permitting process.
    But adding clarity and predictability is not the only 
benefit to the SRC mitigation banks. The benefits are much 
wider. One, neighboring ranchers who partner with us will have 
a new source of revenue by managing their lands for both cattle 
production and wildlife enhancement.
    For the conservationist, SRC's unique approach supports 
habitat conservation across large landscapes, creating an 
ecologically compelling solution and an unrivaled product. 
Sportsmen will continue to have access to our lands and enjoy 
higher populations of game and fish. Regulators will have a 
credible new tool that enables them to protect species and 
promote multiple use of public lands. And finally, these 
improvements will be financed by private investors and will not 
rely on Federal appropriations or tax credits to succeed.
    Thank you.
    [The prepared statement of Mr. Meyer follows:]
 Prepared Statement of Jeff Meyer, Managing Partner, Sweetwater River 
                      Conservancy, Alcova, Wyoming
    Good morning Mr. Chairman and welcome to Wyoming. It is a pleasure 
to join you, Congressman Lummis, and your colleagues to talk about 
species protection, jobs, property and multiple use. I am Jeff Meyer, 
the Managing Partner of the Sweetwater River Conservancy.
    The Sweetwater River Conservancy (SRC) is headquartered 40 miles 
southwest of Casper on the Pathfinder Ranch. Comprised of nine working 
cattle ranches located along the North Platte and Sweetwater Rivers, 
SRC lands total 712,000 acres--an area about the size of Rhode Island.
    Today these historic lands offer a powerful platform to realize 
three groundbreaking ideas. First, an idea to bring willing landowners 
and investors together to expand the protection of Wyoming's iconic 
wildlife. Second, an idea to help Wyoming capitalize on its abundant 
natural resources. And third, an idea to demonstrate how keeping intact 
landscape size parcels of private land is good business.
    Earlier this year, with the full support of the State of Wyoming, 
SRC submitted applications to the U.S. Army Corps of Engineers to 
create a Wetland, Stream, Riparian Mitigation Bank and to the U.S. Fish 
and Wildlife Service to create a Sage Grouse Habitat Conservation Bank, 
all on SRC ranch lands. We will submit a third application for a raptor 
bank later this year.
    These banks will be the first of their kind in Wyoming and the 
largest ever permitted in the United States.
    The enactment of the Clean Water Act and the Endangered Species Act 
in the 1970s set the stage for our strategy today. These laws were 
motivated in part by the loss of critical habitat and the fragmentation 
of large landscapes. Today, four decades later, the debate surrounding 
the implementation of this legislation continues to rage and the time 
for new thinking seems ripe.
    To protect critical habitat, regulators apply the principle of ``no 
net loss'' and condition the issuance of a permit on the ability of a 
developer to mitigate the consequences. They require the developer to 
first, avoid the impact when possible; second, minimize the impact; and 
third, compensate for unavoidable impacts. But without a clear way to 
meet these requirements, a project can languish for years or derail 
altogether.
    Within the third category, ``compensatory mitigation'', we believe 
SRC will make a constructive contribution toward the goals of the 
Endangered Species Act.
    SRC lands are home to high quality habitat for the greater sage 
grouse, raptors, mule deer, black footed ferret, and several other 
plants and animals that are being carefully monitored by the U.S. Fish 
and Wildlife Service. Throughout the past 5 years, over 100 scientists 
have spread out over our ranches to catalogue these resources. They 
worked their way over four mountain ranges, along 70 miles of major 
river frontage, across hundreds of side streams and tributaries, and 
through thousands of acres of sagebrush scrub lands.
    This unparalleled body of knowledge served as the basis for the 
applications we recently submitted.
    Once approved, we will actively restore and enhance the water 
quality and wildlife habitat on our lands using private capital and 
following strict scientific protocols approved by a task force of State 
and Federal regulators. These improvements, known as ``lift'', will 
create certified credits that can be used by developers to off-set the 
impact of energy projects elsewhere in the same geographic service 
area.
    The price for these credits will be negotiated on a ``willing 
seller--willing buyer'' basis. No one will be obligated to buy them and 
developers will have the option of doing their own compensatory 
mitigation or contracting with others.
    It is our business assumption, however, that by investing heavily 
in ``pre-approved'' up front mitigation, we will have an appealing 
product that adds valuable clarity and predictability to the permitting 
process.
    But adding clarity and predictability is not the only benefit to 
the SRC mitigation banks. The benefits are much wider.
    Neighboring ranchers who partner with us will have a new source of 
revenue by managing their lands for both cattle production and wildlife 
enhancement.
    For conservationist, SRC's unique approach supports habitat 
conservation across large landscapes creating an ecologically 
compelling solution of unrivaled import.
    Sportsmen will continue to have access to our lands and enjoy 
higher populations of game and fish.
    Regulators will have a credible new tool that enables them to 
protect species and promote multiple use of public lands.
    And finally, these improvements will be financed by private 
investors and will not rely on Federal appropriations or tax credits to 
succeed.
    Today, the SRC mitigation banks are proposed only on private lands. 
But it is possible, with supporting public policy, to imagine a time 
when a land owner, using private capital, could improve the habitat on 
the BLM grazing lands he leases and share the revenues from the 
mitigation banks with the Federal Government. That's another big idea 
for Wyoming's landscapes and wildlife.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Meyer. You did not 
go over time, so we will credit that back.
    [Laughter.]
    The Chairman. And now, certainly not least, I would like to 
recognize Ms. Meghan Lally, who is a sheep and cattle rancher 
in Savery, Wyoming.
    Ms. Lally, you are recognized.

 STATEMENT OF MEGHAN O'TOOLE LALLY, SHEEP AND CATTLE RANCHER, 
                        SAVERY, WYOMING

    Ms. Lally. Good morning, Chairman Hastings and members of 
the committee. Thank you to Representative Lummis for inviting 
me to speak to you this morning. I am Meghan O'Toole Lally, and 
I am a fifth-generation sheep and cattle rancher. I raise sheep 
and cattle on our family ranch, located on the Wyoming-Colorado 
border, along with my parents and brother. I serve as a 
Supervisor on the Little Snake River Conservation District and 
have recently been appointed to the Wyoming Environmental 
Quality Council.
    We pride ourselves on our management of our ranch, as well 
as our private, State, and Federal leases. The Ladder Ranch is 
under conservation easement and has been designated as an 
Important Bird Area by the Wyoming Audubon Society.
    This summer, my daughter Siobhan and I were gathering 
cattle in the forest. A sage grouse and several of her chicks 
flew up in front of us. The mother sage grouse proceeded to act 
as a decoy. She acted hurt and flew in the opposite direction 
of her chicks. Siobhan asked me what the mother grouse was 
doing. I explained that she was trying to draw us away from her 
chicks so that they may survive if we were predators. I love 
being able to see these neat birds and give these lessons to my 
children.
    When I was a kid growing up on the ranch, we would see lots 
of wildlife daily on the bus ride to school. I had no idea 
until I left the valley that everyone did not have the same 
wildlife experiences growing up. My children continue to have 
those same experiences on the school bus today.
    The Endangered Species Act is broken. The problems are 
numerous. The solutions exist that are working. They can be 
expanded to a national scale.
    The decisions are made for listing habitat needs or species 
needs. It is imperative that the Fish and Wildlife Service use 
peer-reviewed science to make decisions.
    The State of Wyoming formed the Wyoming Statewide Big Horn/
Domestic Sheep Interaction Working Group. It included people 
representing all interested parties. The stated goal of the 
group was to maintain healthy bighorn sheep populations while 
sustaining an economically viable domestic sheep industry in 
Wyoming.
    The Wyoming Plan, as it is known, is a model for how to 
address domestic sheep/Big Horn sheep management in the West. 
It allowed areas where Big Horn sheep would be the priority and 
there would be no domestic sheep. There were also areas for 
domestic sheep grazing. Several of our sheep grazing permits 
are in that area. Recently, Biodiversity Conservation Alliance 
sued the Forest Service over a small herd of Big Horn sheep 
located near our grazing permit.
    Right now, the Federal Government is increasing the amount 
of red tape and analysis of habitat projects before they can be 
implemented on the ground. It used to take 3 to 6 months to get 
a project approved, funded, and on the ground. Now the agencies 
are saying that we need to plan on at least a year for all of 
the extra analysis needed for even simple projects.
    The intention by the adopters of the Endangered Species Act 
is that incentives should be used to encourage the preservation 
of species. I believe that the adage that you catch more bees 
with honey than with vinegar needs to be the aim of the Fish 
and Wildlife Service. In that spirit, I offer the following 
solutions.
    I believe that collaborative processes are a great tool for 
increasing the success of the implementation of the Endangered 
Species Act. The Wyoming Plan is an example of a win-win plan 
for everyone. Without the Wyoming Plan, constant litigation 
would be the future between the Big Horn Sheep advocates and 
the domestic industry. The Game and Fish would not be able to 
expand the habitat for the Big Horn sheep, and the State of 
Wyoming would lose an industry which contributes to the economy 
of the State. However, under the plan, the Game and Fish has an 
avenue to introduce Big Horn Sheep to other parts of the State, 
which will increase the overall numbers of Big Horn sheep.
    There needs to be an acknowledgement that in order to 
preserve these endangered or threatened species or preclude 
listing at all, that work needs to be done on the ground 
immediately. Simplifying the paperwork from dozens of pages to 
a reasonable application, allowing ground-level managers to 
make decisions, and increasing the number of technicians on the 
ground to get the work done would streamline the process and 
make it easier to get work done in a timely manner.
    Congress has the power to list species under the Endangered 
Species Act. I think one solution is to preemptively list sage 
grouse as warranted but precluded for existing management 
plans. Industry and agriculture crave stability. State plans 
for sage grouse management are currently offering up stability 
while protecting sage grouse in areas where they currently 
exist and are thriving.
    There is a group within the Fish and Wildlife Service 
called Partners for Fish and Wildlife. The Partners for Fish 
and Wildlife helps to fund habitat work on private lands. They 
already have the infrastructure and relationships with 
landowners to get effective habitat work done for endangered 
species. The Partners for Fish and Wildlife is uniquely 
positioned to fulfill the direction of the Endangered Species 
Act for the Fish and Wildlife Service to manage the designated 
endangered species.
    There needs to be a recognition that if a species exists 
and thrives on a property, public or private, the practices 
that currently occur on that property will not harm and 
possibly protect that species.
    The Endangered Species Act is an important part of saving 
animals from becoming extinct. However, right now it is being 
used as a hammer to destroy livestock grazing and industry in 
the West. Not only does this affect the public lands 
management, it also affects the economies and culture of the 
communities where it is applied.
    Thank you for this opportunity to present testimony to you.
    [The prepared statement of Ms. Lally follows:]
 Prepared Statement of Meghan O'Toole Lally, Sheep and Cattle Rancher, 
                             Savory Wyoming
    Good morning, Chairman Hastings, and members of the committee. 
Thank you to Representative Lummis for inviting me to speak to you this 
morning. I am Meghan O'Toole Lally and I am a fifth generation sheep 
and cattle rancher. I raise sheep and cattle on our family ranch, 
located on the Wyoming-Colorado border, along with my parents and 
brother. I serve as a Supervisor on the Little Snake River Conservation 
District and have been appointed to the Wyoming Environmental Quality 
Council.
    We pride ourselves on our management of our property, as well as 
our private, State and Federal leases. The Ladder Ranch is under 
Conservation Easement with the Nature Conservancy in Wyoming and 
Colorado Cattlemen's Land Trust in Colorado. The ranch has also been 
designated as an Important Bird Area by the Wyoming Audubon Society.
    This summer, my daughter Siobhan and I were gathering cattle in the 
forest. A Sage Grouse and several of her chicks flew up in front of us. 
The mother grouse proceeded to act as a decoy. She acted hurt and flew 
in the opposite direction of her chicks. Siobhan asked me what the 
mother grouse was doing. I explained that she was trying to draw us 
away from her chicks, so that they may survive, if we were predators. I 
love being able to see these neat birds and give these lessons to my 
children.
    When I was a kid growing up on the ranch we would see Mule Deer, 
elk, Pronghorn Antelope, Golden and Bald Eagles, Sage Grouse, as well 
as squirrels, rabbits and other small birds daily on the bus ride to 
school. I had no idea, until I left the Valley that everyone did not 
have the same wildlife experiences growing up. My children continue to 
have those same experiences today.
    The Endangered Species Act is broken. Right now there are 630 
animal species and 854 plant species that have been listed as 
threatened or endangered in some form. There are another 74 species 
that have been proposed for listing and 168 candidate species. Of those 
only 1 percent have been delisted. Obviously we are doing something 
wrong. Listing hundreds of species without adequate science and without 
a plan for recovery beyond ``all human activity is bad'' will not 
improve our track record. There are two types of groups working on the 
problems in the West. The hopefuls and the hatefuls. The hopefuls are 
trying to work toward collaborative solutions that meet everyone's 
needs. The hatefuls want to litigate and derail the process. The 
problems are numerous; solutions exist that are working, if they can be 
expanded to a national scale.
    The Candidate Conservation Agreement with Assurances (CCAA) concept 
is a good one for landowners who enter into it willingly with their 
eyes wide open. However, the CCAs and CCAAs that I am aware of have 
taken 10 years to even get the applications processed. Very few exist 
at all. Many people who were interested in the program decided not to 
participate because they expose themselves to litigation and regulation 
with no legal, court tested guarantees. Until landowners can enter into 
agreements with the Fish and Wildlife Service without fear of being 
sued or the rules and regulations changing midstream, most landowners 
will not be willing to commit to provide habitat for and protect 
threatened or endangered species.
    Litigation by hateful groups threatens the procedural rules set by 
the rulemaking process. Sue and Settle has been used by the Center for 
Biological Diversity (CBD) to force the candidate listing of 168 
species. Contrary to CBD stated insistence on a procedurally correct, 
transparent process on the part of Federal agencies, Sue and Settle is 
an opaque process that is not subject to public comment or review.
    In Wyoming, we have experienced hateful groups filing the same or 
similar lawsuits in several venues. They choose which venue they would 
like their lawsuit to be heard. Then the other suits are dropped. This 
happened recently in the current round of grey wolf litigation.
    When decisions are made for listing, habitat needs, or species 
needs, it is imperative that the Fish and Wildlife Service use peer 
reviewed science to make decisions. When the agency uses ideas and 
hunches to make decisions it could have wide ranging impacts that have 
no positive effect on the target species. If there is any question as 
to the validity of the science, the National Academy of Science needs 
to be consulted.
    When it became apparent that hateful groups were using Big Horn 
sheep to remove domestic sheep grazing from public lands in the West, 
Wyoming decided it needed to be proactive. The State formed the Wyoming 
State-Wide Big Horn/Domestic Sheep Interaction Working Group. It 
included people representing all interested parties, including Wyoming 
Wool Growers, Wyoming Game and Fish Department, the Wild Sheep 
Foundation, environmental groups, sheep producers and others. The 
stated goal of the group was ``to maintain healthy bighorn sheep 
populations while sustaining an economically viable domestic sheep 
industry in Wyoming.''
    The Wyoming Plan, as it is known, is a model for how to address 
domestic sheep/Big Horn sheep management in the West. It was adopted in 
2004. It allowed areas where Big Horn sheep would be the priority and 
there would be no domestic sheep. There were also areas for domestic 
sheep grazing. Several of our sheep grazing permits are in that area. 
Recently, Biodiversity Conservation Alliance (BCA) sued the Forest 
Service over a small herd of Big Horn sheep located near our grazing 
permit. This herd was deemed non-essential by the Game and Fish and the 
Working Group. The herd was reintroduced in 1977. The grazing permits 
in that predate that time by several decades. There are several other 
permittees who could also be impacted by the decision that any possible 
contact by domestic sheep to a Big Horn sheep means the loss of a 
permit. Biodiversity Conservation Alliance used that same law firm that 
is used by Western Watersheds for their litigation in Idaho.
    Unfunded mandates are negatively affecting wildlife agencies. The 
Federal Government regularly hands down unfunded mandates on endangered 
species management that the State wildlife agencies then have to try to 
implement. These mandates affect the management of other species within 
the State, which may endanger them in the future. It also strains the 
budgets of these agencies. The States then need to make up the money 
poured into these mandates. Many times this may result in increase in 
license fees to make up the shortfalls.
    By restricting the legal historic activities that can take place on 
private property; I believe that the Endangered Species Act is being 
used to perform an illegal takings of that private property.
    Right now the Federal Government is increasing the amount of red 
tape and analysis of habitat projects before they can be implemented on 
the ground. It used to take 3-6 months to get a project approved, 
funded and on the ground. Now the agencies are saying that we need to 
plan on at least a year for all of the extra analysis for even simple 
projects. There is a historic irrigation ditch on our ranch, dug by 
hand and with mules at the turn of the century by my great-grandfather. 
We are slowly piping the ditch, for efficiency and also to preserve the 
integrity of the ditch. We had a Federal archeologist tell us we may 
not be able to continue to pipe the ditch without archeological 
analysis because it is a historic structure.
    In section 2(a)(5), the Endangered Species Act states that ``The 
Congress declares and finds that--in encouraging the States and other 
interested parties, through Federal financial assistance and a system 
of incentives, to develop and maintain conservation programs which meet 
national and international standards is a key to meeting the Nation's 
international commitments and to better safeguarding, for the benefit 
of all citizens, the Nation's heritage in fish, wildlife, and plants.''
    This clearly indicates an intention by the adopters of the 
Endangered Species Act that incentives should be used to encourage the 
preservation of species. I believe that the adage that ``you catch more 
bees with honey than with vinegar'' needs to be the aim of the Fish and 
Wildlife Service. In that spirit I offer the following solutions.
    I believe that collaborative processes are a great tool for 
increasing the success of the implementation of the Endangered Species 
Act. The Wyoming Plan is an example of a win-win plan for everyone. 
Without the Wyoming Plan, constant litigation would be the future 
between the Big Horn Sheep advocates and the domestic industry. The 
Game and Fish would not be able to expand the habitat for the Big Horn 
sheep and the State of Wyoming would lose an industry which contributes 
to the economy of the State. However, under the plan, the Game and Fish 
has an avenue to introduce Big Horn Sheep to other parts of the State, 
which will increase the overall numbers of Big Horn Sheep.
    There needs to be acknowledgement that in order to preserve these 
endangered or threatened species or preclude listing at all that work 
needs to be done on the ground immediately, not 2 or 3 years from now. 
Water developments, fence mitigation, sage brush treatments, and fish 
passages or barriers are all examples of important habitat work that 
could be done now to preserve endangered species habitat. Simplifying 
the paperwork from dozens of pages to a reasonable application, 
allowing ground level managers to make decisions, and increasing the 
number of technicians on the ground to get the work done would 
streamline the process and make it easier to get work done in a timely 
manner.
    There is a group within the Fish and Wildlife Service called 
Partners for Fish and Wildlife. The Partners for Fish and Wildlife 
helps to fund habitat work on private lands. They already have the 
infrastructure and relationships with landowners to get effective 
habitat work done for endangered species. They have projects on the 
ground all over the country doing work to preserve habitat for toads in 
Nevada, Sage Grouse in Wyoming, and the Mountain Plover in Colorado, as 
well as many others. The Partners for Fish and Wildlife is uniquely 
positioned to fulfill the direction of the Endangered Species Act for 
the Fish and Wildlife Service to manage the designated endangered 
species.
    Some producers--working with local conservation groups--have 
expressed interest in adding endangered species habitat enhancements to 
water projects. Examples include habitat improvements to recharge 
basins and riparian areas near ditches, hedge rows on fields, etc. 
Others have sought add native habitat improvements specifically to open 
up access for local endangered species. However, the restricted 
application of safe harbor rules by Government agencies has forced many 
proponents to abandon their efforts.
    Recognition that if a species exists and thrives on a property--
public or private--the practices that currently occur on that property 
will not harm and possibly protect that species. Sage grouse are 
vulnerable to predators. Areas where people run sheep tend to have 
heavy predator control. Based on my own observations, there are many 
thriving Sage Grouse leks within our lambing areas. I believe that the 
predator control that takes place on our lambing grounds has helped to 
keep the sage grouse in those areas healthy.
    Tools exist within the Endangered Species Act itself. Habitat 
Conservation Areas, Safe Harbor provisions, section 6 cooperative 
agreements with the States, and 75-90 percent match for any work done 
by the States for endangered species management and habitat 
improvement.
    The Endangered Species Act is an important part of saving animals 
from becoming extinct. However, it is being used as a hammer to destroy 
livestock grazing in the West. Not only does this affect the public 
lands management, it also affects the economies and culture of the 
communities where it is applied.
    The purposes of the Endangered Species Act ``are to provide a means 
whereby the ecosystems upon which endangered species and threatened 
species depend may be conserved, to provide a program for the 
conservation of such endangered species and threatened species.''
    It clearly states that the original intent of the Endangered 
Species Act was a good one. Saving species from extinction is 
important. However, it has been hijacked by the hateful groups to 
attack industries and people
    I love seeing the Sage Grouse dance and watch the chicks follow 
their mothers through the brush. I also want my children to have the 
same opportunities to see these birds. I am doing everything I can to 
preserve the habitat for the Sage Grouse. However, I can see by listing 
the Sage Grouse under the Endangered Species Act, it may actually cause 
a reduction in Sage Grouse Habitat and people on the ground doing 
everything they can to coexist with them.
    Thank you for this opportunity to present testimony to you.
                                 ______
                                 
    The Chairman. Thank you all. I want to thank you all, and I 
do know how difficult it is to repeat your remarks on an issue 
like this. I fully recognize that, and that is why under our 
rules, your whole statement--and I read all of your statements, 
and they were all longer than 5 minutes, except for Mr. Meyer. 
I think yours was longer than 5 minutes, too. But at any rate, 
I appreciate that is part of the record. It is important that 
we have this as we go forward, we have this evidence coming 
from these areas.
    We are starting the questioning period for Members, and I 
am going to defer to my colleagues here who are more immediate 
in this geographical area, and I will follow up last. If we 
have time, we will do a second round.
    So I will start by recognizing my colleague from Wyoming, 
Representative Lummis.
    Mrs. Lummis. Thank you again, Mr. Chairman. And I would 
also want to thank my chief of staff, Jeffrey Fagan, who is 
here; Jackie King from our staff in Casper; Ryan McConaughey 
from our staff in Casper, and also want to acknowledge the 
presence of Wyoming State Treasurer, Jeff Gordon--Mark Gordon.
    [Laughter.]
    Mrs. Lummis. You are racing cars these days, Mark. Great 
job of course as Wyoming State Treasurer. I am delighted to see 
you here Mark.
    Questions for our fabulous panel. I want to start with Jeff 
Meyer. Mitigation making is something I do see as part of a 
21st century conservation strategy that could make a huge 
difference.
    Now, I have two questions for you. One is, tell me the 
difference between doing mitigation on a very small scale 
versus a landscape scale such as you are doing. And also, how 
does what you are doing dovetail with or differ from current 
policies?
    Mr. Meyer. So really, all science today points to--and I 
think Fish and Wildlife is accepting, beginning to accept 
this--that, you think about it, the landscape scale per acre, 
there is more for us to develop the larger your contiguous 
property. We call it the economies of contiguousness. The 
greater lift you get per acre for both habitat and species. And 
since, if you read the rules, that this land has to be managed 
in perpetuity for the species for which the mitigation predator 
sold, by having all that in one area, it makes it more 
economically viable not only to do it but the odds of success 
for the future just really are greater, as opposed to having 
small, 100-acre, fragmented, postage-stamp projects located all 
through the State.
    And it is important in Wyoming, if you think about it, to 
locate these banks where there are very few to no oil and gas 
or other carbon that could be extracted, which is why we picked 
our ranches where we are, where we have them, which is, again, 
in kind of an interval as far as an oil- and gas-free area.
    As far as how does it differ from the current policy, 
really I think that with the interim memorandum that I think 
came out from Bureau of Land Management in May, they are 
starting to see the idea that the Government can't do 
everything, and for the first time they are also recognizing 
the opportunity to mitigate for impacts on Federal land by 
private property holders.
    So I would really say the contiguousness, the big landscape 
properties are important also to the rancher because Wyoming 
ranching culture is such an important part of this State. It 
allows ranches to become contiguous ranches, as opposed to 
ranchettes. And for the sportsmen, it allows an area that is 
really managed for game and fish. So the opportunity for 
increased hunting opportunities and fishing opportunities is 
something that will never be found when mitigation is done on 
fragmented pieces of property.
    Mrs. Lummis. So it monetizes the conservation of land.
    Mr. Meyer. It allows the rancher to monetize the habitat 
value of his ranch. That is correct.
    Mrs. Lummis. Thank you. It is an impressive property, and I 
hope you all get to see it at some point.
    A question for Ms. Taylor. You mentioned predictive 
modeling is never tested but it is used. So how can we set 
recovery goals without predictive modeling? What would be a 
good standard at the beginning of the listing process for what 
constitutes recovery so they can't be automatically de-listed, 
instead of having the constant moving of the goal posts when we 
have already achieved the initial goal for de-listing?
    Ms. Taylor. Well, I think there are two different things. I 
think it may not have been clear. When I think about predictive 
modeling, I go specifically back to either sage grouse or the 
Preble's. In the recent de-listing or re-listing of Preble's 
and the reevaluation of the 5-year status review that came out 
in May of this year, they used predictive modeling to determine 
population growth in the four southern counties of Wyoming 
where the mouse lives and cited that a 20,000-person growth 
over the next 30 years would be a negative impact on the 
species. They also thought that the predictive modeling that 
determined climate change or fire frequency over the next 50 
years would be an issue for the species.
    It is that kind of modeling, or the predictive modeling for 
things like the sage grouse that says what the impacts are way 
out over time. It is not based on the species and their 
reactions but patterns. So that is what I am looking at.
    Mrs. Lummis. Thank you very much. My time has expired, and 
I appreciate your clarification. Thank you.
    The Chairman. We will surely have time for another round.
    At this time, I recognize Mr. Lamborn from Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    I would ask unanimous consent that our whole opening 
statements be included in the record.
    The Chairman. Without objection, that will be part of the 
record.
    Mr. Lamborn. OK. Thank you.
    Commissioner Hendry, I am going to ask my first question to 
you. I drove in from Laramie this morning, where my daughter 
and her family live, and I just loved driving through your 
county, the beautiful, wide-open spaces. You have a great place 
here.
    Mr. Hendry. Thank you, Representative, and we think we do. 
We are right in the heart of Wyoming, and Casper right now is 
doing pretty well.
    Mr. Lamborn. Well, I want to compliment the whole State of 
Wyoming because I think your policies are balancing 
environmental concerns and energy and jobs and the things that 
help make a better standard of living for people. You are a 
State that gets it, and I wish Colorado could learn some things 
from you.
    And I want to thank Cynthia for playing a leading role in 
helping to make that happen as we go forward.
    Mr. Hendry. Well, our agriculture and tourism and oil and 
gas and extracting industries, they not only make Wyoming 
operate but they make the rest of the country operate as well.
    Mr. Lamborn. Now, specifically, recently the Obama 
administration finalized a rule ignoring significant opposing 
comments in the 10th Circuit Court of Appeals and letters from 
many of us in Congress on how it must conduct economic analyses 
for critical habitat designations. The rule will require 
Federal agencies administering the ESA to only analyze cost of 
the actual habitat designation while ignoring all other costs 
associated with listing a species. What would that do to rural 
and western areas of our country?
    Mr. Hendry. Well, Representative, I think that the socio-
economic factors in all things are something that the 
Commissioners Association really pays attention to. Our 
communities are based on these industries that we have here, 
and if you list, say, the wolf, it is not only a detriment on 
livestock but it is those dollars that turn over in the 
economy, over and over. Those are the kinds of things that 
affect our local economy. The Preble's mouse, they are talking 
about some oil and gas, some shale development down in 
southeastern Wyoming and Colorado. We could get into a deal 
where they couldn't do some of that activity, the normal course 
of human activity, because of that mouse, and that is economic 
development in those areas.
    Mr. Lamborn. OK, thank you.
    Ms. Taylor, I want to follow up with you on the mouse that 
we are talking about. How would you characterize the current 
trend of ESA sub-level species and distinct populations? How is 
that going, and is that based on sound science?
    Ms. Taylor. The mouse is an extremely interesting 
discussion relative to genetics, the genetics work that has 
been done. There was research in 1981 that led to a doctoral 
thesis that demonstrates that, of the 19 different supposed 
sub-species of the mouse, that there is really no valid sub-
species separation between them. Genetics work was done on a 
number of mice, a huge number of mice, on tissue samples in 
2003, and again this was determined that sub-species 
designation of the Preble's was inappropriate.
    A contingent of researchers was then hired by the Fish and 
Wildlife Service to reevaluate all of that data, and they 
determined that it was appropriate to have that sub-species.
    The issue comes down to how we discuss genetics over time. 
Are they individual races? Are they separate sub-species? Are 
these things valid? And making determinations on a significant 
portion of the range, which is what happened with Wyoming and 
Colorado, can be important for separating out where a species 
or sub-species might be at risk versus where it is not at risk, 
and in Wyoming it is not at risk, and the Service has 
documented that numerous times. Yet, they had to, through 
litigation and the vacating of significant portion of the 
range, had to re-list. So that is not appropriate.
    Mr. Lamborn. OK. Thank you very much.
    The Chairman. I thank the gentleman.
    I now recognize the gentleman from Montana, Mr. Daines.
    Mr. Daines. Thank you, Mr. Chairman.
    Thank you to an outstanding panel. It makes me proud to be 
a westerner, the way of life and the culture that we have. I 
appreciate the comments, the passion, and the common sense that 
we heard this morning. We don't hear that very often back in 
Washington, DC, so thank you for that.
    This issue, talking about the jumping mouse, talking about 
the greater sage grouse, these are critically important issues. 
I watched my State, the western part of our State, see its 
industry decimated, and the ESA has been one of the 
underpinning arguments by these fringe groups that is creating 
wildfire risk. We have more active forest fires today in 
Montana than anywhere else in the country, as we speak. These 
issues we are talking about are critically important for our 
future.
    I would like to start off by directing a question here to 
Mr. Hendry. I love the comment about the 40-year-old ESA, the 
old pick-up, as far as ESA serving a useful purpose but in bad 
need of repair. That is well said. Montana is undergoing its 
own planning process for sage grouse conservation as we speak. 
Could you reiterate for me the importance of the involvement of 
local communities and industries in the planning process for 
the greater sage grouse? We need to take some of this learning 
certainly to Montana. If we could learn from you, what would 
you say?
    Mr. Hendry. Well, the sage grouse core area is--and Ms. 
Taylor has been involved in this quite a bit also--developed 
through government and everybody working together, developed a 
plan that marked the core areas, the areas that sage grouse 
could really utilize within the State. So if you decide to work 
in that, if you have to work your energy in that area, ranching 
or anything else, you have to adhere to certain rules that 
protect that sage grouse.
    Outside that area, there are still a few rules, but it is 
not as intrusive, I guess, on your business. Although we have 
about 70 percent, 60 to 70 percent public land, the Bureau of 
Land Management and the Forest Service, they treat the sage 
grouse as if it was protected now. So it hampers our ability to 
do business in those areas that are really not in our sage 
grouse core areas.
    But it was developed by the State of Wyoming and everybody 
working together. Not all people like the sage grouse core area 
strategy, but it is a strategy in order to try to keep that 
bird from being listed.
    Mr. Daines. We hunt sage grouse in Montana. I assume----
    Mr. Hendry. We do here, too.
    Mr. Daines. The season opened up 4 days ago, a two-bird 
limit.
    But I would like to ask a question of each of you that goes 
back to this reform of the ESA. You all have been involved in 
that process far more than any of us up here have been. I came 
to Congress with a business background in the private sector, 
and we focus on results and outcomes versus activities.
    If you could change one thing to reform the ESA--we all 
agree it is a 40-year-old process that needs reform. If you 
want to volunteer a second level, I will take that as well. 
What would it be? I will start with Mr. Hendry and work our way 
across.
    Mr. Hendry. I would say it would be tied to crucial habitat 
for whatever species that you are talking about listing. That 
can have far-reaching effects. So crucial habitat would be one 
of them, and have that right up front so we know what we are 
dealing with when the listing is put in.
    Mr. Daines. I am out of time. We are going to have a second 
round; is that right?
    The Chairman. Finish that real quick.
    Mr. Daines. All right.
    Mr. Wharff?
    Mr. Wharff. I guess, going back to my days in law 
enforcement, I guess the one thing that I see lacking is the 
common man principle. I mean, I think there are a lot of things 
within the ESA that the common man theory would definitely 
help, because some of the things just don't make sense that we 
see being done under the Endangered Species Act.
    Mr. Daines. What would that specifically look like?
    Mr. Wharff. I guess put common sense back into it. I think 
that the ESA started out very good, and I think it has morphed, 
as is typical with some government programs. I guess the nature 
of the beast is to expand, mission creep, and I think we need 
to push back and make it focus on what the purposes were, and I 
think that is putting the common person back into it. If it 
doesn't make sense, why do we do things? Sometimes I think that 
is what is lacking.
    Mr. Daines. OK. Thank you.
    Ms. Taylor? This is hard, I know.
    Ms. Taylor. I would go back to actually something that 
Meghan said and I think that others said, and that is that when 
there is a State conservation program where the State has 
worked to develop with its folks a State conservation program, 
the Service should be required to follow that. They should 
acknowledge it, they should accept it, and they should watch 
how it plays out over time.
    Mr. Daines. Thank you.
    Mr. Meyer?
    Mr. Meyer. The ESA should be based on science and not 
politics.
    Mr. Daines. Thank you.
    Ms. Lally?
    Ms. Lally. I will reflect what Renee said.
    Mr. Daines. Can you pull the microphone closer, Ms. Lally? 
Thank you.
    Ms. Lally. I will reflect what Renee said. State-based 
collaborative processes done by people within the State that 
know what is important are what need to be followed.
    Mr. Daines. Thank you.
    The Chairman. I will now recognize myself.
    I want to ask this question specifically to Ms. Lally and 
Mr. Meyer. In previous testimony in front of our committee, and 
I have said this publicly, it seems to me that the ESA has 
become a litigant's dream. That is where all of the activity 
is. And two of the major litigants, the Center for Biologic 
Diversity and the Western Watershed, both of them say that they 
have to have their lawsuits. Otherwise, conservation would 
never happen on whatever species they are trying to effect.
    So what is your response to those who are always litigants? 
Would any conservation happen lacking Federal threats of 
litigation?
    We will start with you, Ms. Lally.
    Ms. Lally. Well, I will go back to the example that I am 
fairly familiar with on the wild sheep. Wyoming came up with a 
plan, and it was a plan that was agreed on by the domestic 
industry, environmental groups, as well as the Wild Sheep 
Foundation, and it was working. The wild sheep were protected, 
and so was domestic industry. When the lawsuit took place by 
the Biodiversity Conservation Alliance using Western Watershed 
lawyers, all of a sudden everybody said, well, this doesn't 
hold in the Wyoming plan.
    The Game and Fish Department would like to reintroduce wild 
sheep in other portions of Wyoming. If this happens, it will be 
fought tooth and nail to allow another wild sheep anywhere else 
in Wyoming, and those wild sheep that will be introduced will 
increase the population exponentially more than can occur that 
is currently not doing well anyway.
    The Chairman. So, if I understand this correctly, what you 
are saying is you would have a disproportionate population of 
wild sheep that probably could not be sustained from your 
perspective. Does that----
    Ms. Lally. The Game and Fish has decided that that herd 
cannot thrive. They have never done well since they were 
introduced in the 1970s. They have never done very well, and 
they would prefer to focus on populations that are thriving and 
growing, as opposed to populations that are contracting. And so 
to say 50 to 70 sheep, they want to basically hijack the 
process so that those 70 sheep can survive and no other sheep 
can be introduced anywhere else because nobody else will allow 
it.
    The Chairman. OK, thank you.
    Mr. Meyer?
    Mr. Meyer. I grew up in a farming community in Iowa, very 
similar I think to the ranching community here. We grew up and 
I hunted, I fished almost every day of the year, with or 
without lawsuits or anything else. If you are a rancher, it is 
part of your culture to maintain the wildlife on your ranch. I 
mean, it is like you are going to do it whether--if somebody 
tells you I won't like it very much, but you are going to do it 
anyway.
    So, I believe that ranchers and really user groups, Ducks 
Unlimited and the success that they have, the Rocky Mountain 
Elk Foundation, have had a great impact because we are the 
folks who are really out on the land and the ones that are 
recreating. So it is hard for me to imagine that under any 
circumstances we would want to damage the thing that we enjoy 
most.
    The Chairman. I kind of suspected that would be your 
answer. I mentioned that I come from central Washington. It is 
the Columbia Basin Project and the Yakima Valley Project in our 
district. Those were our very first agriculture areas that were 
irrigated, and I have always felt that the farmers are the best 
stewards of the land, because if you are not a steward of your 
land, you are not going to have a crop. And these crops are 
rotated on a regular basis for a variety of reasons, and so 
forth. But I always thought the notion that a farmer would go 
out and waste a whole bunch of money on pesticides or something 
like that, which is the perception in some parts of the world, 
is totally erroneous.
    But to your point, Ms. Lally, what you are simply saying, I 
think, if I can capsulize that, is these decisions, if they can 
be made on a local level, are probably better for whomever is 
affected by these decisions. Is that a fair assessment of where 
you are coming from?
    Ms. Lally. Absolutely, as well as the wildlife.
    The Chairman. OK. My time is now expired, and so we will 
start a second round.
    Mrs. Lummis, you are recognized.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I would like to ask whether primacy at the State level, as 
is sometimes used for environmental regulations, would be 
something that would be useful for inclusion in the Endangered 
Species Act, the notion that the State can take primacy from 
the Federal Government in the implementation through, for 
example, a habitat conservation plan. Would anyone just 
volunteer to answer that?
    Ms. Taylor. I think the concept of primacy relative to the 
Endangered Species Act is one that is very intriguing. I am not 
sure where the State of Wyoming would come up with the funds to 
be able to afford it. We would have to look at that very 
closely, because right now it is the sportsmen who provide the 
funding for the Wyoming Game and Fish Department, and right now 
the Wyoming Game and Fish Department is who is managing sage 
grouse and the gray wolf and the grizzly bear.
    The whole idea of primacy goes back to what we were saying 
about if the States have a valid conservation program, it 
should be accepted and allowed to play out, and that is already 
allowed within the Endangered Species Act. We should accept it 
and we should strengthen that.
    Mrs. Lummis. Ms. Lally, you mentioned that approving 
habitat projects is too slow at the Federal level.
    Ms. Lally. We have an old ditch on our ranch. It was hand-
dug by mules by my great-grandfather. And we are slowly piping 
it in order to strengthen the ditch and also increase 
efficiency so there is less water loss to evaporation.
    So we applied for NRCS money to do that, and we were told 
by an NRCS archaeologist that they would need to take a year to 
do a study because that is an historic structure.
    Mrs. Lummis. The ditch is an historic structure.
    Ms. Lally. The ditch is an historic structure. That ditch 
has been in nearly continuous use the whole time. So all of a 
sudden there are all these extra hurdles put in so that we are 
not able to get work that we know will help the wildlife.
    Mrs. Lummis. Mr. Meyer, you created wetlands in Sweetwater, 
and you have also altered spring ditches to make improvements 
in the water quality. Could you explain a little bit about 
that?
    Mr. Meyer. Sure. So one of our goals is to--in Wyoming in 
the wintertime when it snows, and in the spring runoff, a lot 
of the irrigation ditches that used to be streamed--and for 
good reason, they were irrigation ditches, because the ranchers 
use them to irrigate their crops. So what we try to do is we 
try to reengineer the streams to the way they were, but at the 
same time put in high water efficiency techniques; for 
instance, rubberizing the ditches before they get into the 
actual captures. They can save sometimes 50 percent of your 
water. So that at the end you have more water for the fish, and 
cleaner water, and more sub-irrigation for your ranch, as well 
as a higher, efficient use of the water rights that the ranch 
internally owns.
    So really we just try to--and a lot of ranchers are still 
watering kind of like the Egyptians used to do, with flood 
irrigation. And all we are trying to do is figure out how to 
kind of balance what the fish and wildlife needs with what the 
rancher needs, and in most cases we are seeing more tonnage 
grown per acre just by using the new techniques and using our 
water more efficiently.
    Mrs. Lummis. Mr. Wharff, can you mention some environmental 
groups that you have been able to work with to help recover 
species or decline opportunities for hunting with them, a 
species recovery exercise?
    Mr. Wharff. That is difficult. I work with a lot of 
different groups, and I think the biggest challenge is pulling 
everybody to the middle. Any time you get to extremes, that is 
when you kind of tend to tread in dangerous territory. But I 
honestly can't think of a lot of groups who have actually sat 
down and came to resolutions. To me, it is a process, and I 
really have not felt like most of the environmental groups are 
actually looking to see species removed. I think they prefer to 
keep them listed. It is a cash cow in many instances.
    But I guess it depends, too, on how you look at some 
groups. Some groups are classified as conservation groups, 
whereas in my opinion they are probably more environmental 
oriented.
    Mrs. Lummis. Thank you, Mr. Chairman.
    The Chairman. I recognize Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Mr. Wharff, I would like to follow up with you on some 
points you raised earlier. I think there are some 
inconsistencies with the Endangered Species Act that need to be 
addressed as we look to make it better.
    Are there species that are considered threatened or 
endangered in the United States that are found more commonly in 
other countries such as Canada?
    Mr. Wharff. Yes, Mr. Chairman. As that map demonstrates, 
the gray wolf is probably the most offensive thing that I have 
seen. First of all, it is a species--we had populations of 
native wolves that were here. They say it was actually made in 
1937, yet we had confirmed sightings in 1993. To me, that is 
the tragedy. We brought a species of this, looking at the map, 
that was anything but threatened on a worldwide basis, and look 
what we put at risk. Those species that I identified--the elk, 
the moose, and the big horns--Mr. Hendry here can tell you what 
the costs are to the livestock because we know how many we 
have.
    Wildlife management is not an exact science. We have no 
idea of the exact cost. But to me, that is the best example 
that I see, is a species where the actions weren't really 
warranted, in my opinion. When you look at the cost imposed 
upon the States that are burdened, it makes absolutely no sense 
to me.
    Mr. Lamborn. Does the Fish and Wildlife Service introduce 
animals into areas and then say these are to be protected even 
when that is not their original habitat?
    Mr. Wharff. Mr. Chairman, yes. My understanding is some of 
the States have been told that the Mexican gray wolf--I know 
some of my friends in Utah told me the Mexican gray wolf has 
never been documented in that State, that they are being 
threatened with being saddled with recovery of that species of 
wolf that historically has never had any record that it existed 
in that State.
    Mr. Lamborn. Do you know anything about the snowshoe lynx?
    Mr. Wharff. I can't say that I do. I know about the history 
of snowshoes and the lynx, but I don't know about a snowshoe 
lynx.
    [Laughter.]
    Mr. Wharff. I am sorry.
    Mr. Lamborn. There is some concern that it is being 
introduced into areas where it was never originally found, and 
now there is an obligation to keep it protected with its impact 
on tourism, fishing, hiking, hunting, energy, and all these 
other ramifications.
    Mr. Wharff. I keep going back to the wolf, Mr. Chairman, 
because, to me, that is the one I am most familiar with. This 
is a species that hunts in larger packs than the species that 
are wildlife-evolved. The species they brought from the north 
is a little bit bigger because they are in northern climates. 
They are more conditioned to hunt in packs, and there are added 
advantages that they have that our species are forced to 
contend with, and it does upset that balance when you take 
something that wasn't indigenous and force it. It gets right 
back to the people who live with that burden are the ones who 
are obligated and tasked with recovery. In some instances, it 
may not really be a species that really fits.
    Mr. Lamborn. Is there any resistance among environmental 
advocacy groups to practice--like the State of Colorado, for 
instance--of raising endangered and threatened species, like 
fish species, in captivity and then releasing them into the 
wild to buildup the population? I think we have learned that is 
not always embraced by environmental groups. Do you have any 
insight on that?
    Mr. Wharff. Mr. Chairman, I guess there is a link that when 
it is reared by them, that it loses its wild significance. But 
I like what Wyoming was able to accomplish with the black-
footed ferret. That is a species that Wyoming saved, the black-
footed ferret, not the Endangered Species Act. I do think that 
is the thing that is important. I think we have to think 
outside the box sometimes and see what works.
    There is a reluctance, and of course you do run into issues 
with contamination and disease. There are a lot of factors when 
we start talking about raising things. Natural systems work 
best. They are more cost-efficient. But, yes, I look at some of 
these and question that if, in fact, the true goal is recovery, 
I would think anything that we can do to recover that species 
should be pursued, within reason.
    Mr. Lamborn. Absolutely, and why it is not always embraced, 
I don't understand. If, like you said, you really want to 
conserve that species, that is what we are really after. Thank 
you.
    Mr. Wharff. Thank you.
    Mr. Lamborn. I yield back.
    The Chairman. Mr. Daines?
    Mr. Daines. Thank you, Mr. Chairman.
    We kind of talked about the lack of clarity with the ESA in 
terms of what constitutes recovery to get these species de-
listed. Mr. Meyer, in your testimony you talk about protection 
of critical habitat, what needs to be done to receive permanent 
approval on a project in critical habitat. You talk about how 
the developer must minimize the impact of the area. You mention 
in your testimony there are not clear guidelines which can make 
achieving habitat protection and conservation through adequate 
level difficult. Your testimony also focused on solutions 
oriented more toward local ranchers.
    So my question is, how important is it to the local land 
users, the ranchers, the resource developers, et cetera, to 
have the flexibility to conserve or improve the land to the 
appropriate standards that best fits their land use purposes?
    Mr. Meyer. Let me see if I got that question. I will give 
you my answer. My feeling on it is that we are all blessed by 
different things. Some ranches are blessed with oil and gas, 
and others are blessed with sage grouse habitat. And I guess it 
is my belief that the rancher who is blessed with sage grouse 
habitat and not oil and gas should have the opportunity to 
monetize that habitat as opposed to being penalized and not 
being able to do anything with it. That is really kind of what 
we are trying to do.
    We have met with, I would say, 80 percent of the energy 
companies within Wyoming who are all very supportive because 
what they want to do--the perception is that the energy 
companies want to destroy the environment, which is kind of 
ridiculous at this point, right? But they want to extract 
energy and make money for their shareholders, and they want a 
clear-cut way to be able to do that, and all we are trying to 
offer is a better mouse trap, and our better mouse trap is why 
don't you go to where you have large areas of great habitat and 
allow those areas to be paid by the private developers to 
offset their impacts where they are drilling a well or putting 
in a horizontal platform?
    Currently, and I think I am right on this, I think there is 
a 5 percent--is that what it is?--5 percent inside a section 
that you can use, but that includes all historical impacts. So 
that includes the ditch your great-grandfather dug. It is not 
new impacts that the energy company has. It is new impacts on 
top of all historical impacts. So in many cases, especially on 
Federal land, it almost makes a site unpermittable.
    So all we are trying to do is really offer a solution to 
that. And as Congressman Lummis said, conservation for the 21st 
century. I believe it can be private based. It does not need to 
be government based. The government is good to assist, but I 
don't know that everybody has to have their hand held as we 
walk down the path together.
    Mr. Daines. It reminds me of the two biggest lies that we 
hear in Montana and Wyoming. The first one is when somebody 
from DC comes and says, ``We are here to help.'' And the second 
one is when Montanans and Wyomingites say, ``We are glad you 
are here.''
    [Laughter.]
    Mr. Daines. In light of the complexity that you face, I 
know you talked about political science versus good science as 
it relates to species recovery. Mr. Wharff, I think you made a 
comment about ravens and sage grouse. Could you develop that a 
little more? Because I have spent time with multi-generational 
ranchers up in Montana who will tell you that coyote 
populations, the predator populations with bird raptors, is a 
significant factor in terms of where sage grouse populations 
are allowed to go down. But are we introducing ravens? I would 
like to get your comments there.
    Mr. Wharff. You bet, Mr. Chairman, Representative Daines. 
That is one of the problems. The Mexican Bird Treaty protects 
the raven, and it is a treaty that Congress entered into, and 
it was probably a good thing to do. My recollection was that it 
was also a way for us to protect the bald eagle, so it was a 
good treaty, but there are consequences to that.
    We found that with the ravens, they used to be more 
migratory in nature, and you are starting to see that in some 
climates they are not migrating anymore. They are starting to 
impact and displace native birds that used to use those ranges, 
and we are starting to find that a lot of the impacts that we 
are seeing with sage grouse are attributed to ravens. It is one 
of those things a lot of people don't think about. They invade 
the nest, and they will invade the young as well.
    So that is one of the problems that I see. I think we have 
all these good intentions and have done all these things, but 
nobody has looked at collectively, as a whole, how these things 
are packaged together. That is why, when you talk about single-
species management, that is the big flaw I see in the 
Endangered Species Act, that nothing is managed by itself. We 
have all different species that are dependent upon those 
specific ecosystems, and any time we start providing protection 
for one species over another, you do upset the balance.
    That is one thing we are starting to see. As I mentioned, 
ravens are not migrating. We are starting to see them 
establishing in areas where they used to not be, that they just 
kind of pass through. So there are impacts to those 
protections, and I don't know that anybody has ever looked 
collectively at how those things all come together. That is one 
of the big problems I see. I don't know if that answers it.
    Mr. Daines. It does. One more comment, and then I am done. 
I appreciate that comment, too, that there is always political 
science going on back in the Beltway. But we need good, sound 
peer review, and I think we can make some progress here. So, 
thank you, Mr. Chairman.
    The Chairman. In the testimony where you mentioned the 
raven, it reminded me that I mentioned in my opening comment 
that I come from Washington State, where the timber industry 
has declined, the timber harvest on Federal land has declined 
by 90 percent because of the spotted owl. Recently, it was 
discovered that it was not the lack of old growth that caused 
the demise of the spotted owl but rather the barred owl, to 
which the Fish and Wildlife solution was to shoot the barred 
owl. That is just not common sense. I mean, that just tells you 
what is wrong. A whole industry has gone away. We have seen 
that go away.
    I want to follow up on something that you had mentioned. 
You mentioned that if the law could be followed, and you cited 
a specific timeframe, that a lot of this litigation could be 
avoided. Could you elaborate on that and maybe explain, if that 
is the case, then why are we in this situation? What is 
lacking, I guess?
    Ms. Taylor. Unfortunately, I think what is lacking is a 
focus in the way the Fish and Wildlife Service does its 
business that they address petitions when they come in. There 
is a petition to list, a petition to de-list. The act does 
contain timeframes, and you end up with litigation when the 
Service does not follow those timeframes.
    The Chairman. You mean misses a deadline?
    Ms. Taylor. Misses a deadline, correct. The act does 
provide legal fodder when it says we will act in 90 days. I 
think it says ``if feasible'' or something like that. There are 
90-day deadlines. There are 12-month deadlines. There are a 
number of different deadlines depending on the portion of the 
process that you are in. One of them comes back to 5-year 
reviews or the reviews of species that are determined to be 
warranted but precluded from listing, and that is a lot of what 
gives fodder to litigation. You didn't follow that, you didn't 
meet that deadline; therefore, we are going to force you to 
meet that deadline.
    I am not an advocate for growing the size of the Fish and 
Wildlife Service. I think that the whole concept of perhaps 
looking at primacy is not a bad one from the standpoint of 
being able to say to the States let's look at what is going on 
in your area relative to the way you are managing a species or 
how you could manage a species so that you can address these 
things on your basis in a more efficient manner.
    The Chairman. Well, you mentioned that you are not a fan of 
opening up the ESA because it may be overtaken by special 
interest groups. I suppose with any law, there is a threat of 
that. But if this part of the law is failing because of 
timeframes, there must be some way, it seems to me, to tighten 
that up so that won't happen. Now, I don't know what it is, but 
the way it is right now, it is subject to political pressure; 
i.e., if you don't want to do anything, you purposely miss a 
timeframe, opening up a lawsuit. So nothing gets done.
    So there has to be a way, it seems to me, and that would, 
of course, mean opening it up, which is a problem. Would you 
acknowledge that?
    Ms. Taylor. I do. I mean, on the one hand, for 30 years I 
have worked with the ESA, and we have talked many times about 
potentially opening it up. But then you get to this fear, and 
that is what it is, of the process being overtaken and coopted 
by what I will call the conservation NGO's. They have so much 
power within the process right now. In fact, they control, in 
many cases, the peer-review literature. So there is a whole lot 
of problem with the way the agencies go forward, and you are 
correct, they delay making decisions so that they can get a 
lawsuit. We see that in many different aspects of the Federal 
Government. I mean, the Clean Air Act is a perfect example of 
that also.
    The Chairman. Well, I guess my point is I was just 
intrigued by your final statement, you are not a fan of opening 
it up. Yet, we have problems that we are going to have to 
somehow address. That is what we are trying to ascertain with 
these hearings, because the law has not been reauthorized for 
25 years, and yet we still enforce it. I dare say if you walk 
down any main street in any town in Wyoming, or probably any 
town in this country, and say that there is a law on the books 
that has not been reauthorized for 25 years, should we enforce 
it, I doubt if you would get more than 1 or 2 percent to say 
no, it hasn't been reauthorized. Yet the way we budget back 
there, because we fund it, it is de-facto reauthorized, and 
that presents a problem to us to get the other side to sit down 
and have meaningful discussions.
    Well, my time has expired, and we are going to have to 
leave to go up to Billings. I want to thank the panel very, 
very much for your testimony. If you have additional thoughts 
on what was said, if something sparks you, don't hesitate. 
Please communicate that with us.
    Likewise, if we have a question that comes up in our minds 
that we want to get back to you and ask, please respond in a 
timely manner to our requests, too.
    And for members of the audience, if you would like to weigh 
in, you can go to the Natural Resources Committee, go to the 
Web site. I don't know how to do that, but my staff does.
    [Laughter.]
    The Chairman. And I know it works because people are 
communicating with us all the time, so I know it works. So I 
would certainly invite all of you to participate in any way 
that you feel.
    I also want to say that this is a full committee hearing. 
Most people recognize that committees are bipartisan in nature. 
We opened up an invitation to the other side. They could have 
had witnesses in both this hearing and the hearing we are going 
to have in Billings. They declined the invitation. So if it 
sounds like this is only one-sided, I want to tell everybody 
that this was open. It was designed to be open. This is a full 
committee hearing for the Natural Resources Committee.
    So, with that, once again I want to thank the panelists. 
You have been a very good audience. I want to thank you for 
being here, and I want to thank my colleagues also for being 
here. We will pack up and head up to Billings, and hopefully we 
will have another robust discussion, as we had here.
    So if there is no further business to come before the 
committee, we stand adjourned.
    [Whereupon, at 10:37 a.m., the committee was adjourned.]

                                 # # #
                                     



OVERSIGHT FIELD HEARING ON STATE AND LOCAL EFFORTS TO PROTECT SPECIES, 
 JOBS, PROPERTY, AND MULTIPLE USE AMIDST A NEW WAR ON THE WEST PART II

                              ----------                              


                      Wednesday, September 4, 2013

                     U.S. House of Representatives

                     Committee on Natural Resources

                           Billings, Montana

                              ----------                              

    The committee met, pursuant to call, at 1:30 p.m., in Cisel 
Hall, Montana State University-Billings, 1500 University Drive, 
Billings, Montana, Doc Hastings [Chairman of the committee] 
presiding.
    Present: Representatives Hastings, Daines, Cramer, Lamborn, 
and Lummis.
    The Chairman. Good afternoon. May I ask everyone to please 
rise for the posting of the colors?
    Relax. Not quite yet. We are missing one person. There you 
go. Thank you. Gentlemen will hold off. Marines will hold off 
for just a moment before you post the--there it is.
    The House Committee on Natural Resources will come to 
order. The committee is meeting today in Billings to hear 
testimony on a hearing called ``State and Local Efforts to 
Protect Species, Jobs, Property, and Multiple Use Amidst a New 
War on the West.''
    Now, by way of introduction, I am Congressman Doc Hastings 
from the State of Washington. I represent the 4th District, 
which, for those of you familiar with Washington, it is central 
Washington from the Tri-Cities to the Oregon border. And 
Washington State over the years, not exclusively, but certainly 
has been affected greatly by the Endangered Species Act. We 
have an ongoing discussion or battle, I might say, as far as 
the salmon on the Columbia River and its tributaries. And some 
20 years ago or more, we had the spotted owl, and we are still 
suffering from that. So I am familiar with the impacts that the 
Endangered Species Act would have.
    So I am very pleased to be joined by four of my colleagues 
on the House Natural Resources Committee: Congressman Steve 
Daines from Montana, your Congressman, Doug Lamborn, who is a 
Congressman from the 5th District in Colorado, Cynthia Lummis 
from Wyoming, also an at-large Member, and Kevin Cramer from 
North Dakota. So I am very pleased that they are here with me 
today.
    But now I would like to defer to my colleague, Mr. Daines, 
for introductions and the posting of the colors. Mr. Daines?
    Mr. Daines. Thank you, Mr. Chairman. And it is good to be 
here in Montana. I think most of us here in Montana believe 
that Washington, DC should look more like Montana, not the 
other way around.
    Well, being that this is a congressional hearing, we are 
going to begin as we do with every session of the House of 
Representatives with the posting of the colors and the Pledge 
of Allegiance.
    Please join me in standing to recognize the Eugene Sara 
Detachment of the Marine Corps League in Billings, who will 
post the colors. And Tom Hanel, the Mayor of Billings, will 
lead us in the Pledge of Allegiance.
    [Posting of Colors.]
    [Pledge of Allegiance.]
    Mr. Daines. Thank you, and you may be seated, please.
    I now recognize the Mayor of Billings, Tom Hanel, for a few 
opening remarks.
    Mayor Hanel. Thank you, Congressman Daines, and thank you, 
each and every one, for being here today. Our special guests, 
welcome to Billings. Welcome to Montana, a beautiful city.
    I would like to say on behalf of the City of Billings, and 
also a special welcome to all of our guests in the audience, 
here for such a special meeting. We are very appreciative of 
also MSUB for hosting this meeting. I want to wish each and 
every one of you the very best.
    And, of course, to our special guests, safe travels to and 
from. Thank you very much.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. This hearing, let me just briefly say how the 
process works here. When we have committee meetings in 
Washington, DC and subcommittee meetings, members generally 
make an opening statement not to exceed 5 minutes. We try very 
hard to keep that within 5 minutes. And we do it by seniority. 
So since I am the Chairman, I am obviously the most senior 
member, and I get to start. That is only fair, I think. So when 
I come with a different lineup here, what you are seeing is the 
seniority of the members on the Natural Resources Committee.
    So let me start by saying that this afternoon's hearing is 
the second oversight hearing that we have had today. We were in 
Casper, Wyoming earlier, for a hearing on the Endangered 
Species Act. And it is another important opportunity to hear 
specifically from interests that are directly affected by it.
    The Endangered Species Act or ESA Working Group that I and 
Congressman Lummis co-chair, has received hundreds of comments 
from individuals seeking to reform the ESA. In the coming 
weeks, the ESA Working Group will hold additional forums to 
ensure broader input from all areas that are affected by this 
sweeping law.
    Ramped up ESA listings and habitat designations through 
executive orders in closed door settlements, like the mega 
settlement in 2011 by certain litigious groups, are affecting 
private landowners. They are having effects on multiple uses of 
public lands, Federal lands. It is having effects on 
agriculture, rural economies, rural timber communities, energy 
producers lately, and even some States' own species 
conservation activities.
    Montana is certainly one State in the forefront of ESA's 
impacts. Environmental groups have filed at least 29 ESA-
related lawsuits and more than a dozen lawsuits against the 
Forest Service in Montana over just the past 2 years. Earlier 
this year, groups sued the Forest Service to block a forest 
thinning project that would lessen the impact of wildfires in 
Kootenai Natural Forest.
    Threats of lawsuits are delaying job-producing activities 
for years, such as a mining project in Lincoln County, that 
have gone through an extensive ESA and NEPA analyses. BLM claim 
sage grouse are distributed over an astounding 258,000 square 
miles in portions of 11 States. In Montana, BLM has identified 
nearly 3 million acres of priority area for sage grouse habitat 
in portions of 39 of your counties, including oil and natural 
gas resources in the Williston and Powder River Basins.
    Energy producers that support thousands of Montana and 
North Dakota jobs are concerned with the potential future lease 
rights in these areas. Ranchers and sportsmen are justifiably 
concerned about the impacts of grazing and access as well.
    Three years ago, this administration's Fish and Wildlife 
Service determined sage grouse ranked relatively low in 
priority of candidate species needing Federal protection. Yet 
the Interior Department negotiated two ESA mega settlements 
with litigious groups without any input from Congress, without 
input from affected States, without input from local entities, 
and started a clock to force hundreds of listings and millions 
of acres of habitat designations, all for the sage grouse. This 
is simply not good public policy and demonstrates why ESA is in 
need of improvement.
    I was greatly concerned that a few months ago, BLM issued 
thousands of pages of Montana resource plans containing 
sweeping sage grouse measures and shut off public input after 
just 3 short months. They even refused the Montana delegations 
to extend public comment. Decisions of this magnitude should 
not be restricted by environmental lawyers, court calendars, or 
Federal bureaucrats' marching orders from Washington, DC.
    More concerning are the continuing serious unanswered 
question about BLM's lack of data and science supporting the 
National Technical Team, or NTT, and other conservation 
measures BLM and Fish and Wildlife claim are needed for the 
greater sage grouse.
    Recent communications received through the Freedom of 
Information Act, or FOIA, requested through the State of Idaho 
suggests potentially serious interference by Interior 
Department officials leading to the sage grouse initiative. 
Now, if there is interference, and I am not drawing a 
conclusion today, but that certainly undermines the credibility 
of the science use for Federal sage grouse resources. So this 
committee has found that very, very troubling.
    Now, I understand as we are holding this hearing, members 
of the Governor's Montana Sage Grouse Advisory Committee are 
meeting to discuss their State's, this State's, conservation 
efforts. Hopefully their efforts will culminate in development 
of a much more balanced plan than what the Federal Government's 
plans are from what we know right now. So I look forward to 
hearing from our witnesses today and having a robust discussion 
on ways that we can improve the Endangered Species Act.
    And with that, we will go by seniority, as I said, and I 
will recognize the gentleman from Colorado, Mr. Lummis--or Mr. 
Lamborn. Lummis is next.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. OK. Is this working? Is that better? OK, thank 
you.
    Well, it is great to be here in the beautiful State of 
Montana, and I appreciate the leading role that my colleague, 
Representative Steve Daines, has shown on our committee in 
dealing with these vital issues surrounding our Nation's 
resources.
    Today the House Natural Resources Committee continues our 
oversight of the Endangered Species Act with a specific focus 
on State and local efforts to protect species, as well as jobs 
and private property rights.
    The Obama administration through Executive orders, Federal 
regulation, and settlement driven ESA listings, and habitat 
designations, is unfortunately waging a renewed war on the 
West, and has literally shut out Congress, States, local 
communities, private landowners, and even scientists who may 
dispute the often unreliable or unverifiable data used for 
these decisions.
    Although borne of the best intentions, the Endangered 
Species Act has failed to live up to its promise. Although the 
act was intended to recover species, less than 1 percent--1 
percent--of the total number of U.S. species listed have ever 
been recovered and removed from the list. Of those delisted, 
most were removed from the list due to data errors or other 
factors.
    Many view the enforcement of the ESA as being driven by 
litigation or the threat of litigation, which in turn distracts 
from species conservation. Due to rigid timelines, vague 
definitions in the act, and the propensity of some 
environmental organizations to sue the Federal agencies as a 
way of generating taxpayer funded revenue, the ESA has been 
taken over by lawsuits, settlements, and judicial action.
    Many of these lawsuits have recently been wrapped up into 
two so-called mega settlements between the Fish and Wildlife 
Service and the Center for Biological Diversity and Wild Earth 
Guardians. Recently, the Fish and Wildlife Service Director 
told Western Governors that the mega settlements have helped 
decrease the amount of deadline lawsuits by environmental 
groups. However, these self-imposed deadlines are creating 
legal dilemmas for the Service on decisions whether and when to 
list more than 750 new species, and to designate millions of 
acres of habitat over the next 4 years.
    The Obama administration has also dramatically increased 
the designation of critical habitat, and has imposed actions 
that have been detrimental to economic growth. Here are some 
examples: BLM has acknowledged that its strict guidance with 
regard to the sage grouse has led to the deferral of more than 
700 oil and gas leases in Montana, Utah, Wyoming, and my own 
State of Colorado; delay of more than 35 grazing permit 
renewals in Montana, Idaho, Nevada, Oregon, Utah, and Wyoming; 
more than seven electricity rights of way in Idaho and Wyoming; 
and denial of numerous coal bed natural gas and mining permits 
in Wyoming.
    It should be possible to balance environmental protection 
and economic growth.
    I look forward to the testimony from our witnesses and 
learning more about the efforts of the State of Montana and its 
local communities to protect endangered species, while at the 
same protecting private property rights and ensuring economic 
growth.
    Thank you, Mr. Chairman, and I yield back.
    The Chairman. I thank the gentleman for his testimony, and 
I will recognize the gentlelady from Wyoming, Mrs. Lummis.

 STATEMENT OF THE HON. CYNTHIA M. LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Well, thank you, Mr. Chairman. And I want to 
thank Congressman Steve Daines and the people of Montana for 
inviting us and warmly welcoming us for this hearing today. It 
is an honor and a pleasure to serve with Steve Daines on the 
House Natural Resources Committee, and to work with him on 
issues of mutual concern to our adjacent States. He does a 
wonderful job on behalf of the people of Montana. And, Steve, 
thank you for your courtesy and including us in this hearing 
today.
    I also want to acknowledge my thanks to the Chairman of the 
House Natural Resources Committee, Doc Hastings, who not only 
chairs the committee, but co-chairs with me an effort to have a 
better Endangered Species Act, one that serves mankind and the 
flora and fauna that we so rely on and love as we try to make 
the Endangered Species Act work better.
    During the first half of the 20th century, there were 
beliefs that we had bountiful, unlimited natural resources. And 
when we reached the middle of the 20th century, we began to see 
that there were limits to our natural resources. There are 
limits to clean air, clean water, to species, and to the 
environment that they rely on, and the habitat they need. But 
we responded with a command and control structure out of 
Washington, DC with rules drafted by people who have never been 
on the ground and never seen the species that they were 
affecting. We now have policy by litigation, policy that is 
made by courts and by lawyers, and not by policymakers or 
policy implementers, not by county commissioners, not people 
who use these resources.
    I am very anxious to find a 21st century conservation 
strategy that will have robust conservation of species, and 
particularly their habitat, which is absolutely necessary to 
preserve those species, and at the same time, that allows for 
wise use of our lands by the people who rely on it for jobs and 
to have a robust economy. And I look very much forward to the 
testimony of our panel here in Montana.
    Earlier today in Casper, Wyoming, we heard from some real 
innovators in public policy on the ground, boots on the ground 
conservation, not conservation litigation in the courtroom, not 
policies, but practices on the land that conserve species, 
conserve habitat, and make it possible for mankind to share 
these wonderful, bountiful resources once again through sound 
science, through landowner and locally driven practices. Our 
panel today will define for us additional innovations that we 
can take with us as we attempt to have a strong, robust, 
practice, common sense, science-based Endangered Species Act.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentlelady for her comments and 
opening statement.
    And now I will recognize somebody that you are all familiar 
with, as we say, the gentleman from Montana, Mr. Daines.

    STATEMENT OF THE HON. STEVE DAINES, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Daines. Thanks, Mr. Chairman, and thank you for 
agreeing to host this hearing here in Montana this afternoon, 
and I want to thank my colleagues for being here as well. We 
are surrounded by some great States here. I got North Dakota, 
Wyoming, Washington, and Colorado, so we are in good company 
here today. Thanks for coming up to Montana.
    I also want to extend a special thanks to the Chancellor of 
MSU-Billings, Mr. Groseth. Rolf and Janie are friends of ours 
going back to longer than probably we want to admit, but it is 
good to have this facility. Thank you for allowing us to be 
here.
    I am truly grateful that so many people have traveled from 
so far away to join me to address a very important issue 
affecting Montanans, and this is the abuse of the Endangered 
Species Act. This law is well intentioned. This is about trying 
to find reforms to the ESA going forward.
    I just heard the other day from a rancher--when you think 
about the ESA, it was crafted in 1973, so the ESA is now 40 
years old. He said, it is like a 40-year ranch pickup. It 
served a useful purpose, but it is in bad need of repair. I 
think that sums it up. It is well intentioned, but we need to 
bring some balance back to the ESA. And as we are going to see 
here today, it is harmful to many livelihoods here in Montana.
    Now, like many in the audience here and most Montanans, we 
are avid outdoors people. We love the outdoors. That is what 
keeps us here. And when we built our company in Bozeman, our 
recruiting Web site was, ``iloveitthere.com.'' We used to say 
``Work, where you also like to play.'' But there is a balance 
here. We want to be able to play in the outdoors as outdoors 
people, but we also need jobs. You cannot play in the outdoors 
unless you have got a job here to stay in Montana. I think we 
can strike a better balance in this regard.
    For better or for worse, the wildlife and the environment 
that supports it are central to our way of life in Montana. As 
our witnesses are going to attest to later today, our land, 
living in concert with a very diverse wildlife we are fortunate 
to have here in Montana, allow us to grow commodities that feed 
the entire world, develop minerals that provide economic 
security for our State and for our jobs for our kids, and 
provide recreational opportunities that are truly second to 
none. All of us know if you are flying this time, that last 
leg, whether it is Salt Lake to Montana or Minneapolis or 
Denver, about half the folks getting on the planes right now 
are carrying a fly rod. In the fall, about half the folks are 
wearing camo. In the winter time, they are carrying ski boots. 
People want to come to Montana because of the incredible 
quality of life that we have.
    However, in August we have seen firsthand the devastation 
from wildfires. So far this year, nearly 100,000 acres have 
burned in Montana so far. Nationwide the problem gets even 
bigger. I just got the update here this morning: 466,000 acres 
have burned during this season. Wildfires threaten communities. 
In fact, as of yesterday, Montana had the largest fires in the 
Nation, in our State. The fires destroyed a forest where many 
of us love to recreate and where our unique wildlife lives, not 
to mention the threats to watersheds and so forth, as well as 
the air. I think the frustration for many of us is we have got 
bureaucrats back in Washington, DC that are not waking up and 
breathing the smoke-filled air that we breathe out here in 
Montana as a result of ravaging wildfires.
    We once boasted in Montana a very strong timber industry. 
It helped maintain healthy forests, supported jobs, provided a 
steady revenue stream for our counties and our schools. Today, 
timber harvests are down 90 percent from when I was a kid. A 
U.S. Forest Service official recently acknowledged that the 
abundance of litigation has played a huge role in blocking 
responsible timber sales in Montana and other Region 1 States, 
including projects supported by collaborative efforts, 
consisting of timber as well as conservation leaders.
    In fiscal year 2012, and so far this year, 40 percent of 
the projects, the timber projects, in Region 1 of the Forest 
Service have been appealed or litigated. Many of the lawsuits 
are fueled by the Endangered Species Act. The outgoing Deputy 
Interior Secretary, David Hayes, recently declared that 
critical habitat designations have been ``fish in the barrel 
litigation for folks.'' And unfortunately, it is the trial 
lawyers that are winning in this battle, and oftentimes 
Montanans are losing.
    I am concerned that some of the fires existing on Federal 
Forest Service land could be prevented. We could reduce some of 
that risk if the Forest Service managed the forests the way 
they should.
    The saw mill project near Cedar Lake is a perfect example. 
I was at that saw mill the day after the court order came down 
that stopped that project. It was a collaborative project that 
was appealed by a fringe extreme group, and it was stopped. 
This project amongst timber and conservation leaders was 
blocked based on the 9th Circuit Court. It was a decision that 
found the Forest Service had not fully analyzed its potential 
impact on the Canadian lynx and ESA protected species since 
2000. The failure to recover this species is symptomatic of the 
ESA's poor record.
    Meanwhile, as of April 2012, fringe groups have won $1.2 
million from the taxpayer coffers. Now, tell me, how will 
burdensome paperwork for a non-controversial sale, whose merits 
are supported by conservationists and loggers alike, how is 
that harmful to a species? Was conservation of the species 
really the goal?
    In northwest Montana, the Montanore Mining Project has been 
trying to get off the ground for 8 years. This project will 
create over 400 jobs in the Lincoln County with double digit 
unemployment. In my view, this project should have been started 
years ago. Today the project is still held up and is now 
becoming almost economically impossible for the company due to 
the existence of the grizzly bear habitat. Similarly, jobs at 
the Wild Bend Mining Company are at risk because of the ESA. 
These examples just scratch the surface of the ESA's impact 
here in Montana.
    Now, in conclusion, part of the focus today is the 
potential listing of the greater sage grouse. I would like to 
enter into the record Governor Bullock's letter describing his 
commitment to finding a Montana solution to this potential 
listing.
    The Chairman. It will be part of the record, without 
objection.
    Mr. Daines. And comments from the Montana Electric 
Cooperative Association addressing how a sage grouse listing 
would make power for their customers more expensive.
    [The letter submitted for the record by Mr. Daines follow:]
    Letter Submitted for the Record by The Honorable Steve Bullock, 
                                Governor
                                  State of Montana,
                             Helena, MT, September 3, 2013.

U.S. House of Representatives,
Committee on Natural Resources.

Re:    Oversight Field Hearing in Billings, Montana, September 4, 2013
              statement of montana governor steve bullock
    I welcome members of the U.S. House Natural Resources Committee to 
the State of Montana. Thank you for coming to our State to learn about 
the State's efforts to protect the Greater Sage-grouse.
    We Montanans work best when we work together to solve problems. As 
westerners, we've always had to rely on each other, regardless of our 
political views. That's especially the case now with the serious 
gridlock and partisanship that continues to plague Washington, DC.
    Shortly after taking the oath of office, Montanans of many 
different stripes asked me to take action--from energy industry 
executives to conservation leaders and local government officials--all 
were concerned that Montana was not doing enough to address protections 
for the sage grouse.
    Protecting this species is about protecting jobs and our economy, 
and State leadership over our wildlife. We can protect this iconic bird 
while promoting continued economic development and the protection of 
private property rights.
    This past February, I established the Greater Sage-grouse Habitat 
Conservation Advisory Council, ``to gather information. furnish advice, 
and provide . . . recommendations on policies and actions for a state-
wide strategy'' to protect the sage grouse and keep its management in 
State hands.
    I put a broad cross-section of Montanans on the Council--citizens 
representing such interests as energy, mining, transmission, 
conservation, sportsmen and women, legislature, agriculture and 
ranching, and local and tribal governments. I made the Council's work a 
clear priority of the Director of Fish, Wildlife and Parks.
    The Advisory Council has been following a very aggressive meeting 
schedule to craft a Montana solution. The process has been in-depth and 
transparent, and will lead to a draft strategy recommendation that will 
undergo extensive public review and comment.
    There has been considerable support and involvement from industry. 
private citizens. and governmental and non-governmental organizations. 
The Council has received input from leading scientists. specialists. 
citizen experts such as ranchers working in sage grouse country, and 
other western States with valuable experience.
    While you are conducting your hearing, the Council will be in a 
previously scheduled meeting to continue its work, its 7th meeting 
since May. It is regrettable that the Council members will not be able 
to attend in person to share with you the fruits of their work. 
Information regarding the Council's work can be found at: http://
fwp.mt.gov/fishAndWildlife/management/sageGrouse/habitatConservation/.
    The sage-grouse is currently State managed and not under the 
authority of the Federal Government. It is my goal to keep management 
of the bird under State leadership, despite the litigation brought 
against the Federal Government seeking to end State control. The U.S. 
Fish and Wildlife Scrvice have asked Montana to share its updated 
management strategy for sage grouse. and I plan on submitting our 
Montana-led solution early next year.
    Here on the ground in Montana, the solutions will come from 
Montanans, who will roll up their sleeves, set aside political 
differences and posturing. and work to find creative ways to protect 
our economy and the sage grousc for our future generations.
    Again, thank you for your interest in this important issue and 
welcome to the last, best place.
            Sincerely.
                                             Steve Bullock,
                                                          Governor.
                                 ______
                                 
    Mr. Daines. I, too, am deeply concerned that sage grouse 
could become the Canada lynx or grizzly bear of southern, 
central, and eastern Montana. We want to keep the ESA from 
being used as a tool to obstruct positive species and resource 
management and allow the people, not the bureaucrats in 
Washington or judges in the Ninth Circuit, to determine how our 
environment and our resource economies can flourish together.
    If we continue to allow fringe groups and liberal judges to 
dictate our policies, Montanans will lose. We need a good dose 
of sound science and less dose of political science.
    With that, I will yield back to the Chairman.
    The Chairman. I thank the gentleman.
    And now, I will recognize the gentleman from North Dakota, 
Mr. Cramer.

    STATEMENT OF THE HON. KEVIN CRAMER, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF NORTH DAKOTA

    Mr. Cramer. Thank you, Chairman Hastings. First of all, 
thank you for answering favorably to Representative Daines' and 
my letter requesting this important hearing in this beautiful 
place. And thank you, Steve, for your hospitality. My wife, 
Chris, and I have grown to very much appreciate and love Steve 
and Cindy Daines, and appreciate your service to our country.
    And thank you to the citizens of Billings because my wife 
and daughters have spent a lot of money at the Rim Rock Mall on 
our way to Red Lodge on a regular basis.
    [Laughter.]
    Mr. Cramer. We love this place, and so, it is great to be 
with you. And this is an important issue.
    From time to time, I feel sorry for myself when I consider 
how far it is between constituents and the big congressional 
district known as North Dakota, and then I think about how far 
Steve Daines has to drive to do his job, and I feel better 
about myself. But I am reminded when we do that how special the 
West is, how very special the West is, and how special it is 
has remained, not because bureaucrats in Washington, DC have 
been looking over it so carefully, but because the people who 
live here care so much for it. In fact, you would be hard 
pressed to find anybody in Washington that loves the West more 
than the people who have chosen to make it their home.
    And so much of what we face out here in terms of challenges 
are really challenges that come from Washington, DC. They come 
at us in droves from Washington. So I appreciate the leadership 
of this committee and my opportunity to serve with these good 
people on the Natural Resources Committee, who have a clear 
understanding, and who know that from time to time during a 
recess, it is good to get some common sense from where common 
sense is most abundant, in this very same West.
    In North Dakota, prior to being elected to Congress, I 
spent nearly 10 years as a regulator in the energy world. I was 
a State Public Service Commissioner, and carrying the 
portfolios for refineries and pipelines, coal mining, power 
generation, and sighting transmission lines, and all of the 
things that add to our quality of life and grow our economy. 
And I was quite shocked one day when some witness at one of our 
hearings raised the issue of sage grouse as a problem for a 
particular route.
    And I would just say, as frightening as it is to think of 
bureaucrats in Washington, unelected, setting public policy, 
the thing that is far more frightening than that is litigation 
setting public policy. And I used to be critical of Congress 
for giving up so much of its authority by giving so much of it 
away. Now, we are in a new era, and we need to revisit those 
earlier decisions and get our hands wrapped around this 
litigious, bureaucratic mess really that brings us here.
    You have a good Representative here, and you have a good 
team here to take it up. But the real experts are waiting to 
testify, and I will yield the remainder of my time so that we 
can hear from them, Mr. Chairman. Thank you.
    The Chairman. I thank the gentleman for his testimony. I 
thank all of my colleagues for their testimony. And we will 
begin the panel with your testimony.
    Now, let me explain that you have all been asked to submit 
written testimony. And virtually in all of your written 
testimonies, the ones that I read, I know far exceed 5 minutes. 
Nothing wrong with that. That makes it part of the public 
record. What we would like to ask you to do, and just in 
essence of time so we can have some interaction with questions, 
is keep your oral arguments within 5 minutes.
    Now, I am pretty generous. Did we get that hook that we 
asked for?
    [Laughter.]
    The Chairman. Now, I am generous, and so what you have in 
front of you is the timing lights. It is very similar to a 
traffic light. You can look at it that way. But when the green 
light comes on, it means that you have 5 minutes, and you are 
doing wonderfully well. When the yellow light comes on, that 
means you are within a minute, or like if you are driving a 
car, you speed up. That may be an idea to speed up. But when 
the red light comes on, that means that your 5 minutes are up, 
and I would ask you to try to wrap up your remarks.
    Obviously we want to hear--and I do say this. I know it is 
extremely difficult in 5 minutes to put together all of what 
you are trying to communicate. Believe me, we recognize that. 
That is why we have your full statement that you submitted, so 
that is part of the record.
    And this will be the only oral part of this other than the 
question and answer from members of this committee. But if any 
of you would like to submit any statements on anything that is 
said one way or the other--open country here--you can visit our 
committee Web site, which is www.naturalresources.house.gov, 
and press ``contact.'' Or just go to Google and say House 
Natural Resources. Somebody will get you there.
    OK. With that, thank you all, panelists, for being here, 
and we will start on my left side with Ms. Lesley Robinson, who 
is a Commissioner from Phillips County, Montana. Ms. Robinson, 
you are recognized for 5 minutes.

  STATEMENT OF LESLEY ROBINSON, COUNTY COMMISSIONER, PHILLIPS 
                     COUNTY, MALTA, MONTANA

    Ms. Robinson. Chairman Hastings and members of the 
committee, I appreciate the opportunity to testify. I am Lesley 
Robinson, Chairman of the Montana Association of Counties 
Public Lands Committee, a Commissioner from Phillips County, 
and a member of the Montana Stockgrowers Association.
    Phillips County spans 5,213 square miles. We have 
approximately 4,000 people and 56,000 cattle. Ninety-eight 
percent of Phillips County's 3.2 million acres is classified as 
agriculture land. Approximately 33 percent is administered by 
the BLM, and 49 percent is private land.
    Phillips County's economy is dependent on agriculture and 
natural gas production. The 2012 Montana ag statistics State 
cash sales of agricultural commodities for Phillips County was 
$80 million. These raw commodities are further processed and 
transported to other regions of the United States and world, 
generating $434 million in commerce. Based on annual 
consumption levels, Phillips County produces enough beef to 
feed 343,350 people and enough wheat to feed 1.6 million 
people. Gas production results in 4 of the top 15 taxpayers in 
Phillips County, providing 37 full-time jobs.
    I am a fourth generation Phillips County rancher. Our ranch 
sits right in the middle of high quality sage grouse habitat as 
identified by the Montana Fish, Wildlife, and Parks, and the 
BLM. This area covers a major portion of Phillips and Valley 
County. Any action will have a significant economic impact on 
our rural economies of this area and the State.
    BLM has just released their draft Resource Management Plan, 
and 969 allotments in our planning area have been assessed, and 
93 are meeting rangeland health standards. While the ranching 
community is always striving to keep improving, this is proof 
that our industry has been successful in working with the BLM 
to meet the objectives.
    I would like to share with the committee some research that 
was conducted in south Phillips County where I live. The 
research title is ``Landscape-Scale Factors Affecting 
Population Dynamics of Greater Sage Grouse.'' It was conducted 
from 2001 to 2004 by Brendan James Moynahan, Ph.D. candidate 
with The University of Montana.
    Moynahan radio tagged 243 hens in south Phillips County. In 
his first year of the study, most nest failures, 94 percent, 
were attributed to depredation, and most of the nest 
depredations, 63 percent, were attributed to avian predators. 
He noted that even in areas of expansive, high-quality habitat 
such as south Phillips County, winters may be so severe as to 
have a clear and substantial populations-level impacts. 
However, there is no published research data that indicates 
livestock grazing has any impact on sage grouse populations. 
The fact that there is a hunting season on sage grouse 
indicates that there is a healthy population.
    Additionally, Montana FWP is capturing live birds in south 
Phillips County and transporting them to Canada to improve 
their population. The agency believes that the sage grouse 
population is stable over the last 30 years.
    If a listing of sage grouse under the ESA were to occur, it 
would have a dramatic effect on our community and State. I 
believe one of the first actions to be implemented would be a 
reduction or elimination of grazing in sage grouse areas. The 
socioeconomic impacts of this type of action would be 
substantial, and the likely reductions in livestock grazing on 
Federal lands could have great impacts on local economies like 
ours that are dependent on livestock production.
    TransCanada has also proposed the Keystone XL pipeline. The 
route would enter the United States in Phillips County and pass 
through five other counties. We have seen case after case of 
projects such as this being derailed because of the Endangered 
Species listing and the habitat associated with those species. 
If these projects fail to materialize, so do the good paying 
jobs and essential tax revenue to the county.
    The active management of public lands is essential to the 
economy of our community. It is my experience that species 
conservation will happen only at the ground level. No one is 
better equipped or motivated to prevent the ESA listings than a 
rancher, who own and/or operate or manage the land that is most 
likely to be the prime species habitat. If you give ranchers 
and their local governments an opportunity, they will develop 
the voluntary proactive measures they can to implement that 
benefit the species in question.
    I firmly believe that species conservation is a community-
driven effort that strives to work with individuals, groups, 
and agencies to achieve a goal. Addressing species, such as 
sage grouse, needs to be a grassroots effort, not a top down 
approach. Allowing multiple use of Federal lands is a critical 
step in ensuring a secure food and fuel supply for the American 
people. It is imperative that we provide your committee and the 
entire Congress the input that is needed to modernize the ESA 
process to meet the future needs of our communities, State, and 
Nation.
    Thank you for allowing me to testify.
    [The prepared statement of Ms. Robinson follows:]
 Prepared Statement of Lesley Robinson, County Commissioner, Phillips 
                         County, Malta, Montana
    Chairman Hastings and members of the committee. I appreciate the 
opportunity to testify on behalf of Phillips County at the House 
Natural Resources Committee Oversight Field Hearing.
    I am Lesley Robinson, Chairman of the Montana Association of 
Counties Public Lands Committee, a Commissioner from Phillips County 
and a member of the Montana Stockgrowers Association.
    Phillips County spans 5,213 square miles. We have approximately 
4,000 people and 56,000 cattle in our county. Ninety-eight percent of 
Phillips County's 3.2 million acres is classified as agriculture land. 
Approximately 33 percent is managed by the BLM and 49 percent is 
private land.
    Phillips County's economy is dependent on Agriculture and Natural 
Gas production. The 2012 Montana Agricultural Statistics State cash 
sales of agricultural commodities for Phillips County was $80 million. 
These raw agricultural commodities are further processed and 
transported to other regions of the United States and world, generating 
$434 million in commerce. Based on annual consumption levels Phillips 
County produces enough beef to feed 343,350 people and enough wheat to 
feed 1.6 million people.
    I am a fourth generation Phillips County rancher. Our ranch sits in 
the middle of ``core area 2'' on the Montana Fish, Wildlife and Parks 
sage grouse designation and the Bureau of Land Management ``Greater 
Sage-Grouse Protection Priority Area.'' This area covers a major 
portion of Phillips and Valley County, including 1.6 million acres 
total. With 54 percent of this acreage, under BLM management and 27 
percent being private, any potential listing of sage grouse under the 
Endangered Species Act, Any action will have a significant economic 
impact on rural economies in this area and the State.
    Currently the BLM has just released the HiLine Draft Resource 
Management Plan (RMP). The HiLine District administers 763 permits, 
permitting approximately 386,600 Animal Unit Months (AUMs) of livestock 
forage. All 969 allotments in the planning area have been assessed for 
rangeland health standards. Out of those allotments, 907 allotments are 
meeting rangeland health standards. This is a 93 percent success rate 
for grazing allotments in this planning area. While the ranching 
community is always striving to keep improving, this is proof that our 
industry has been successful in working with the BLM to meet the 
objectives.
    I would like to share with the committee some research that was 
conducted in south Phillips County where I live. The research title is 
Landscape-Scale Factors Affecting Population Dynamics of Greater Sage-
Grouse (Centrocercus urophasianus) in north-central Montana, it was 
conducted from 2001-2004 by Brendan James Moynahan, Ph.D. Candidate 
with The University of Montana.
    Moynahan radio-tagged 243 hens during a 3-year study of sage-grouse 
in south Phillips County. In his first year of the study, 2001 most 
nest failures (94 percent) were attributed to depredation, and most 
nest depredations (63 percent) were attributed to avian predators. He 
suspected that California gulls were the primary predators (Moynahan 
2004: 29)
    Of the successful nests of the marked hens in 2001, only one chick 
survived to 30 days (Moynahan 2004: 69)
    Moynahan noted that even in ``areas of expansive, high-quality 
habitat such as south Phillips County, winters may be so severe as to 
have clear and substantial populations-level impacts'' (Moynahan 2004: 
128). Additionally he suggested that the effects of West Nile virus 
were pronounced (Moynahan 2004: 129).
    The fact that there is a hunting season on sage-grouse administered 
by the Montana Fish, Wildlife, and Parks, indicates a healthy 
population. Additionally, the State agency is capturing live birds in 
south Phillips County and transporting them to Canada to improve their 
population. Montana Fish, Wildlife and Parks believes the sage-grouse 
population is stable over the last 30 years. There is no published 
research data that indicates livestock grazing has any impact on sage-
grouse populations.
    If a listing of sage grouse under the ESA were to occur, it would 
have a dramatic effect on our community and State. I believe one of the 
first actions to be implemented would be a reduction or elimination of 
grazing in sage grouse areas. The socioeconomic impacts of this type of 
action would be substantial. The likely reductions in livestock grazing 
on Federal lands could have great impacts on local economies like ours 
that are dependent on livestock production.
    It is my experience that species conservation will happen only at 
the ground level. No one is better equipped or motivated to prevent ESA 
listings than ranchers, who own and/or manage the land that is most 
likely to be prime species habitat. If you give ranchers and their 
local governments an opportunity, they will develop the voluntary, 
proactive measures, they can implement that benefit the species in 
question. This approach meets the needs of the community, while also 
meeting the needs of wildlife.
    A Public Opinion Strategies poll in Montana also supports the 
ideals of having a strong economy and a healthy environment. Seventy-
two percent of those surveyed, said they supported the statement that 
``We can protect land and water and have a strong economy with good 
jobs for Americans at the same time, without having to choose one over 
the other.'' The survey also pointed out that there was strong support 
for allowing Montana to better manage wildlife to avoid Federal 
Government interference. Montanan's know what's best for Montana.
    In addition to the agricultural economy of our county, 4 of the top 
15 taxpayers in Phillips County are gas companies. Direct employment 
from gas production in Phillips County has resulted in 37 full time 
jobs. TransCanada has also proposed the Keystone XL pipeline. The route 
would enter Montana in Phillips County and pass through Valley, McCone, 
Dawson, Prairie and Fallon Counties. We have seen case after case of 
projects such as this being derailed because of ESA listings and the 
habitat associated with those species. If these projects fail to 
materialize, so do the good paying jobs and essential tax revenue to 
the county. The active management of public lands is essential to the 
economy of our community. Allowing multiple use of Federal lands, is a 
critical step in ensuring a secure food and fuel supply for the 
American people.
    I firmly believe that species conservation is a community-driven 
effort that strives to work with individuals, groups and agencies to 
achieve a goal. It is essential that addressing species, such as sage 
grouse, is a grassroots effort, not a top down approach. It is 
imperative that we provide your committee and the entire Congress, the 
input that is needed to modernize the ESA process to meet the future 
needs of our communities, State and Nation.
                                 ______
                                 
    The Chairman. And that is exactly why we are here to hear 
that testimony.
    Now, I would like to recognize Mr. Matt Knox, who is 
representing the Montana Farm Bureau. And Mr. Knox is from 
Winifred, Montana. You are recognized for 5 minutes.

 STATEMENT OF MATT KNOX, MONTANA FARM BUREAU, WINIFRED, MONTANA

    Mr. Knox. Chairman Hastings, Congressman Daines, and 
members of this committee, I thank you for the opportunity to 
testify today on this important issue.
    I ranch in central Montana in the Missouri Breaks with my 
wife, Karla, and daughters, Sally and Sarah. Currently, I am 
serving on the Board of Directors of the Fergus County Farm 
Bureau, and I also represent the Missouri River Stewards, an 
organization dedicated to protecting ranching in the Missouri 
river breaks. I am testifying today on behalf of the Montana 
Farm Bureau.
    We believe Montana has a viable and stable sage grouse 
population. As such, any efforts at conservation should be 
aimed at continuation of current efforts. The bird numbers vary 
due to many factors. There are very real threats to the 
survival of sage grouse, but they should not be confused with 
misdirected conservation measures. Amongst these misdirected 
measures are several that are listed in the BLM's national 
strategy to protect sage grouse. They were developed by the 
National Technical Team, whose main interest it seems is to 
restrict or eliminate land uses that, in fact, pose little or 
no threat to grouse.
    Some of the measures are predicated on the assumption that 
livestock grazing is associated with sage grouse population 
loss. This ignores the parallel decline over the past half 
century of both livestock numbers and sage grouse on public 
lands. In 1953, there were approximately 18 million AUMs on 
public lands in the West. By 2000, that number was around 10 
million. If grazing were the problem, sage grouse should be 
flourishing. Sage grouse management and grazing management 
share a common objective of healthy native rangeland, which is 
important to both livestock and sage grouse.
    Another misdirected conservation measure is the management 
of wildfire by BLM. We believe the national strategy suggests 
managing fire by minimum impact suppression tactics. Rangeland 
fire, we believe, in sage grouse habitat should be attacked 
immediately and aggressively.
    Predation continues to be ignored by the U.S. Fish and 
Wildlife Service as a factor in sage grouse decline. Their 
response to questions on predation continues to be that it may 
be a rare localized issue, but adequate habitat is the real 
problem. One example is a very aggressive nest predator, the 
raven, whose population in the West has grown by over 1,000 
percent since 1900. And I can certainly bear that out where we 
live. Predators are a factor, and any effort to conserve the 
species needs to address the issue.
    At the request of the livestock and oil and gas industries, 
Governor Bullock appointed a Sage Grouse Advisory Committee to 
develop a management plan for sage grouse in Montana. The plan 
must pass muster with the U.S. Fish and Wildlife Service to 
keep the bird from being listed. As mentioned above, there is 
plenty of data proving that grazing and sage grouse are 
compatible. Therefore, we suggest that Montana follow the 
Wyoming example of exempting traditional agricultural 
practices. The livestock and oil and gas industries have put a 
lot of time in this. We would hate to see all this time wasted.
    This brings us to the crux of the problem of the act 
itself. It is not working very well. One of the major factors 
we all know about is cost. A couple of examples that were 
compiled by the Political Economy Research Center in Bozeman 
Montana: the Subcommittee on Forest and Forest Health reported 
that 130,000 jobs were lost and more than 900 sawmills, paper, 
and pulp mills were closed because of the spotted owl. And we 
all remember recently what went on with the farmers in the 
Klamath Basin. Those crops were valued at $53 million.
    The ESA, or the threat of it, can also cause what I would 
call perverse incentives. When the draft version of the final 
management plan for the Missouri Breaks Monument came out, some 
of the leks on deeded land were identified in their maps. 
Language was included, enabling BLM to manage adjacent BLM 
lands accordingly. In other words, we were being punished for 
being good managers apparently.
    We strongly contested this provision, but without success. 
Since that time, there has been an understandable and 
justifiable reluctance on the part of our local ranchers to 
cooperate with lek inventories.
    In closing, farmers and ranchers are very frustrated with 
the ESA process. We need to see honest economic analysis. We 
also would prefer a solution built around incentives and 
landowner and community involvement. Thank you.
    [The prepared statement of Mr. Knox follows:]
Prepared Statement of Matt Knox, Board of Directors, Fergus County Farm 
          Bureau, Representing Montana Farm Bureau Federation
    Chairman Hastings, Congressman Daines and members of the Natural 
Resources Committee.
    My name is Matt Knox, and I want to thank you for the opportunity 
to testify today on ``State and Local Efforts to Protect Species, Jobs, 
Property, and Multiple Use Amidst a New War on the West''.
    I ranch in north central Montana in the Missouri Breaks with my 
wife Karla and daughters Sally and Sarah. Currently I serve on the 
Board of Directors of Fergus County Farm Bureau and also represent the 
Missouri River Stewards, an organization dedicated to protecting 
ranching in the Missouri river breaks.
    Today I am testifying on behalf of the Montana Farm Bureau.
    I would like to talk specifically about Sage Grouse, the real 
threats to the species, misdirected conservation efforts by the BLM, 
Montana's developing sage grouse management plan and end with a few 
comments on the Endangered Species Act in general.
    Montana has a viable and stable sage grouse population. As such any 
efforts at conservation should be aimed at continuation of current 
efforts. Bird numbers tend to vary due to weather patterns, predation, 
disease, wildfire and sage brush conversion. These are very real 
threats to the survival of sage grouse and should not be confused with 
misdirected conservation measures. Among these misdirected measures are 
several that are listed in the BLM's national strategy to protect sage 
grouse. They were developed by the National Technical Team (NTT) whose 
main interest it seems is to restrict or eliminate land uses that in 
fact pose little or no threat to grouse. Some of the measures are 
predicated on the assumption that livestock grazing is associated with 
sage grouse population loss. This ignores the parallel decline over the 
past half century of both livestock numbers and sage grouse on public 
lands. In 1953, there was approximately 18 million animal unit months 
(AUMs) on BLM land in the West, by 2000 that number was around 10 
million AUMs. If grazing were the problem, sage grouse should be 
flourishing. Sage grouse management and grazing management share a 
common objective of healthy native rangeland vegetation, which is as 
important to range livestock production as it is to sage grouse. 
Retiring grazing privileges as suggested by the BLM is based on 
political antagonism far more than real biology. It is amazing to our 
members that grazing by cattle is a threat but overgrazing by wild 
horses or wildlife has no effect in the eyes of the BLM.
    Another misdirected conservation measure is the management of 
wildfire by the BLM. The national strategy suggests managing fire by 
Minimum Impact Suppression Tactics (MIST). It doesn't take a long 
memory to recall the devastation to sage grouse habitat during the 2012 
fire season. Rangeland fire in sage grouse habitat should be attacked 
immediately and aggressively.
    Predation continues to be ignored by the U.S. Fish and Wildlife 
Service as a factor in sage grouse decline. Their response to questions 
on predation continues to be; it may by a rare localized issue but 
adequate habitat is the real problem. In the early 1900s sage grouse 
numbers began to grow as ranchers and farmers controlled coyotes, 
skunks, crows and ravens. The trend continued into the 1960s when 
efforts to control predators were curtailed through government 
regulation. An example is a very aggressive nest predator, the raven 
whose population in the West has grown by over 1,000 percent since 
1900. Predators are a factor and any effort to conserve the species 
needs to address the issue.
    At the request of the livestock and oil and gas industry, Governor 
Bullock appointed a sage grouse advisory committee to develop a 
management plan for sage grouse in Montana. The plan must pass muster 
with the U.S. Fish and Wildlife Service thus keeping the bird from 
being listed. As mentioned above there is abundant data proving that 
grazing and sage grouse are very compatible uses. That applies not only 
to grazing, but to water development, irrigation and other developments 
within reasonable distances from active leks. Therefore we suggest that 
Montana follow the Wyoming example of exempting traditional 
agricultural practices. The livestock and oil and gas industries have 
put a great deal of time and effort in this effort as well as hundreds 
of hours of State legislator and agency employee hours. These hours 
will have been wasted and the reputation of the entire ESA tarnished 
even further if, as Director Dan Ashe stated at a recent Farm Bureau 
gathering in Washington, DC that he was 90 percent certain that sage 
grouse will be listed no matter what the States develop as management 
strategies.
    This brings us to the crux of the problem, the Endangered Species 
Act itself. It is not working very well. In fact since its passage over 
13,000 species of plants and animals have been listed. Depending on 
whose numbers you use, anywhere between 7-20 species have been removed 
from the list. Of those removed, most had little or nothing to do with 
the act but dealt with species already extinct or recovered by some 
other means. This leaves the ESA with a success percentage of around 
.06 percent. Cost is another factor of the equation. Some examples of 
costs compiled by the Political Economy Research Center (PERC) in 
Bozeman Montana are:

    <bullet> Delay of a $55 million high school in California while 
            waiting for ESA determination on fairy shrimp. Cost $1 
            million.
    <bullet> The Subcommittee on Forest and Forest Health reported that 
            130,000 jobs were lost and more than 900 sawmills, paper 
            and pulp mills were closed because of the spotted owl.
    <bullet> Farmers in the Klamath Basin lost crops valued at $53 
            million because irrigation water was shut off in 2001 to 
            protect two fish species.
    <bullet> $100 million spent on Prebles Jumping Mouse which wasn't 
            even a unique species.

    The definition of critical habitat has wandered far afield. The 
current definition now fits better for those who would seek wide spread 
land use control than for those who would preserve a species. 
``Critical habitat'' is not defined as land on which the species 
currently lives, but as any area that has characteristics essential to 
the survival of the species. A piece of property may be designated 
``critical habitat'' if a species might have lived there or could 
possibly live there some time in the future.
    Endangered designations lack verifiable peer reviewed scientific 
evidence. According to Dr. J. Gordon Edwards, San Jose State University 
in ``The Handbook of Environmental Science Health and Technology'', 
scientists around the world have recognized that biological species 
must be reproductively isolated and genetically distinctive natural 
populations. This scientific categorization of species bears no 
resemblance to the political use of the word in the ESA. In fact 
Edwards claims detailed records reveal 40 percent of species listed on 
the ESA to be only sub-species or distinct populations. Among these is 
the Florida panther, eastern timber wolf, Columbian white tail deer and 
the infamous northern spotted owl.
    In closing, Montana Farmers and Ranchers are extremely frustrated 
with the Endangered Species Act. It is like a treadmill to landowners 
and producers. We spend an inordinate amount of time and effort in 
order to keep species from being listed, only to have them listed 
anyway. Once listed, delisting goals are moving targets. When delisting 
targets are reached delisting is further delayed by court cases. 
Habitat control takes precedence over species conservation. 
Conservation of one species leads to degradation of another. The sage 
grouse is on center stage at this time, before that it was the wolf, 
cutthroat trout and grizzly bears to name a few. When we start playing 
god to one species there is no place to stop until the Federal 
Government controls the entire West.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Knox, for your 
testimony.
    Next, I will recognize Mr. Dave Galt from the Montana 
Petroleum Association, which is based in Helena. And you are 
recognized for 5 minutes.

    STATEMENT OF DAVE A. GALT, EXECUTIVE DIRECTOR, MONTANA 
             PETROLEUM ASSOCIATION, HELENA, MONTANA

    Mr. Galt. Thank you, Mr. Chairman, and welcome to Montana. 
Thank you for invitation to speak and for the huge effort on 
your part to hold a series of hearings out West to learn more 
about the Endangered Species Act.
    Chairman Hastings, members of the committee, for the 
record, I am Dave Galt, Executive Director of the Montana 
Petroleum Association. Our members include companies, and 
members, and individuals involved in the exploration, drilling, 
production, transporting, and refining of oil and natural gas.
    The Montana State University, Billings, has done extensive 
analysis of the economic impact of the oil and gas industry in 
Montana. Here are a few facts from their 2012 update published 
in the Treasure State Journal. Direct and indirect jobs 
supported by the industry exceed 20,000. Total economic output 
from the oil and gas industry in Montana is in excess of $10 
billion dollars. Firms, investors, and employees of Montana's 
oil and gas industry paid an estimated $440 million in State 
and local taxes. A 5 percent industry expansion would result in 
over 1,000 new jobs in Montana.
    I have attached three charts to help you visualize oil and 
gas production in or State. The map shows oil producing areas 
in green, gas in red, and sage grouse core areas in purple. The 
black dots--the little, itty-bitty black dots--represent wells 
drilled in Montana since 1915. While the purple areas represent 
sage grouse core areas, when you include the entire grouse 
habitat, it covers most of the eastern half of Montana. The 
other two slides illustrate oil and gas production in Montana 
by county just to give you an idea of where it is coming from 
in Montana. And my point is that it is across the State, and 
not just in the Bakken.
    Studies relied upon by the NTT and the BLM in their NTT 
were significantly and scientifically flawed. A primary source 
of information used by the NTT was reviewed by the Center of 
Environmental Science, Accuracy, and Reliability, which found 
significant mischaracterization of previous research; 
substantial errors and omissions; lack of independent 
authorship and peer reviews; three of the authors on the NTT 
were also the authors, researchers, and editors on three of the 
most cited sources, methodological bias; invalid assumptions 
and analysis; and inadequate data.
    The NTT also insisted repeatedly on citing Holloran's study 
in 2005, dissertation as gospel, even though it failed to 
acknowledge that countless stipulations and mitigation measures 
utilized by the oil and gas industry throughout sage grouse 
habitat. The focus of the study was limited to an unmitigated 
control area which was used as a basis for comparison to areas 
where mitigation was being employed.
    In Montana, no site specific sage grouse data relating to 
the actual study areas were used by the BLM in their resource 
management plan revisions. Therefore, MPA has asked the BLM to 
rewrite the planning document.
    The Interior's reliance on the NTT report will cause new 
oil and gas leasing, exploration, and development in Montana to 
be essentially terminated in sage grouse areas and sage grouse 
habitat. The BLM has proposed the use of no surface occupancy 
stipulation on millions of acres of public lands, as well as 
private surface and Federal minerals ostensibly to protect sage 
grouse and its habitat. BLM makes these areas off limits to new 
rights-of-way, and even is considering forcing the relocation 
of existing rights-of-way.
    In conclusion, we support efforts to avoid listing of the 
greater sage grouse as a threatened or endangered species, but 
we object that the Department of the Interior believes that the 
habitation destruction is the single most important factor 
impacting the sage grouse, particularly that from oil and gas 
development. Weather and predation are extremely important 
factors and have been essentially ignored by the agencies. 
Nevertheless, the greater sage grouse will continue to survive 
to the best of its ability, while the economy of public lands 
and the States will suffer draconian declines due to 
unjustified limits on multiple use and revenue generating 
activities.
    Mr. Chairman, I have got an extensive written testimony. 
There is a lot of information in there. There are studies that 
we have referred to. We did not provide them. We would be glad 
to if the committee so desires. Thank you.
    [The prepared statement of Mr. Galt follows:]
   Prepared Statement of David A. Galt, Executive Director, Montana 
                 Petroleum Association, Helena, Montana
    Welcome to Montana. Thank you for the time and the huge effort to 
hold a series of meetings in the West to learn more about sage grouse 
and other potential endangered species.
    Chairman Hastings, members of the committee; I am Dave Galt, 
Executive Director of the Montana Petroleum Association (MPA). MPA's 
members include companies involved in the exploration, drilling 
production, transporting and refining of oil and natural gas. Montana 
has a long history of oil and gas production. Our first commercial was 
drilled in Elk Basin in 1915.
    Montana State University-Billings has done extensive analysis of 
the economic impact of the oil and gas industry in Montana. Here are a 
few facts from their 2012 update published in the Treasure State 
Journal:

    <bullet> Direct and indirect jobs supported by the industry exceed 
            20,000 jobs.
    <bullet> Total economic output from the oil and gas industry in 
            Montana is in excess of $10 billion.
    <bullet> Firms, investors, and employees of Montana's oil and gas 
            industry paid an estimated $440 million in State and local 
            taxes in 2011--Tax revenue that supports education, 
            protective services, roads and a host of services.

    Montana was one of only a few States that maintained a positive 
budget balance through the recent great recession. Montana is in the 
black because of the active petroleum industry. New wells, expanding 
refinery capacity and new pipeline systems all contribute to a robust 
economy in Montana. A 5 percent industry expansion would result in over 
1,000 new jobs in Montana.
    I have attached three charts to help you visualize oil and gas 
production in Montana. The map shows oil producing areas in green, gas 
in red and sage grouse core areas in purple. The black dots represent 
wells drilled in Montana since 1915. While the purple areas represent 
sage grouse core areas; when you include the rest of the sage habitat, 
it covers most of the eastern half of Montana except the extreme north 
east corner. Sage grouse management proposed by the BLM with the 
blessing of the USFWS is going to have a debilitating impact on 
Montana's oil and gas production. The other two slides illustrate oil 
and gas production by county in Montana. The point is that there is 
production and potential across Montana, not just in the ``Bakken.''
    The potential listing of sage grouse and the Sprague's pipit pose 
huge problems not just for the oil and gas industry in Montana, but for 
all multiple-use activities, including mining and grazing. We are 
seeing States in the West develop plans to provide conservation 
measures for sage grouse that place huge tracts of land off limits to 
nearly all revenue-generating activities. The determination of the need 
to list the sage grouse has been a topic of litigation and debate for 
the last decade. Law suits by environmental groups have led to a 
``closed door'' settlement by the Federal Government to decide the 
status of many species, the sage grouse being one, petitioned for 
listing as threatened or endangered species. The U.S. Fish and Wildlife 
Service must decide by July of 2015 if the sage grouse is endangered. 
In the meantime; Western States, led by Wyoming, are developing 
conservation plans for the grouse. At the same time the Bureau of Land 
Management, BLM is rushing to release revised resource plans, or amend 
existing plans, which contain draconian stipulations for resource 
development. The ink wasn't dry on Montana's 2005 conservation plan, 
when academics and environmental groups said the restrictions in that 
plan were inadequate. Wyoming took the lead to identify core areas and 
protect them with very strict stipulations. And now the BLM's National 
Technical Team (NTT) on sage grouse recommends even more stringent 
stipulations, despite the fact that none of the existing stipulations 
have any science behind them to suggest they are inadequate.
    Of particular concern is that the Department of the Interior, 
particularly the U.S. Fish and Wildlife Service, U.S. Geological Survey 
and Bureau of Land Management, have failed to utilize any type of 
systematic cataloging and quantitative evaluation to determine the 
type, extent and effectiveness of mitigation measures that have been 
employed by the oil and gas industry in areas where it operates. That 
the agencies have very little useful and site-specific data upon which 
to base its land management decisions, particularly with respect to oil 
and gas exploration and development activities, is egregious when one 
views the protections measure proposed by BLM in its RMP revisions and 
amendments. DOI is relying upon flawed data perpetuated by its National 
Technical Team on Sage Grouse which is highly problematic.
    Studies relied upon by the NTT were significantly and 
scientifically flawed. Just a few of these problems are:
    The Cooper Ornithological Society's Monograph: Studies in Avian 
Biology (monograph), used as a primary source of information by the 
NTT, was reviewed by the Center for Environmental Science, Accuracy and 
Reliability (CESAR) in a paper \1\ which found that the monograph 
relied upon:
---------------------------------------------------------------------------
    \1\ Science or Advocacy? Ecology and Conservation of Greater Sage-
Grouse: A Landscape Species and its Habitats: An Analysis of the four 
most influential chapters of the monograph.

    <bullet> Significant mischaracterization of previous research;
    <bullet> Substantial errors and omissions;
    <bullet> Lack of independent authorship and peer review (3 of the 
            authors of the NTT are also the authors, researchers, and 
            editors on 3 of the most cited sources in the NTT);
    <bullet> Methodological bias;
    <bullet> A lack of reproducibility;
    <bullet> Invalid assumptions and analysis; and
    <bullet> Inadequate data.

    The NTT also insisted upon repeatedly citing Holloran's 2005 
dissertation \2\ as gospel despite the fact that it failed to 
acknowledge the countless stipulations and mitigation measures utilized 
by the oil and gas industry throughout sage grouse habitat. It is 
critically important to recognize that the focus of this study was 
limited to an unmitigated control area which was to be used as a basis 
for comparison to areas where mitigation was being employed. Not 
surprisingly, Holloran's predictions of catastrophic population decline 
have been clearly refuted by the data. Specifically, he predicted 
population declines of between negative 8.7 percent to negative 24.4 
percent annually in Pinedale (page 82, Table 2). However, those doom 
and gloom population predictions have simply failed to come true. 
Instead sage grouse populations in these areas have been continually 
increasing, and are well above statewide averages.
---------------------------------------------------------------------------
    \2\ (Holloran, M. J. 2005. Greater sage-grouse (Centrocercus 
urophasianus) population response to natural gas field development in 
western Wyoming. PhD Dissertation. University of Wyoming. Laramie, 
Wyoming.)
---------------------------------------------------------------------------
    Analyses of lek count data by the State of Wyoming show that lek-
attendance trends have been increasing since 1990 and their densities 
are the highest in the State. In fact, a separate analysis by Renee 
Taylor of Taylor Environmental Inc. has shown that there is no 
statistically significant difference between the average number of male 
sage grouse in areas affected by oil and gas in both the Pinedale and 
control areas. If Holloran's predictions were true, there would only be 
a handful of birds left around Pinedale. Clearly, Holloran and his 
approach were wrong.
    A report \3\ prepared using Wyoming Game and Fish sage-grouse data 
clearly demonstrates the significance of precipitation levels with 
respect to sage-grouse population arcs. While weather and precipitation 
levels cannot be controlled by the Federal government, they are clearly 
tied to sage-grouse survival and population and must be acknowledged. 
Also, numerous published reports and papers have identified the 
significant role predation has on the survival of the sage-grouse which 
have not been taken into full account by the Department of Interior so 
that reasonable and effective measures to reduce predation can be 
formulated and adopted.
---------------------------------------------------------------------------
    \3\ Draught and Wildlife Survival--Wyoming Game and Fish 
Department, Sage Grouse Precipitation Drought Index.
---------------------------------------------------------------------------
    When BLM prepared its RMP revisions for Montana, no site-specific 
sage-grouse data relating to the actual study areas was used. Rather, 
BLM relied upon information based on studies of Sage Grouse Management 
Zone 1 (MZ1) as described in the NTT Report, which includes 
northeastern Wyoming and far western North and South Dakota. In so 
doing, BLM failed to ensure the accuracy needed upon which to base 
informed land use decisions. Although analysis of MZ1 would be 
appropriate as a study area for analysis of cumulative impacts to sage-
grouse nation-wide, potential direct and indirect impacts to sage-
grouse and sage-grouse habitat resulting from implementation of the RMP 
must address only those conditions and potential direct and indirect 
impacts specific to the specific planning areas. Consequently, MPA has 
asked for a redraft of all these RMP Revisions in which sage-grouse 
data directly applicable to the planning areas in Montana would be 
utilized.
    It is also important to note that the NTT Report is not even 
supported by the Western Association of Fish and Wildlife Agencies 
(WAFWA) as DOI's sole source of Sage-grouse management direction. In a 
letter sent to the Interior Secretary on May 16, 2013 WAFWA member 
States made it clear that they never endorsed the sole use of the NTT 
or any other scientific publication. Rather, they believe that a 
variety of peer-reviewed publications which collectively provide the 
best available science for sage-grouse should have been used by BLM as 
the basis for conserving the Sage-grouse, thereby avoiding a listing 
under the Endangered Species Act (ESA). WAFWA went on to recommend that 
management and regulatory mechanisms should be based upon the best 
available science which would provide the best strategy for near- and 
long-term management of sage-grouse and provides the best opportunity 
for precluding the need to list the species under the ESA.
    We point out that the International Research Center for Energy and 
Economic Development (ICEED peer reviewed a paper entitled ``Oil and 
Gas Development and Greater Sage Grouse (Centrocercus urophasianus): A 
Review of Threats and Mitigation Measures,'' Volume 35, Number 1, which 
was published by The Journal of Energy and Development. The paper 
pointed out that:

        ``Current stipulations and regulations for oil and gas 
        development in sage grouse habitat are largely based on studies 
        from the Jonah Gas Field and Pinedale anticline. These fields, 
        and their effect on sage grouse, are not necessarily 
        representative of sage grouse responses to less intensive 
        energy development. Recent environmental regulations and newer 
        technologies have lessened the threats to sage grouse.''

    As a result of BLM's reliance upon the NTT Report and its 
recommendations, new oil and gas leasing, exploration and development 
in Montana will be essentially terminated in areas within sage grouse 
habitat if the measures proposed by BLM in its RMP revisions are 
adopted. Specifically, BLM has proposed the use of new No Surface 
Occupancy (NSO) stipulations on millions of acres of public lands as 
well as private surface/Federal minerals ostensibly to protect sage 
grouse and its habitat. NSO stipulations, which prevent the use of the 
surface area of the lease, would be imposed on 50 percent of the public 
lands in the Miles City FO, 70 percent in the HiLine FO and 60 percent 
in the Billings FO. Added to that, in the Billing Field Office, BLM is 
attempting to force the use of the same stipulations upon Federal 
minerals under private surface. We expect similar constraints to be 
used in the other field offices as well. BLM also proposes to make 
sizable portions of these areas off-limits to new right-of-way 
construction and even goes so far as considering forcing the removal 
and replacement of existing rights-of-way to areas outside sage grouse 
habitat.
    In conclusion, while we support efforts to avoid a listing of the 
Greater Sage-grouse as a threatened or endangered species, we are 
disturbed that the DOI has embraced the notion that habitat destruction 
is the single most important factor impacting the sage-grouse, 
particularly that from oil and gas development, which as pointed out 
earlier in this testimony has been proven to be a fallacy. While we 
acknowledge that unmitigated habitat destruction may play a role, 
albeit much more limited than acknowledged by the agencies, in the 
survival of the sage-grouse, weather and predation are extremely 
important factors that have been essentially ignored by the agencies 
when determining how best to manage habitat. To date, DOI's focus has 
been to find ways to prevent or minimize human uses of habitat based 
upon flawed studies and reviews contained in the NTT Report. 
Nevertheless, it is patently obvious that DOI's tunnel vision will not 
result in essential improvements to the widespread degraded habitat 
managed by Federal agencies nor will it address the significant problem 
of extensive predation throughout the Western States. Instead, it will 
shift DOI's burden and responsibilities to public land users in 
discrete areas where they have activities while failing to address the 
problem as a whole. Nevertheless, the Greater Sage-grouse will continue 
to survive to the best of its ability while the economy of the public 
lands States will suffer draconian declines due to unjustified limits 
on multiple-use and revenue generating activities.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. If you would like to, if you have other 
studies that you want part of the record, we would welcome 
that.
    Mr. Galt. Yes, sir. I will get them in, provide them.
    The Chairman. Without objection, they will be part of the 
record.
    OK. Thank you very much, Mr. Galt.
    Now, I will recognize Mr. Brian Cebull from here in 
Billings. Mr. Cebull, you are recognized for 5 minutes.

        STATEMENT OF BRIAN R. CEBULL, BILLINGS, MONTANA

    Mr. Cebull. Thank you. Good afternoon, Chairman Hastings 
and members of the committee. My name is Brian Cebull, and I am 
a third generation Montana native. Although I have spent my 
entire 20-year professional career in the oil and gas business, 
I am here today representing myself as a Montana landowner and 
a Montana sportsman.
    My wife and I own a unique ranch located in Carbon County, 
only 1 hour south of Billings. Grove Creek Ranch consists of 
our deeded acreage, plus over 15,000 acres of BLM grazing 
leases, and contains a healthy population of sage grouse, a 
very active population of grizzly bears, and an occasional 
wolf. I have included a few photos of these bears for your 
entertainment in my written testimony.
    My experiences and those of my tenants in dealing with 
grizzly bears highlight the flaws of the current ESA process 
and the need to keep species, such as the greater sage grouse, 
off of that list.
    To summarize my observations and those of my tenants 
regarding how the ESA affects our ranch operations, when it 
comes to dealing with problem bears, the top down and 
centralized approach of the current ESA management lacks common 
sense and does not work in Montana. More authority to address 
problem animals in habitat needs to be placed in the hands of 
local personnel, including ranchers and landowners. The 
ranchers and landowners know best how to manage their own land. 
Those in charge of administering the ESA should have the 
ability to change and adapt local management plans as 
necessary.
    With the increasing grizzly bear population in our area, we 
have seen outdated management plans that are resulting in ever-
increasing bear-human-livestock conflicts. Based on the 
staggering 27 individual grizzly bears that biologists estimate 
to live along a 20-mile span of the Beartooth Mountains near 
our ranch, and the expectation that this number is increasing, 
I have concluded myself that politics, and not science, is 
influencing these grizzly bear population estimates in order to 
maintain pressure to keep the bear on the list. All too often 
the determination to list or to remain on the list is being 
made by Federal judges instead of scientists. The ESA and the 
decision to list or delist should be based on sound science and 
not politics.
    The ESA is a hammer. It is a threat that is constantly held 
over the heads of all private landowners and groups that 
utilize public lands either for recreation or for their 
livelihood. The heavy-handed ``do this or else'' style of the 
ESA will create as disincentive among those affected local 
groups, and will result in the opposite effect of what was 
intended by the act.
    The ESA has become a listing tool that restricts activities 
and not a management tool for the recovery of species. Since it 
became law in 1973, over 2,000 species have been listed as 
endangered, and only 20 species have been removed from the list 
due to population recovery. The ESA has become a tool for 
pseudo environmental groups to hinder economic development and 
recreational activities on both public and private lands.
    The potential listing of the greater sage grouse under the 
ESA is already affecting our ranch operations. And based on our 
experiences with the already listed grizzly bear, it is in 
everyone's best interest to take steps to keep them off the 
list.
    We are under continuous pressure to reduce our AUMs on 
grazing allotments already to enhance sage grouse habitat. 
Responsible rotational grazing practices actually improve the 
health of the land and the forage available for wildlife, 
including sage grouse. There is little doubt that a listing of 
the sage grouse will result in immediate pressure to stop all 
grazing on public lands in critical habitat areas.
    The top down, heavy-handed, and centralized approach to 
management that we see with the grizzly bear lacks common sense 
and will not work with sage grouse. Landowners like myself and 
local groups, such as Sage Grouse Montana, are already working 
voluntarily to improve the habitat for sage grouse and other 
species on our private property, and are working with the BLM 
to ensure responsible grazing rotations on our public lands. 
These grass roots efforts to protect sage grouse will almost 
certainly come to a stop if the bird is listed.
    As a lifelong hunter and a President of the Montana Chapter 
of Safari Club International, the listing of sage grouse will 
have a profound impact on our hunting heritage in Montana for 
all species. In addition to the loss of sage grouse as a game 
bird, hunters will lose access to thousands of acres of private 
and public lands that they have used for generations. The 
critical habitat areas that will be shut down or have severely 
restricted access are any areas that are suitable areas, and 
will not even require sage grouse to be present on them.
    The ESA has and will continue to have a profound impact on 
Montanans and our way of life. We have seen the politically 
motivated management of listed species, such as wolves and 
grizzlies, result in dramatic declines in big game populations, 
resulting in lost hunting opportunities and devastating impacts 
to local businesses. Future ESA listings, such as the possible 
listing of sage grouse, will have similar negative impacts on 
both public and private lands, and those who rely on these 
lands both for recreation and for their livelihood.
    I strongly encourage you to focus on local control and 
voluntary efforts to restore sage grouse habitat, and to do 
everything in your power in Congress to make sure that greater 
sage grouse does not get listed under the ESA. Please help me 
ensure that the ESA can no longer be used as a tool for fringe 
environmental groups to dictate how we live and work in 
Montana.
    There is a new war in the West, and it is a war on our 
traditional Montana values.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Cebull follows:]
        Prepared Statement of Brian R. Cebull, Billings, Montana
    Chairman Hastings and members of the committee, thank you very much 
for allowing me to testify before your committee. I am Brian Cebull, a 
3rd generation Montanan who is proud to call this great State my home. 
I work in Billings in the oil and gas industry as the owner of a small 
exploration and production company as well as the co-owner of an 
innovative environmental service company in the Williston Basin.
    While the oil and natural gas business provides my livelihood, I 
did not come here today to testify about oil and gas development and 
the negative impacts that ESA listing of the sage grouse will have on 
my industry. Instead, I am here today to testify as a Montana landowner 
who lives with endangered and threatened species and as a sportsman who 
has a passion for hunting.
    My wife and I own Grove Creek Ranch in southern Carbon County 
Montana that is comprised of deeded acreage plus more than 15,000 acres 
of BLM grazing leases. Our deeded land consists mostly of spring-fed 
riparian land with grassy bottoms and aspen groves. Our land is unique 
in that it is home to a variety of wildlife including whitetail deer, 
moose, elk, black bears, occasional wolves, and is located in 
designated core sage grouse habitat. According to Montana FWP 
biologists, there are four active sage grouse breeding leks either on 
or adjacent to our deeded land at Grove Creek. In the spring of 2011 we 
encountered our first grizzly bear and now have documented more than 12 
different grizzlies in the last 2 years including capturing a video of 
a grizzly sow with 4 cubs of the year this past June. I have included a 
few photos of grizzlies at our ranch at the end of these comments. My 
most recent encounter with a grizzly on my ranch was just this past 
Saturday evening.
    Our experiences with the already listed and ``endangered'' grizzly 
bear is an important lesson when considering adding another species to 
the ESA list. Based on our observations and those of our tenants who 
graze cattle on our land:

    <bullet> It is obvious that the population of grizzly bears in the 
            greater Yellowstone ecosystem is being underestimated for 
            political purposes. Based on my observations and those of 
            my tenants, the number of bears in the 3 State area of that 
            makes up the Yellowstone ecosystem must greatly exceed the 
            600 bears that has been used as a common estimate. A local 
            scientific estimate indicated that there were 27 individual 
            grizzly bears during the 2011-2012 season on the Beartooth 
            mountain front between Red Lodge, MT, and Clark, WY, a span 
            of only 20 miles! So far in 2013 there have been 11 
            individual confirmed sightings of bears in the same area 
            and 9 of those were confirmed on our ranch at Grove Creek. 
            According to local biologists, bear sightings and 
            encounters are getting much more frequent in our area. 
            Common sense says that the actual number of bears must be 
            several times higher in the entire Yellowstone ecosystem 
            based on the high number of bears seen in our small area.
    <bullet> The current population of bears has far exceeded the 
            expected levels of the original endangered species 
            management plan therefore the management practices of the 
            plan is not effective in relationship to the current impact 
            of the bears in regards to agriculture, sportsmen and 
            recreational use. The same management plan for a declining 
            species cannot work for a species whose population is 
            rebounding. This lack of adaptability is leading to ever-
            increasing encounters and conflicts between bears, humans, 
            and livestock.
    <bullet> The management guidelines for grizzlies are unrealistic. 
            In a particular instance with my tenants on their land in 
            the Bear Creek area, a sow grizzly bear and her cubs had 
            multiple livestock kills and were on the path to many more. 
            When approached about this, the regulatory entity that was 
            handling the situation labeled the bear as a first time 
            offender because complaints had not been lodged against her 
            in the past. With the existing guidelines, action was slow 
            to be taken because she was a first offender in spite of 
            the fact the fact that she had killed in excess of 10 
            animals that season. It was deemed that if the activity was 
            repeated the next year, she would be labeled a problem bear 
            and action would be taken. After strong lobbying at 
            multiple levels of the government by my tenants, the number 
            of kills was taken into account and she was removed and 
            destroyed. Her cubs were relocated despite the fact that 
            they would likely repeat the cattle-killing activities of 
            their mother.
    <bullet> With the excess population of bears and the ineffective 
            management practices of the current endangered species 
            plan, the bears are starting to push their boundaries and 
            locate themselves in areas outside of their expected 
            habitat. Our ranch on Grove Creek is one of those places.

    As you can see, whether or not the ESA listing has helped grizzly 
bears, the current situation with grizzlies is not sustainable and 
needs to be remedied. Although sage grouse do not pose the same threats 
to humans and livestock as grizzly bears, a listing under the ESA will 
result in many of the same issues as the grizzlies with regards to 
ongoing management under the plan.
    The potential listing of the sage grouse is already affecting our 
ability to utilize our BLM grazing allotments:

    <bullet> There is a constant push when dealing with the BLM on 
            grazing plans and permits that our carrying capacity or 
            AUM's need to be decreased to increase habitat for sage 
            grouse although there is little correlation between 
            responsible grazing practices and the loss of sage grouse 
            habitat or nesting areas. In fact, proper grazing practices 
            can actually be beneficial to grouse as the cattle grazing 
            creates new growth and succulents and regenerates fresh 
            forage. Of course, historic overgrazing has led to declines 
            in sage habitat and this irresponsible and short sighted 
            behavior should be corrected by the local range management 
            specialists wherever they are occurring. Even at Grove 
            Creek, some of our historic BLM grazing was grazed beyond 
            capacity by our predecessors and was very slow to recover, 
            so we have rested some pastures for 2 years to allow them 
            time to recover. All of our BLM pastures are rested at 
            least every other year to promote healthy growth.
    <bullet> No definitive proof has been given that the activity of 
            livestock and other species is having a true long term 
            impact on the sage grouse but there is consistent pressure 
            from environmental groups to ban all grazing on public 
            lands. Without a doubt, these so-called conversation groups 
            will press legal action to enforce a ban immediately if the 
            sage grouse is listed. Based on my on-the-ground 
            observations, the populations of sage grouse in areas where 
            no outside activity has occurred within the sage grouse's 
            habitat are no better than where grazing, energy 
            exploration or other activities have occurred.
    <bullet> It seems folly that measures and management practices are 
            being put into place through RMP's and grazing plans to 
            affect certain aspects of the sage grouse food supply and 
            habits, yet very few of those practices are directed toward 
            other species within the same eco system. Many of these 
            species such as raptors are also federally protected and 
            are predators of the sage grouse, and when they are out of 
            balance, they could potentially negate the effects of the 
            ESA management plan. With this considered, it makes any 
            amendments or alterations to the management guidelines for 
            other activities in the area even more egregious.
    We bought our ranch both for investment and for hunting 
opportunities. As such, we work with our tenants to manage the grazing 
and crop lands to benefit both their livestock and wildlife. Hunting is 
a passion and a way of life for me, and I am currently the president of 
the Montana Chapter of Safari Club International. Our chapter has been 
actively promoting the mission of SCI which includes the conservation 
of wildlife, protection of the hunter, and education of the public 
concerning hunting and its use as a conservation tool.

    <bullet> Hunters are true conservationists and their license 
            dollars go directly to the preservation of habitat and the 
            management of game species.
    <bullet> Managing land for livestock grazing and for wildlife is 
            beneficial to both big game and game birds such as sage 
            grouse. Properly timed and intensive grazing rotations, the 
            development of water projects, and the planting of high 
            protein seed crops are just a few of the ways that we 
            improve the habitat for wildlife including sage grouse.
    <bullet> Hunting of animals creates a perceived value and respect 
            of that animal in the public's eyes. The listing of the 
            sage grouse will remove it from the hunting rolls and 
            diminish its value, which is exactly opposite of the intent 
            of the listing.
    <bullet> In addition to being removed from the hunting roles in 
            Montana, the listing of sage grouse will have detrimental 
            impacts to access of both public and private lands due to 
            the closing of access roads and corridors and potentially 
            seasonal restrictions on access. The listing of sage grouse 
            will possibly impact ALL hunting, especially in those areas 
            deemed as core sage grouse habitat.
    <bullet> The Montana FWP Commission has an established two bird-
            per-day limit on Sage Grouse during upland bird season. The 
            Commission's bag recommendations are based on the sound 
            scientific input of local FWP biologists and other local 
            experts since it was found that regulated hunting with 
            reasonable bag limits was not an additive mortality and did 
            not decrease the number of birds that survived until the 
            following Spring. This is a perfect example of local 
            control and species management that will be derailed 
            through an ESA listing.

    It would be a big mistake to list the sage grouse or any other 
species under the current guidelines and practices of the 40 year old 
ESA which is outdated and unmanageable and does not yield the desired 
goal of species recovery. In my opinion, the ESA is broken and needs to 
be fixed:

    <bullet> The ESA has become a listing tool instead of a management 
            tool. It is fairly easy to be put on the list but it is 
            nearly impossible for a species to be removed from it. 
            There are currently over 2,000 listed species and only 20 
            have ever been removed from the list due to population 
            recovery. This dismal 1 percent success rate does not 
            include the species that went extinct after being listed.
    <bullet> The ESA is a hammer or club that is held over the head of 
            landowners, sportsmen, ranchers, recreationalists, and 
            developers. It is a constant threat of ``do this, or 
            else''. The constant threat of a listing is not an 
            effective way to influence the behavior or actions of those 
            people affected by the threat. Although many of the best 
            practices of the affected groups will actually benefit the 
            sage grouse and their habitat, the best way to influence 
            behavior is to create and promote incentives that will 
            positively impact both the threatened species and the 
            impacted parties.
    <bullet> The current ESA is a top-down, bureaucratic, and 
            centralized approach to species management. Local control 
            and grassroots efforts will work better to manage wildlife 
            and habitats and will get much less pushback from affected 
            parties. Control and incentives should be given to local 
            authorities and landowners to maintain or improve habitats.
    <bullet> The ESA has become more about politics and less about 
            science. In the case of the grizzly and the northern gray 
            wolf, Federal Judges and not scientists determined whether 
            a species remained on the ``List''. When you consider the 
            measly success rate for delisting, it indicates that the 
            ESA is being used as a political tool by the environmental 
            and so-called conservation groups to halt or slow down 
            economic development and severely limit access on public 
            lands for grazing, hunting, and recreation. Groups that 
            fight to put species on the ``List'' also fight to keep 
            them on regardless of any scientific evidence to the 
            contrary because they are opposed to development or human 
            activities or any sorts. The ``management by litigation'' 
            approach taken by environmental groups leads to many of the 
            misguided efforts that we see today and unnecessarily 
            burdens the personnel and financial resources of the 
            Federal agencies involved.
    <bullet> Management under today's ESA for listed or pending species 
            such as the sage grouse usually means doing ``something'' 
            regardless of how much that ``something'' costs or the 
            impacts that it has on current activities. Economic impacts 
            need to be considered and should weigh heavily on decisions 
            to list species.

    Utilizing sound management practices including reasonable hunting 
limits, best grazing practices, and activity limits based on sound 
science, we are starting to make huge strides toward stabilizing the 
population of sage grouse, despite the fact that they are not currently 
listed. Most ranchers and landowners quite frankly don't care about 
sage grouse being on their land--they're neither an asset nor a 
nuisance. If the sage grouse is listed under the ESA, it will have 
profound impacts across all aspects of both public and private lands in 
Montana--hence the nickname the ``spotted owl of the West''. We need to 
continue to make progress on the sage grouse using sound science and 
local management, and avoid listing of the sage grouse at all costs 
under the current flawed ESA. We need to work toward making legislative 
improvements to the current ESA process so that future listings will 
result in the desired outcome of species recovery and timely delisting.
    The ESA and the species that are managed under this plan have had a 
profound impact on Montanans and our way of life. The improper 
management of species such as wolves and grizzlies has resulted in 
dramatic declines in elk and moose populations resulting in lost 
hunting opportunities and dramatically impacting the towns whose 
economies rely on hunting season. Future ESA listings will have similar 
and profound impacts on both public and private lands and those who 
rely on these lands both for recreation and for their livelihood. The 
ESA should be reformed and based on science, not politics, and should 
no longer be a tool for fringe groups to dictate how we live in 
Montana.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Mr. Cebull, for your 
testimony.
    Next, I will recognize Mr. Channis Whiteman, a member of 
the Crow Tribe, recognized for 5 minutes.

   STATEMENT OF CHANNIS WHITEMAN, MEMBER OF THE CROW TRIBE, 
  EQUIPMENT OPERATOR, CLOUD PEAK ENERGY, CROW AGENCY, MONTANA

    Mr. Whiteman. Good afternoon, Mr. Chairman and members of 
the House Natural Resources Committee. My name is Channis 
Whiteman, and I am a member of the Crow Tribe, and an employee 
at Cloud Peak Energy's Spring Creek Coal Mine. On behalf of the 
Crow Tribe, I welcome you to Montana.
    I am also happy to welcome you on behalf of Cloud Peak 
Energy. We are honored to have you in Montana and appreciate 
your interest in the issue that not only impacts the company I 
work for, but my tribe and my family.
    Let me begin by giving you some background. The Crow 
Reservation is Montana's largest reservation with more than 2.2 
million acres of land. The Reservation is home to more than 
8,500 Apsaalooke tribal members.
    You should also know that the Crow struggle economically. 
Our unemployment rate approaches 50 percent. Our young people 
are forced to leave our home in search of work. Others struggle 
with social problems associated with poverty, idleness, and 
despair.
    This does not have to be. The Crow Reservation is a wealthy 
reservation. We are blessed with an abundance of natural 
resources, including timber, water, oil, gas, and renewable 
energy opportunities. We are also blessed with a massive coal 
deposit. And their work on behalf of the tribe, the BIA 
Division of Energy and Mineral Development has estimated that 
there are more than 9 billion tons of coal resources within the 
boundaries of the Crow Reservation. The Crow Tribe recently 
signed an option and lease agreement with Cloud Peak Energy, 
our neighbor to the east of our Reservation, with the intent 
and hope to develop some of those reserves.
    Crow coal reserves could serve existing domestic markets, 
as well as the growing Asian market. It is a reserve the tribe 
is interested in developing because we believe it is a key to 
making us a self-reliant reservation economy that can provide 
good jobs for our kids and hope for all generations.
    I know what I speak, Mr. Chairman, because I am a proud 
coal miner at Cloud Peak Energy's Spring Creek Mine. I am a 
heavy equipment operator; a job I have had with Spring Creek 
since 2005. Cloud Peak Energy is one of the largest coal mining 
companies in the United States. Cloud Peak owns and operates 
three mines in the Powder River Basin States of Wyoming and 
Montana.
    In Montana, Cloud Peak Energy owns and operates the Spring 
Creek Coal Mine, the State's largest coal mine, which was 
responsible for about 48 percent of Montana's total coal 
production last year. And at a time when the Crow unemployment 
rate is near 50 percent, and the U.S. unemployment rate is over 
7, coal mining provides safe, reliable, good paying jobs, jobs 
that feed families and create opportunities to make healthy 
communities.
    But I know there are detractors who say the harm of coal 
mining to the environment outweighs the benefits of jobs and 
tax revenue created by mining. Some argue that we must choose 
between these good paying jobs and the environment.
    Now, I don't know a lot about the Endangered Species Act or 
the legal issues surrounding the sage grouse. That said, I 
think we would all agree with Congress's worthy intentions when 
passing the Endangered Species Act. However, we must make sure 
that any actions to save a species also takes into 
consideration the human impact. The Endangered Species Act 
should not force us to choose wildlife over humans and the 
economic opportunity necessary to my family and my tribe.
    I am here to tell you that we can have both, thriving 
wildlife populations and good paying jobs created by coal. Mr. 
Chairman, let me be clear so all understand our position. 
Protecting the environment is of monumental importance to the 
Crow Tribe. Cloud Peak's reclamation work and operation 
mitigation efforts often result in improvement of wildlife 
habitat. I know this because I see this every day I go to work.
    To give you a quick example, at the Spring Creek Mine, our 
reclamation work is second to none. If you look on the screen, 
you will see a photo of our award winning reclamation work. As 
a dozer operator, I have been involved in the re-grading of 
land after the coal has been removed, returning it to a 
condition most would argue is better than before we mined it. 
Reclaiming land specifically to provide habitat for a variety 
of wildlife species, including sage grouse is a permanent and 
ongoing operation.
    We are creating a sage grouse habitat today at Spring Creek 
in places that were not sage grouse habitats before we mined 
it. And this restored and improved habitat is already bringing 
in wildlife, including mule deer, antelope, osprey and a wide 
variety of other native species.
    Mr. Chairman, I am not a biologist, or a scientist, or an 
expert on sage grouse, but I do know Cloud Peak Energy takes 
its responsibility to the environment very seriously. If the 
implementation of laws like the Endangered Species Act fails to 
adequately consider people in the equation, then I fear efforts 
to save the Sage Grouse could lead to lost jobs, and the sage 
grouse will still lose habitat.
    Restrictions that prevent Cloud Peak Energy from 
temporarily disturbing the land could lead to permanent impacts 
for me, my fellow coal miners, my family, and my tribe.
    Mr. Chairman and members of the committee, the Crow Tribe 
is located in a rural part of Montana. We do not have a lot of 
options, but what we do have is a lot of coal. Coal brings good 
paying jobs and critical revenue to my tribe. In recent years, 
coal revenues from the only operation that currently mines Crow 
coal, Westmoreland Resources' Absaloka Mine, accounted for 
almost two-thirds of the tribe's revenues outside of Federal 
programs. To better provide for our people, the tribe needs to 
expand and diversify our coal revenue and jobs.
    And that coal also gives us a lot of hope because it helps 
provides a path toward self-sufficiency, opportunity for my 
kids, and a choice for all the families that want to stay on 
their homeland. Good paying jobs do not have to come at the 
expense of the environment. We can have both. As a heavy 
equipment operator for a coal mining company and as a member of 
the Crow Tribe, I know we are already accomplishing both.
    Let me finally say, Mr. Chairman and members of the 
committee, on behalf of Cloud Peak Energy, I extend an 
invitation to tour our Spring Creek Mine, a world class mine 
with world class employees, recovering a world class coal 
reserve. Thank you.
    [The prepared statement of Mr. Whiteman follows:]
   Prepared Statement of Channis Whiteman, Member or the Crow Tribe, 
      Equipment Operator, Cloud Peak Energy, Crow Agency, Montana
    Good afternoon Mr. Chairman and members of the House Natural 
Resources Committee. My name is Channis Whiteman and I am a member of 
the Crow Tribe and employee at Cloud Peak Energy's Spring Creek Coal 
mine. On behalf of the Crow Tribe, I welcome you to Montana.
    I am also happy to welcome you on behalf of Cloud Peak Energy. We 
are honored to have you in Montana and appreciate your interest in 
issues that not only impact the company I work for, but my tribe and my 
family.
    Let me begin by giving you some background.
    The Crow Reservation is Montana's largest reservation with more 
than 2.2 million acres of land. The reservation is home to more than 
8,500 Apsaalooke tribal members.
    You should also know that the Crow struggle economically. Our 
unemployment rate approaches 50 percent. Our young people are forced to 
leave our home in search of work. Others struggle with social problems 
associated with poverty, idleness and despair.
    This does not have to be. The Crow Reservation is a wealthy 
reservation. We are blessed with an abundance of natural resources 
including timber, water, oil, gas and renewable energy opportunities.
    We are also blessed with a massive coal deposit--in their work on 
behalf of the tribe, the BIA Division of Energy and Mineral Development 
has estimated that there are more than 9 billion tons of coal resources 
within the boundaries of the Crow Reservation.
    The Crow Tribe recently signed an option and lease agreement with 
Cloud Peak Energy, our neighbor to the east of our reservation, with 
the intent and hope to develop some of those reserves.
    Crow coal reserves could serve existing domestic markets as well as 
the growing Asian market.
    It is a reserve the tribe is interested in developing because we 
believe it is a key to making us a self-reliant reservation economy 
that can provide good jobs for our kids and hope for all generations.
    I know what I speak, Mr. Chairman, because I am a proud coal miner 
at Cloud Peak Energy's Spring Creek Mine. I am a heavy equipment 
operator; a job I have had with Cloud Peak since 2005.
    Cloud Peak Energy is one of the largest coal mining companies in 
the United States. Cloud Peak owns and operates three mines in the 
Powder River Basin States of Wyoming and Montana.
    In Montana, Cloud Peak Energy owns and operates the Spring Creek 
Coal Mine, the State's largest coal mine, which was responsible for 
about 48 percent of Montana's total coal production last year.
    And at a time when the Crow unemployment rate is near 50 percent 
and the U.S. unemployment rate is over 7 percent, coal mining provides 
safe, reliable, good paying jobs.
    Jobs that feed families and create opportunities and make healthy 
communities.
    But I know there are detractors who say the harm of coal mining to 
the environment outweighs the benefits of the jobs and tax revenue 
created by mining. Some argue that we must choose between these good 
paying jobs and the environment.
    Now I don't know a lot about the Endangered Species Act or the 
legal issues surrounding the sage grouse. That said, I think we'd all 
agree with Congress's worthy intentions when passing the Endangered 
Species Act
    However we must make sure that any actions to save a species also 
takes into consideration the human impact. The Endangered Species Act 
should not force us to choose wildlife over humans and the economic 
opportunity necessary to my family and my tribe.
    I am here to tell you that we can have both--thriving wildlife 
populations and good paying jobs created by coal. Mr. Chairman, let me 
be clear so all understand our position. Protecting the environment is 
of monumental importance to the Crow Tribe.
    Cloud Peak's reclamation work and operation mitigation efforts 
often result in improvement of wildlife habitat.
    I know this because I see it every day I go to work.
    Let me give you a quick example. At the Spring Creek Mine, our 
reclamation work is second to none. If you look on the screen, you will 
see a photo of our award winning reclamation work. As a dozer operator, 
I have been involved in the re-grading of land after the coal has been 
removed, returning it to a condition most would argue, is better than 
before we mined.
    Reclaiming land specifically to provide habitat for a variety of 
wildlife species including sage grouse is a permanent and ongoing 
operation.
    We are creating sage grouse habitat today, at Spring Creek, in 
places that were not sage grouse habitat before we mined. And this 
restored and improved habitat is already bringing in wildlife, 
including mule deer, antelope, osprey and a wide variety of other 
native species.
    Mr. Chairman, I am not a biologist or a scientist or an expert on 
sage grouse. But I do know Cloud Peak Energy takes its responsibility 
to the environment very seriously.
    If the implementation of laws like the Endangered Species Act fails 
to adequately consider people in the equation, then I fear efforts to 
save the Sage Grouse could lead to lost jobs, and the sage grouse will 
still lose habitat.
    Restrictions that prevent Cloud Peak Energy from temporarily 
disturbing the land could lead to permanent impacts for me, my fellow 
coal miners, my family, and my tribe.
    Mr. Chairman and members of the committee, the Crow Tribe is 
located in a rural, remote part of Montana. We don't have a lot of 
options.
    But what we do have is a lot of coal. And that coal brings good 
paying jobs and critical revenue to my tribe. In recent years, coal 
revenues from the only operation that currently mines Crow coal--
Westmoreland Resources' Absaloka Mine--accounted for almost \2/3\ of 
the tribe's revenues outside of Federal programs. To better provide for 
our people, the tribe needs to expand and diversify our coal revenue 
and jobs.
    And that coal also gives us a lot of hope because it helps provides 
a path toward self-sufficiency, opportunity for my kids and a choice 
for all the families that want to stay on their homeland.
    Good paying jobs do not have to come at the expense of the 
environment. We can have both. As a heavy equipment operator for a coal 
mining company AND as a member of the Crow Tribe, I know we are already 
accomplishing both.
    Let me finally say, Mr. Chairman and members of the committee, on 
behalf of Cloud Peak Energy I extend an invitation to tour our Spring 
Creek Mine, a world class mine with world class employees, recovering a 
world class coal reserve.
    Congressman Daines toured the Spring Creek Mine in 2012 and I 
suspect he would be willing to attest to the impressive nature of our 
operation. Thank you again Congressman Daines for your interest in our 
mine and issues that affect my livelihood and for your efforts to bring 
this hearing to Montana.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Whiteman, for your 
testimony.
    And last, but certainly not least, we will go now to Mr. 
Kerry White, who is the Executive Director of Citizens for 
Balanced Use based out of Bozeman. Mr. White, you are 
recognized for 5 minutes.

STATEMENT OF KERRY WHITE, EXECUTIVE BOARD MEMBER, CITIZENS FOR 
                 BALANCED USE, BOZEMAN, MONTANA

    Mr. White. Thank you, Mr. Chairman. A correction on that. I 
am one of the 12 executive board members. We have no paid 
employees. We are all volunteers because we feel very 
passionate about what we are trying to do. We are a multiple 
use organization trying to educate the public on the importance 
of multiple use recreation, active resource management, and 
active forest management, responsible resource development.
    I brought a prop with me, and I would like to show it to 
you. This is a draft environmental impact statement, over 1,200 
pages, on one project in the Gallatin. This is the final 
environmental impact statement, another 1,500 pages, on one 
project in the Gallatin. These both represent one project. This 
is what is given to the public to comment on. About 90 percent 
of the information in here has to deal with threatened species, 
endangered species, species' habitat. A lot of it is under the 
Endangered Species Act, whether it is grizzly bears, 
wolverines, big horn sheep, big horn goats, the list goes on 
and on--cutthroat trout, bull trout, it does not matter.
    But I am here today to try to look at the social aspect of 
what is going on out here. Rural America is dying. My wife and 
I took a 3,000-mile trip to 9 Western States the end of July, 
and I am sorry to say we did not visit Colorado, and we did not 
go to Wyoming. But we did go to Idaho, and we did go to 
Chairman Hastings' State, LeGrande, Baker City, California, 
Nevada, Idaho, eastern Washington. And what we found was on 
these two-lane highways was that in these small towns, boarded 
up businesses, houses needing paint, roofs, old cars in the 
driveway.
    Talking to the people in the stores and the restaurants and 
the gas stations, what they were frustrated with was being 
locked out and off of their Federal managed public lands. Their 
timber jobs were gone, the mining, the mineral, not the 
minerals and mining were not there, but that they could not get 
to them.
    And I want to talk about this wheel that we kind of 
developed with CBU. At the top of the point up here is people, 
and that is what makes up communities, and it supports 
communities. If you are out there and you are trying to make a 
living, you want food, clothing, shelter. Agriculture here, 
which was talked about on the panel, that is the food source, 
and it also generates some of our current energy supplies, too, 
which I think is kind of foolish, but that is what we do.
    Watershed, we need water, and these forest fires out here, 
we will see the devastation to our watersheds next spring when 
the snows melt. And that is very sad, sickening to me to see 
this renewable resource go up in smoke. Timber to build our 
houses and homes. Minerals supply everything from this pointer, 
to my cell phone, to everything in this room. They supply our 
energy, turn the lights on. All of these provide jobs for those 
people in those communities.
    But what I am here today to tell you about is what I talk 
to the people about, and that is the social and mental well-
being of these people that want to live and thrive and work in 
these local rural communities. They cannot. They cannot because 
they cannot get to the resources that enables them to have a 
job.
    And at the bottom of this wheel here, you will see 
recreation. And when you go out and you work 5 days a week, or 
6 days a week, or 7 days a week, and you get off in the 
afternoon, and you want to go out and play, and I do not care 
what you want to do, whether it is cross country skiing, or 
snowmobiling, or rafting, or boating, or playing golf, or going 
bowling, it is recreational activities that you spend with your 
family and your friends. You spent it with your grandparents, 
and now you want to spend them with your kids, and you want to 
spend them with your grandkids.
    I attached my testimony to the committee. It has a picture 
of my family. There is some great information in there, 
attachments on what we are breathing from these fires. But 
recreation is what keeps us mentally revitalized. And when you 
take away the access to agriculture, minerals, timber, and to 
our watersheds because of fish or some animal, you take away 
access to recreation. And when you take away access to 
recreation, what you do is you force those people into their 
little iPads, their iPhones, their computer games. You take 
them out of the outdoors, and that is what's important to 
people is being outdoors.
    We had a survey done in Gallatin County: do you like 
passive recreation or active recreation? Three-quarters of the 
people wanted active recreation. That is outdoor, out in the 
woods, out on our public lands recreating. If you take that 
away from us, you are taking away our social, health, and well-
being.
    And the main culprit--I am not blaming you, I am not 
blaming anybody. I am not even blaming the environmental 
groups. But Congress has given them the tools to be able to do 
this, and we need to take those tools away from them.
    Thank you very much.
    [The prepared statement of Mr. White follows:]
Prepared Statement of Kerry White, Executive Board Member, Citizens for 
                     Balanced Use, Bozeman, Montana
    I am Kerry White representing Citizens for Balanced Use (CBU). 
Thank you for accepting the following comments from CBU regarding the 
abuse of the Endangered Species Act by environmental groups.
    CBU is a grass roots 501(c)3 non-profit organization dedicated to 
the education of the public in the importance of multiple use 
recreation, responsible resource development and active forest 
management. CBU has over 6,500 active members and hundreds of 
supporting businesses in Montana and other Western States. CBU, through 
its supporting and affiliated organizations, reaches over 100,000 
people in our mission of bringing together different public land user 
groups. Our supporting organizations include resource industries, 
agriculture organizations, and numerous recreation groups of all sizes 
and interests.
    CBU was formed in 2004 in response to the closure of more than half 
of the multiple use roads and trails in the Gallatin National Forest 
(GNF) Travel Management Plan. Our organization solicited and helped 
people submit over 140 appeals on this decision and yet all were 
dismissed and the Record of Decision was issued. CBU filed litigation 
on this flawed action but lost in the liberal Federal court in 
Missoula. We appealed the decision to the 9th Circuit only to lose 
again. Most of the reasons to justify the closures in the Travel Plan 
revision used by the Forest Service revolved around the Endangered 
Species Act (ESA). The ESA is used by the Forest Service and 
environmental groups as the tool of choice to close our federally 
managed public lands to access, occupancy and use.
    In the B-D Forest Plan revision the Forest Service designated many 
areas of the forest as non-motorized and non-mechanized. After the 
Forest Plan revision was complete the Forest Service began travel 
planning in specific areas of the forest. The Forest Service refused to 
conduct site specific road and trail inventories for travel planning in 
areas designated as non-motorized and non-mechanized in the Forest Plan 
revision. We were told these areas were already designated as non-
motorized and non-mechanized and there would be no reason to evaluate 
the road and trail facilities in these areas. These areas were 
essentially turned into defacto wilderness by the Forest Service by 
removing all motorized and mechanized use even though there were 
historic motorized and mechanized roads and trails in these areas. Many 
of the reasons used by the Forest Service again revolved around the 
ESA.
    Many of the animals and issues being used to close access include 
Grizzly Bears, Lynx, Wolverine, Mountain Goats, Big Horn Sheep, West 
Slope Cutthroat, Bull Trout, Goshawk, Wolves, Big Game cover, old 
growth timber and more. Justifications for their actions were not 
always about a species being present but many times just the fact that 
these areas could provide habitat was sufficient to close them to human 
activity. Human activity is a worthwhile use of the land and laws like 
ESA allows Federal agencies to close potential habitat based on bad 
science to mechanical use and other uses that families in Montana have 
been using for generations.
    Our 12 executive board members of CBU are business owners, property 
owners, farmers, ranchers and family oriented people who have been here 
for several generations. None of our board are paid for their time and 
dedication to our efforts. It sickens us to see the misuse of the ESA 
to close these areas where we spent time with our grandparents, parents 
and children. We wish we could enjoy these areas with family and 
friends today but because of abuse of the ESA and flawed decisions by 
the management agencies these precious opportunities are now forever 
lost.
    The GNF Travel Planning process is another example. During the GNF 
Travel Plan process I conveyed to the Forest Service that access to 
areas considered for closure are places where I have fond memories of 
recreating with my parents and grandparents. In this travel plan, 50 
percent of the GNF is closed to multiple use access. The Forest Service 
seems to not understand the benefit of these traditional Montana 
pastimes. Their management prohibiting multiple use is offensive to the 
way of life of people like me in Montana and is unacceptable.
    I understand not everyone like some Forest Service personal are as 
lucky as I have been to have grown up in this beautiful part of 
Montana; but the impact on the local communities, other families like 
mine, and traditional uses of the land must not be ignored. The impact 
on the local community, not bureaucrats, must be a critical part of any 
land management analysis.
    Laws like the ESA allow groups like Forest Service Employees for 
Environmental Ethics, Center for Biological Diversity, and WildEarth 
Guardians to keep Montanans and those who love to travel here from 
experiencing the great outdoors.
    One of our board members is an engineer for an aerospace company. 
We were discussing the Forest Service and how they continue to prepare 
NEPA documents that do not hold up in court. He told me that in his 
industry, if their company were to engineer something that caused a 
plane to crash; the first thing they would focus on would be why it 
failed. The Forest Service on the other hand spends millions of dollars 
developing and preparing an EIS document to comply with NEPA and at the 
end of the day it fails in court. The DEIS and FEIS documents prepared 
for the GNF Travel Plan numbered over 2,500 pages. This is unreasonable 
to require the Forest Service and BLM to continue to prepare these 
large complex documents and simply not fair to the general public to 
require them to read, comprehend and comment on this amount of 
information.
    This information is concerning to CBU and should be concerning to 
Congress. Multiple NEPA EIS documents are prepared for the exact same 
project and they continue to be flawed, incomplete, and not stand up in 
court time after time. The main content of NEPA documents, that 
continue to fail, is insufficient analysis of wildlife under the ESA. 
Whether it is wildlife disturbance, potential loss of habitat, old 
growth cover or any other wildlife related issue, the ESA is destroying 
rural America. Something must be done. CBU believes that some 
environmental groups are using the tools like the ESA to stop use of 
our public lands.
    Case in point. When the B-D Forest Plan revision was being started 
in 2007, Forest Service officials included approximately 350,000 acres 
of new wilderness in the plan even though no analysis of wilderness 
character lands was completed. Forest Service officials feel pressured 
to base decisions like these due to the threat of litigation from some 
environmental groups. The Forest Service must be able to manage our 
lands so that the land continues to support our robust recreation and 
resource industries for generations ahead. With laws like ESA and NEPA 
establishing a framework for obstructive environmental lawsuits, smart 
land management is impossible.
    It is also disturbing to CBU that obstructive environmental groups 
profit from keeping responsible resource management projects from 
proceeding by the American taxpayer. Obstructive environmentalism is a 
business and our Federal Government and the courts are doing a great 
job in funding them. Take for example the Equal Access to Justice Act. 
When environmental groups prevail in court they are reimbursed through 
the EAJA for attorney fees and witness fees and court costs. Reports 
CBU have seen show environmental groups are collecting over $1 billion 
per year through the EAJA. These funds are tax dollars and are paid to 
these groups from the budgets of the agencies where the litigation 
occurred. If litigation is filed on a project in the Gallatin National 
Forest and the court rules in favor of the environmental group, those 
EAJA funds come from the budget of the GNF. This has greatly impaired 
the ability of specific forests to complete necessary trail and road 
maintenance or campground and facility improvements. Moreover, keeps 
funds away from supporting life-saving fire suppression.
                      road and trail obliterations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Most litigation revolves around the Endangered Species Act 
(ESA) so in fact the ESA is the root of the problem. In an effort to 
reduce the backlog of road and trail maintenance it becomes somewhat 
easier for the Forest Service to just remove that facilities or 
campgrounds from the inventory. This is occurring throughout the 
Western States by both the Forest Service and BLM.
    I am 59 years old, married 31 years to Patty, have 3 children, Kim 
(married to Nick), Tim and Brian, and 2 grandchildren Owen and Nora. My 
great grandfather came to the Gallatin Valley in 1864 and we still 
operate the family ranch. I am the current president of the Gallatin 
Sons and Daughters of the Pioneers and a Montana House member 
representing District 70.
    My grandfather and grandmother built a cabin in the Squaw Creek 
drainage of the Gallatin River in 1934 on Forest Service lease ground 
and at that time the lease was $35 per year. Today that yearly lease 
exceeds $1,700. Back then the Forest Service encouraged people to enjoy 
and experience our public lands. Not true anymore. I remember spending 
time with my grandfather (Bud) at the cabin fishing and hunting. I 
remember the District Ranger one day stopping by and telling Bud that 
he was heading up the drainage and working his way south to Buffalo 
Horn (about 40 miles) on his horse and pack string to look at the 
condition of the forest. He asked my grandfather to look after things 
while he was gone for a few days. This was the way it was, Forest 
Service employees working with the people and also being out in the 
forest, on the ground, caring for the land.
    A few years later I remember riding down the Squaw Creek road with 
Bud in his old 62 Dodge Dart and as we passed the District Rangers 
living quarters at the head of Squaw Creek he turned to me and said, 
``Well there goes the forest''. This statement startled me and I 
surprisingly turned to him and asked what he meant. He explained to me 
that the District Ranger, the one responsible for managing the Gallatin 
Forest, was moving to town. He told me in no uncertain terms. ``Now how 
in the world can you manage a forest from an office in town?'' He was 
completely right in this statement because we have seen our forest go 
from a once lush green garden to an ocean of dead, dying and diseased 
timber. An agency once supported by harvested timber creating good 
paying jobs and supporting the local community tax base now is an 
agency draining our Federal budget and managing these lands from behind 
a desk using maps, satellite imagery, modeling, assumptions, 
predictions and skewed data provided by agenda-driven environmental 
groups funding so-called scientific studies with a predetermined 
outcome. The tool of choice again is the Endangered Species Act.
    Contrary to the intent of the ESA, this management technique 
continues to fail and as a result all things suffer. The environmental 
groups want to stop active mechanical treatment of our renewable timber 
resource and they use the ESA to further this agenda. Let us look for a 
moment what affect this management technique is having on the land, the 
animals, the water and our air. Two recent articles in the Bozeman 
Daily Chronicle revealed the true cost of smoke generated by forest 
fires. The American Lung Association and the Montana DNRC both stated 
that smoke from forest fires was prematurely KILLING people with 
pulmonary disease and respiratory problems. Raging fires are so intense 
because of the overgrown forest and lack of active management that the 
soils in many cases are sterilized and baked. Animals unable to escape 
these fast moving fires are consumed and killed. The fish in our 
streams are baked and the soil erosion from rain, no longer able to be 
absorbed, suffocates what fish remain. Millions and billions of dollars 
spent trying to contain these monster fires and protect homes and property while putting lives at risk. This is environmentalism at its 
finest.
                       environental cost of fire


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    I worked 5 years as a subcontractor on the forest fires as a 
camp mechanic. I inspected vehicles coming on the fire and before they 
left to make sure they were safe. I repaired broken vehicles and 
equipment and had access to everyone and every department in fire camp. 
During that time I was astounded at the waste and abuse of government 
money. A fire camp of 900 would usually be 600 administration and 300 
fire fighters.
    I believe we are wasting valuable resources in fighting these 
fires. We are wasting vast amounts of money, 40 percent of the Forest 
Service budget on these preventable fires. We are wasting a valuable 
renewable resource by letting it burn. We are polluting our streams and 
air. We are killing millions of animals unable to escape these fires. 
Most of all we are wasting the valuable resources of our rural 
communities and the people wanting to live in them. This is 
unacceptable to waste such a precious resource when we could be doing 
so much with it.
    When I was growing up I never experienced the smoke like it appears 
today. Many environmental organizations claim it is because of global 
warming. They are ignoring the fact that timber harvests have been 
stopped by their own groups which allow forests to burn, polluting the 
air.
    CBU is working every day to educate people on what would be a 
better solution to our public land management needs. Good jobs created 
by active forest management and responsible resource development and 
taking care of our environment rather than letting it deteriorate, 
waste away and burn. There is social and mental well-being and better 
health resulting from people enjoying multiple use recreation and 
access. CBU has received numerous letters and emails from folks serving 
our country in the military. Some of these brave Americans have been 
disabled and injured. These folks need some type of motorized and 
mechanized transport to enjoy our public lands. Many of these people 
have thanked us for trying to keep these precious places open to them 
and their families when they return home. The very fabric of our Nation 
is being destroyed by these obstructive environmental groups attempting 
to remove people from the land. We are happy to continue this fight on 
their behalf and a fight it is.
    Recently Patty and I decided to take a 3 week journey covering 9 
Western States on our motorcycle. We wanted to take the back road two 
lane highways and see for ourselves the economic recovery that many in 
Washington, DC are telling us about. We visited with hundreds of people 
along the way in small towns and communities. What we saw was boarded 
up businesses on main streets across the West, houses in need of 
repairs and paint, streets and schools in disrepair and old vehicles 
parked in driveways. What was even more alarming was what we heard from 
these people living in the small communities.
    We listened to story after story about how once these towns were 
booming with timber jobs, mining and small farms. Businesses once 
booming on Main Street were being turned into vacant buildings and 
empty lots. The people are moving away in search of employment and 
opportunities. The children are forced to leave as these communities 
once vibrant are turning into ghost towns.
    We continued to ask the one question of why and every time we 
asked, the answer was the same. ``The environmental groups have shut 
down our resource industries.'' The environmental groups have turned to 
the tools given them by the government to stop resource industries and 
close access. Many stories reflected the passion of these people once 
able to use this land, care for this land, and recreate in and on this 
land. Stories of spending time with their ancestors visiting those 
special places that are now off limits and closed was a common theme. 
Roads obliterated, locked gates and signs of closures were frequently 
spoken of.
    I have been hearing of this so-called economic recovery we are 
experiencing but to be very honest my wife and I saw no evidence of it 
in rural America. What we saw were people scratching to make a living 
and the broken dreams and promises all taken away by environmental 
groups and our Federal bureaucracy all in the name of an endangered 
fish or animal. There seemed to be little joy or hope in the eyes of 
these hard working rural Americans. This sight is something every 
person in Congress should see and every person serving in our Congress 
should hear.
    These rural folks will tell you about the mismanagement of our 
Federal lands and their current condition. While obstructive 
environmental groups are profiting from Federal land mismanagement, the 
forests in the west are dead and dying with little relief in sight. You 
could see the disgust on the people's faces as they spoke of the waste 
that is happening to this resource.
    Water in the West is sometimes scarce. Environmentalist are quick 
to point the finger at global warming as the cause when in fact there 
very well may be another proven factor for reduced stream flows and 
ground water levels. This factor is overpopulation of trees in the 
forest. Our forests are so dense and thick today that even the animals 
are moving to private land for forage. A pilot project was done in 
California where water tables and stream flows were recorded before and 
after a forest thinning project was completed.
    After thinning this forest to healthy tree populations the ground 
water table rose 100 feet. Old stream beds once dry were once again 
flowing.
    When the actions of these groups and those in our government 
agencies create the very problems we are seeing today, I find this 
dishonest and unacceptable. We have heard the new ``don't ever waste a 
crisis'' and we are seeing it today with the global warming hysteria. I 
believe the true crisis is out of control land management agencies 
throwing regulation after regulation at the people on a daily basis. 
Most of these Federal agency land managers and biologists don't know 
anything of the history and caring for the land. They are over educated 
bureaucrats sitting behind a desk looking at Google earth and creating 
models of predictions with flawed input data of E-stimates, S-
peculations and A-ssumptions. Behold the ESA.
    The spotted owl is a great example of how the ESA wrongly destroyed 
an industry and people's lives and years later we now know that it was 
not the timber industry that was destroying this bird. But was it 
really about a bird or was it about destroying an industry? I believe 
it was the latter of the two. Once the industry and infrastructure was 
gone, the mission was complete. This industry could come back but only 
if long term predictability was in place and investors were assured a 
continued multiple year flow of raw material. This will take hard work 
on the part of our Congress and a President willing to support active 
forest management.
    I talked about our trip around the Western United States and how 
people were depressed and sadden by what they see occurring on our 
public lands. I want to speak of social environments and the 
requirement of analysis of social impacts in developing and producing 
NEPA documents. Of all the NEPA documents produced on Forest Service 
and BLM actions it is clear they lack adequate social impact analysis.
    Social well-being of a community is not solely based on jobs and 
income but also on mental well-being and feelings. A healthy community 
depends largely on recreation as a retreat from work and a hectic 
everyday life. Recreation can be passive or active. Passive being the 
organized sports like swim centers, football games, golf courses and 
walking trails. Active recreation is the opportunity to experience the 
outdoors in numerous ways like gold panning, snowmobiling, horseback 
riding, fishing, hunting, etc. In a survey done in Gallatin County, 
people were asked what type of recreation they prefer and 3 to 1 the 
people preferred active recreation. The current direction of the 
Federal land managers is to close recreational access to these lands. 
This directly affects the social health and well-being of those people 
living in these areas.
    The other part of the required social analysis is the economic job 
loss. When the Forest Service and BLM prepare a social analysis on jobs 
for a proposed action they use what is known as the IMPLAN SYSTEM 
program developed in Colorado. This flawed technique requires data 
input of demographics, populations, income, businesses, etc. The 
problem with their analysis is they only use information from large 
metropolitan areas in determining the impact. For instance on a project 
in the B-D National forest they would use economic data from Butte, 
Missoula, Bozeman and Helena and ignore small communities like Dillon, 
Jackson, Lima, Wise River, Ennis, etc. The result of 10 lost jobs in 
Bozeman (pop. 65,000) as a result of an action is quite different than 
10 jobs in Wise River (pop. 150). The failure to consider these impacts 
to small communities is destroying rural America with every action 
implemented. The Federal land managers claim they are doing this to 
comply with Federal requirements, which in most cases revolves around 
compliance with the Endangered Species Act, NEPA, Roadless Rule, Clean 
Water Act, Clear Air Act and the list goes on and on. How about 
compliance with the Multiple Use Sustained Yield Act or the Organic 
Act, or the Taylor Grazing Act, or the Mining Act? CBU has been told by 
these agencies that these latter Acts are old and outdated so these 
land managers ignore them.
    In the Western United States much of the land is under Federal 
management. These lands were not relinquished to the States as were in 
the Eastern States when they came into the Union. As a result the 
Western States are disadvantaged as to the management of these lands 
and the loss of income to the States. Limited tax base, limited 
resource income, limited powers over these lands. Federal agencies are 
required by Federal law to coordinate their management policies and 
actions with local and State governments but in reality the Federal 
agencies have refused to comply with the coordination requirements. 
There are efforts underway today in several Western States to get the 
Federal Government to give these federally managed public lands back to 
the States. CBU believes this effort has merit. Who better to manage 
these lands than those most affected by how they are managed.
    CBU believes we are at a critical stage in our history. We are 
losing our rural communities where our food is produced. We are losing 
the infrastructure to treat and harvest our forests. We are putting off 
limits millions of acres of federally managed public land to energy 
development. We are restricting private property use in a way never 
before seen in history. The worst thing of all is there seems to be no 
end in sight to this regulation madness.
    In the United States today there is an effort to attack coal 
production and the burning of coal to produce electricity. I have heard 
that coal produces about 80 percent of our electricity nationally. Coal 
is a resource which the United States has vast reserves. One coal fired 
electricity generating plant is Colstrip which is in Montana. This 
facility supports 1,000s of good paying jobs and provides electricity 
for thousands of homes and businesses. I have included an attachment 
which shows this facility. Colstrip 1, 2, 3, and 4 are all working at 
capacity in this photo. The discharge from the 4 stacks is steam and 
NOT deadly carcinogens such as what is released from forest fires. You 
can see the beautiful clear blue skies over this community even with 
this facility running at capacity. So if letting our forests burn is 
the right thing to do and is supported by the environmental 
organizations and producing electricity from coal is sinful and wrong 
and objected to by the environmental organizations, then my question is 
simply this, is it really about the environment or is it a business 
model of raising money to remove humans from the land.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    CBU stands ready and willing to help develop solutions to these 
problems but we are not the decisionmakers. CBU will continue to 
educate people on the importance of responsible resource development, 
active forest management and access to multiple use recreation while 
protecting and defending the private property rights of everyone.
    Thank you for accepting this brief testimony on behalf of Citizens 
for Balanced Use.
list of current and immediate past actions affecting not only multiple-
 use recreation but the resource and agricultural industries which in 
       turn adversely affect the economies of local communities:
United States Court Of Appeals for the Ninth Circuit No. 01-35690 D.C. 
No. 
CV-96-00152-DWM
Every Resource Management Plans and Planning Actions
(inter-agency) Grizzly Bear 
Recovery Plan                       (inter-agency) ICBEMP
(inter-agency) Northern Rockies 
Lynx Amendment                      (inter-agency)3-States OHV Strategy
B-DNF Continental Divide Trail near 
Jackson, MT                         B-DNF Whitetail Pipestone Travel 
                                    Plan
B-DNF 2003 Forest Plan Update       B-DNF Analysis of the Management 
                                    Situation
B-DNF Continental Divide trail near 
Feely                               B-DNF Continental Divide trail near 
                                    Whitetail-Pipestone
B-DNF Social Assessment             B-DNF Mussigbrod Post Fire Roads 
                                    Management
B-DNF & BLM Flint Creek Watershed 
Project                             BLM Blackleaf Project EIS
BLM Dillon Resource Management Plan BLM Headwater Resource Management 
                                    Plan
BLM Arizona Strip Travel Plan       BLM Bruneau Resource Area Travel 
                                    Plan
BLM Escalante Grand Staircase 
Monument                            BLM Missouri Breaks Monument
BLM Moab Resource Management Plans  BLM National OHV Strategy
BLM National Mountain Biking 
Strategic Action Plan               BLM San Rafael Travel Plan
BLM Sleeping Giant Travel Plan      BLM Whitetail/Pipestone Rec. 
                                    Management Strategy
BLM Lake Havasu RMP                 BLM Sustaining Working Landscapes 
                                    Initiative
BLM Rocky Mountain Front Scenery 
Evaluation Project                  BLM Kanab Resource Management Plan
Bitterroot NF Fire Salvage EIS      Bitterroot NF Post-fire Weed 
                                    Mitigation EIS
Bitterroot NF Sapphire Divide Trail Bitterroot NF Forest Plan Revision
Caribou NF Travel Plan              Custer National Forest Travel Plan
EPA Tenmile Creek Watershed Plan    Flathead NF Robert Wedge Post Fire 
                                    Project
Flathead NF West Side Reservoir 
Post Fire Project                   Flathead NF Forest Plan Revisions
Flathead NF Moose Post Fire Road 
Closures                            Flathead NF Spotted Bear Road 
                                    Closures
Gallatin NF 2002 Travel Plan Update Helena NF Blackfoot Travel Plan
Helena NF Blackfoot Water Quality 
Plan                                Helena NF Cave Gulch Fire Salvage 
                                    Sale
Helena NF Clancy-Unionville Plan    Helena NF North Belts Travel Plan
Helena NF North Divide Travel Plan  Helena NF Noxious Weed Plan
Helena NF South Belts Travel Plan   Helena NF South Divide Travel Plan
Helena NF Continental Divide 
National Scenic Trail               Humboldt Toiyabe NF Charleston-
                                    Jarbidge Road
Humboldt Toiyabe NF Spring 
Mountains NRA                       Kootenai NF Bristow Restoration 
                                    Project
Kootenai NF McSwede Restoration 
Project                             Kootenai NF Forest Plan Revisions
Lolo NF Forest Plan Revision        L&CNF Judith Restoration Plan
L&CNF Rocky Mountain Front Travel 
Plan                                L&CNF Snowy Mountain Travel Plan
L&CNF Travel Plan update            Montana State Wolf Plan
Montana State Trail Grant Program 
PEIS                                Montana State Trail Plan PEIS
Montana FWP Statewide Outdoor 
Recreation Plan                     Nez Perce NF Travel Plan Revisions
NPS Salt Creek Road Closure         NPS Yellowstone Winter Plan 
                                    (snowmobile closure)
Payette NF Travel Plan Revisions    Sawtooth NF Travel Plan Revisions
USFS National OHV Policy and 
Implementation                      USFS Forest Plan Amendments for 
                                    Grizzly Bear Habitat Conservation
USFS National Strategic Plan 2003 
Update                              USFS Roadless
USFS Roadless Rule II               USFS Roads Policy
USFS National Land Management Plan 
Revisions                           USFWS Bull Trout Recovery Plan
USFWS Westslope Cutthroat Trout ESA USFWS CMR National Wildlife Refuge 
                                    Road Closures
USFWS Sage Grouse Plan

  [From the Bozeman Daily Chronicle: Opinion, Friday, August 23, 2013]

                Reducing the Health Impacts of Wildfires
                    (By Kim Davitt, Guest Columnist)
    Summers in Montana are pretty magical, with plenty of sunny days 
and blue skies to enjoy hiking, camping, fishing and other outdoor 
activities. But, in recent years, summer also means wildfires. In many 
parts of the State, people have had to contend with a few smoky days, 
or even smoky weeks, spoiling outdoor plans.
    Recent fires in Idaho and Montana are beginning to fill our 
communities with smoke. For those that suffer from asthma, COPD or 
another lung disease, even a few smoky days can be dangerous.
    Montanans should stay indoors when outdoor air quality is bad. 
Wildfire smoke even impacts those without lung disease and can increase 
the risk for respiratory tract irritation and can cause more serious 
health problems, such as reduced lung function, bronchitis and even 
premature death. These risks are especially magnified for older adults 
and outdoor workers. Children require extra protection, because their 
fragile respiratory systems are still developing.
    Immediate actions that can help reduce respiratory harm caused by 
wildfires include:

    <bullet> People living near fire-stricken areas are encouraged to 
            stay inside as much as possible with their doors, windows 
            and fireplace dampers shut. Use the recirculation setting 
            on air conditioners to avoid outdoor contamination. Using 
            whole house fans is not recommended, because they bring in 
            unfiltered outside air.
    <bullet> Keep car windows and vents closed when driving through 
            smoky areas. Air conditioning should be set to 
            ``recirculate'' to avoid unhealthy outside air.
    <bullet> Limit time outdoors, particularly if you smell smoke or 
            experience eye or throat irritation.
    <bullet> People with asthma should ask their doctors about any 
            changes in medication needed to ope with smoky conditions. 
            If you can't reach your physician, use your medications as 
            directed and closely follow your asthma action plan.
    <bullet> If you choose to wear a dust mask for protection, use one 
            labeled ``N95'' or ``P1000.''

    The American Lung Association and other health professionals who 
are part of the Healthy Air Campaign are concerned about the health 
risks posed by wildfire smoke. Fires put fine particles into the air, 
which can irritate and damage our lungs. More smoke means more bad air 
days, more asthma attacks, more emergency room visits, and premature 
deaths.
    Because climate change is fuel ing more drought-related forest 
fires, and power plants are the largest source of climate-chang ing 
carbon pollution, the American Lung Association has called on the U.S. 
Environmental Protection Agency (EPA) to set standards to lower power 
plant carbon pollution. Less carbon pollution will help rein in climate 
change that is fueling conditions that causes intense forest fires and 
could make efforts to reduce ozone (smog) tougher.
    We call on Montana's leaders in Congress to support these health 
protections.
    Kim Davitt is Montana initiatives manager for the American Lung 
Association. She lives in Missoula.

               [Bozeman Daily Chronicle August 25, 2012]

                 Idaho Fires Blowing Smoke Over Bozeman
    A handful of fires from Idaho are to blame for the cover of smoke 
that blanketed the Gallatin Valley on Friday. Zach Uttech, 
meteorologist with the National Weather Service in Great Falls, said 
fires such as the Mustang Complex, Porcupine Complex and the Mallard 
and Ditch fires in east-central Idaho sent smoke to the area. ``It's 
basically aimed in that direction to go over southwestern Montana,'' 
Uttech said. Even though winds pushed heavy smoke out of the Bozeman 
area by Friday afternoon, Uttech predicted that smoke would roll back 
in. But with weaker winds and cooler weather, Uttech said the smoke 
shouldn't be a problem today. ``I really don't think it's going to be 
as bad,'' Uttech said. Smoke in the air can cause respiratory symptoms 
in sensitive people, aggravate heart or lung diseases and increase the 
likelihood of premature death in the elderly or people with 
cardiopulmonary disease, according to the Montana Department of 
Environmental Quality. Health officials advise people to limit their 
exposure to the smoky air by staying indoors and not exerting 
themselves outside. Today's high is predicted to be 78 degrees, with a 
low of 40. The wind is expected to blow 2 mph.

                 MONTANA 2012 WILDFIRE SMOKE EMISSIONS <SUP>*</SUP>
                            [as of 9/9/2012]
------------------------------------------------------------------------
                                   Forest      Non-Forest       Total
------------------------------------------------------------------------
Burned Area (acres)               408,789       404,716       813,505
Fuel Consumption (ton dry       3,416,104     1,093,744     4,509,848
 vegetation)


          Emissions (tons)

Species:
Carbon Dioxide (CO2)            5,465,767     1,844,053     7,309,819
Carbon Monoxide (CO)              461,174        68,906       530,080
Methane (CH4)                      25,006         2,122        27,128
Acetylene (C2H2)                      991           262         1,253
Ethylene (C2H4)                     5,842           897         6,738
Propylene (C3H6)                    3,279           864         4,144
Formaldehyde (HCHO)                 8,882           798         9,680
Methanol (CH3OH)                   10,727         1,291        12,017
Formic Acid (HCOOH)                   888           230         1,118
Acetic Acid (CH3COOH)              12,708         3,883        16,591
Phenol (C6H5OH)                     3,484           569         4,053
Furan (C4H4O)                       2,050           186         2,236
Glycolaldehyde (C2H4O2)             3,519           886         4,405
Hydrogen Cyanide (HCN)              2,835           448         3,284
Ammonia (NH3)                       6,491           569         7,059
Nitrogen Oxides (NOx as NO)         6,593         4,266        10,859
PM2.5 (fine particulate            88,135         7,842        95,978
 matter)
Propane (C3H8)                        888           109           998
n-Butane (C4H10)                      284            17           301
Isoprene (C5H8)                       253            43           295
Benzene (C6H6)                      1,879           219         2,098
Toluene (C6H5CH3)                     820            87           907
Mercury (Hg)                            0.83          0.04          0.87
------------------------------------------------------------------------
<SUP>*</SUP>  Source: Shawn Urbanski Research Phyical Scientist Missoula Fire
  Sciences Laboratory RMRS, U.S. Forest Service.
<SUP>*</SUP>  Methodology upon request from DEQ.

        [From Loggers World, January 2013, Volume 49, Number 1]

                     forest service acres harvested
 (By the American Forest Resources Coalition http://www.amforest.org/)
    In a November 14 report, the Forest Service disclosed that the 
total acres harvested on its lands in FY 2012 was 208,639 acres. Keep 
in mind that the Forest Service manages over 191 million acres; thus 
they harvested timber on only .1 percent of their lands.
    The most used harvest scheme was thinning (113,719 acres) followed 
by sanitation harvest (30,538 acres) and selection cut (16,283 acres). 
Harvest by Regions from largest to smallest were: Region 9--42,847 
acres; Region 8--42,084 acres; Region 6--39,117 acres; Region 2--28,422 
acres; Region 5--21,860 acres; Region 1--12,662 acres; Region 3--11,014 
acres; Region 4--9,560 acres; and Region 10--1,063 acres.
    According to the Forest Service's Forest Restoration Strategy 
(Increasing the Pace of Restoration and Job Creation on our National 
Forests--February 2012), there are between 65 and 82 million acres of 
National Forest System lands in need of restoration. Of those acres, 
approximately 12.5 million require mechanical treatment. If we stay on 
this current pace of harvest and restoration, it would take over 60 
years to get those acres treated, not counting new acres that become in 
need of restoration.
    Thanks to Bill Imbergamo and the Federal Forest Resource Coaltion 
for sharing this data.

     Restoring a Forest Watershed and Adding Water Back to the Land
           (By Dan C. Abercrombie, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e4f4c4b5c4d5c41434c474b6e5a5b424f5c415d4f00404b5a">[email&#160;protected]</a>)
    Historical evidence clearly shows a significant decline in both 
stream flow and ground water recharge in the Sacramento Mountains of 
southern New Mexico. Photos, oral history, early Census data, and 
written accounts all paint a much wetter picture than is present today. 
Dense forests are robbing springs and streams of surface flow. Ground 
water recharge during the recent drought was non-existent. Large 
numbers of wells all over Otero County dried up. Drilling deeper was 
successful in some areas, but people in some areas are still hauling 
water.
    Members of the Sacramento River Watershed Coalition recently 
completed several large thinning projects near Timberon. Several 
thousand acres of Ponderosa pine and alligator juniper have been 
thinned and restored to historical tree densities. Trees were thinned 
on both private and State Land using Senator Jeff Bingaman's Forest 
Restoration funds, State Forestry Wildland/Urban Interface funds, NRCS 
Environmental Quality Incentive Program cost share, BLM, and the 
rancher's input. Tree densities were reduced to improve ground cover 
and reduce danger of a crown fire.
    The Otero Soil and Water Conservation District began monitoring 
static water levels in five wells in the watershed about 3 years ago. 
Following the treatment and decent summer precipitation, water rose 
about 100 feet in a well below the treated area. The static water level 
in this well is now about 15 feet.
    The New Mexico Bureau of Geology is preparing a Hydrogeology Map of 
the Sacramento Mountains.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Mr. White, for your 
testimony. I want to thank all the panelists for their 
testimony. And I will say this at the end of this hearing, too. 
If you have something else to add, as Mr. Galt wanted to add, 
that is certainly acceptable, and we will do that.
    Now, I said at the outset that seniority has its 
privileges, but I am going to defer my questions so that others 
who represent this area much more closely than I do have a 
chance. And we will start with Mr. Daines for questions for 5 
minutes.
    Mr. Daines. I guess that is home field advantage. Is that 
right?
    The Chairman. That is in this case, yes.
    Mr. Daines. Well, thank you. And thank you for the 
outstanding testimony today, and for this very informed group 
of witnesses, and for what you have shared with us today.
    I want to investigate here the comments that both Mr. Galt, 
Ms. Robinson, and Mr. Knox shared about population sage grouse 
and predation as a factor. And I think anybody who has grown up 
in Montana knows and when you watch populations, you look at 
predation, you look at weather, you also look at disease as 
populations go up and down as three important variables, 
amongst others.
    But I was intrigued by the predation by other birds, 
including the raven, that was mentioned here. It seems to be 
the single most important factor, at least arguably, a very 
important factor in sage grouse populations. The raven and 
these other predatory birds are protected by the Federal 
Migratory Bird Treaty Act.
    So we have two government statutes that potentially are at 
cross purposes with each other, and it seems like our Federal 
Government then blames humans as a primary cause versus looking 
at some of these naturally occurring processes in this very 
complex ecosystem.
    How can the BLM redirect its effort toward predation? I 
would be interested in hearing any thoughts you might have. Ms. 
Robinson, do you have a thought on that?
    Ms. Robinson. Well, I would just like to say that as a 
County Commissioner, I go to lots of meetings. And every time 
we bring up predators, and it is never, ever looked at. It is 
always completely ignored. Well, we do not have any control 
over predators, so we are not looking at predators. Well, if 
you look at the numbers, that is one of the big reasons of the 
decline in sage grouse is predators, but yet they are not even 
looking at any solutions because they are not admitting that 
there is a problem.
    Mr. Daines. Mr. Knox, do you have a thought on that, too?
    Mr. Knox. Yes, that is a very difficult issue to address. I 
have an example. When we were dealing with the riparian grazing 
issues along the Missouri River, we were told by one of the BLM 
employees, and he was quite frank about it. He said, even 
though most of the problems that you are faced with are caused 
by the dams upstream and the lack of natural flood stages, he 
said, there is very little we can do about them, but we can do 
something about you. So as individual ranchers, we feel that 
all the time.
    And so, I do not have a good answer to that, but I would 
hope that maybe through this process we can at least get them 
to acknowledge that these acts are in opposition to each other, 
and we are the victims out here because of it.
    Mr. Daines. Mr. Galt?
    Mr. Galt. Thank you, Congressman Daines. I just agree with 
my colleagues here. I mean, the National Technical Team did not 
take that up. That was one of our criticisms of the National 
Technical Team report. And as we sit on the Council, Governor 
Bullock's Council, on Sage Grouse Conservation Strategies, I 
mean, we are handed the document by the U.S. Fish and Wildlife 
Service. And below a certain line, everything below that line 
is really on the table for discussion. And predation, weather, 
things like that are below that line.
    So your wildlife specialists are saying it is not a 
problem, but everybody that has come to that Council has said 
this is a serious issue, and we see it particularly with the 
people that live on the land and see it every day. And I just 
think you need to bring them to the table and say, why not.
    Mr. Daines. So you see that NTT, that data, that is one of 
the biggest flaws in it is eliminating these variables?
    Mr. Galt. That is one flaw, yes.
    Mr. Daines. Is there another flaw?
    Mr. Galt. Congressman Daines, Mr. Chairman, there are quite 
a few flaws with that.
    Mr. Daines. Do you want to give us another one?
    Mr. Galt. I think that a big issue is that we are not 
really taking a look at what industry and what conservation 
groups and what members of the Farm Bureau and Stockgrowers 
have actually done in mitigation standards since 2002, 2003, 
2004. Montana's first comprehensive plan was done in 2005. We 
have not even had a chance to go back and look and analyze what 
mitigations that have been in place since then and what kind of 
activity they have had on sage grouse populations.
    So we are sitting here basing data back on studies that 
were done early on before anybody really took heart in what was 
going on in the landscape, and we are saying that these are the 
problems. And the one study that was relied upon a lot used an 
unmitigated control area, and said these horrible things are 
going to happen. This unmitigated control area was supposed to 
be used as a comparison to areas with controls, yet that was 
not the case. The predictions were made of horrible decimation 
of the sage grouse. They have not come true. It is really 
tight.
    Mr. Daines. I have one quick question, Mr. White, and my 
time is up.
    The Chairman. We will have the second round.
    Mr. Daines. OK. I will come back for the second round then. 
So little time, so many questions.
    The Chairman. Yes. I recognize Mr. Lamborn from Colorado.
    Mr. Lamborn. Well, thank you, Mr. Chairman. Thanks for 
having this hearing. First, I would like to ask Mr. Galt a 
question. And on the committee, I am the Chairman of the 
Subcommittee on Energy and Mineral Resources, so I want to ask 
you an energy-related question. Would banning oil and gas 
activities on public lands help the sage grouse in any way? Why 
or why not?
    Mr. Galt. It would not stop the coyotes, Congressman 
Lamborn. You know, there are some issues with oil and gas, and 
there are a lot of studies that would attribute that certain 
uncontrolled activities would impact the bird. So eliminating 
it all together would have a marginal perhaps impact indicated 
by the study.
    Mr. Lamborn. So marginal at most.
    Mr. Galt. I think so.
    Mr. Lamborn. OK. And that is what I expected. Thanks for 
saying that.
    Mr. Cebull, I have a question for you. You devoted 
considerable time in your written testimony to the high numbers 
of grizzly bears. The Federal Endangered Species Act is real 
clear about how to list a species, but is very vague when it 
comes to de-listing a species, so vague that it allows 
litigants from outside Montana, for instance, to fight the de-
listing of wolves to the point where Congress had to step in.
    Based on your experiences, does the law need to be improved 
when it comes de-listing so that better attention and resources 
could be concentrated on the remaining species that actually 
need help?
    Mr. Cebull. Representative Lamborn, Chairman Hastings, 
absolutely I think that we need to do something about de-
listing. As I said, this has become a listing tool and not a 
management tool. The ultimate goal of the Endangered Species 
Act of 1973 was species recovery. In order to recover, you have 
to have population increase, and you then you have to get them 
off the list. We have only allowed, as you cited in your 
comments also, 1 percent of all these species being listed 
actually were taken off the list because of recovery. The rest 
were taken off, some of them were already extinct when they 
were listed. Some of them were taken off because they went 
extinct while they were listed. And so, there was a variety. 
But 1 percent, and to me that is not successful.
    So that tells me that either the--and there are multiple 
flaws in the ESA that I cited. The management of the ESA 
through the process is not doing a good job of recovering, and 
the species, like the grizzly bear, that I personally can 
attest. I saw my last grizzly bear on Saturday night, and this 
is not an area that was historically known as grizzly bear 
range.
    And I can attest that, in my opinion, that there are a lot 
of grizzlies. And talking to the biologists and the local 
people, there are a lot more grizzlies than there were. And I 
believe that they should have been de-listed and managed 
locally by the State a long time ago, so.
    Mr. Lamborn. I asked this question down in Casper. Is there 
an issue with animals being either introduced or maybe just 
found here and there in areas where they are not historically 
known to occur, and yet that becomes now something to be 
protected, even though historically that was not part of that 
animal's habitat?
    Mr. Cebull. I think that is absolutely correct, and it goes 
to the heart of this. And the sage grouse issue as critical 
habit is defined as where sage grouse might live, not 
necessarily where you would find them today. And I think that 
is the biggest issue with sage grouse.
    Without a doubt, when you look at core grizzly bear habitat 
or what is listed as historic grizzly bear habitat, there are a 
lot of areas in Montana that have not had grizzlies in a long 
time that it is a wide swath of them now. And our ranch is one 
of those that has probably historically had grizzly bears. And, 
I mean, historically when the elk were out on the plains and 
the predators were out on the plains.
    But for a long time there have been grizzlies moving that 
far out of the mountains because we are really 2 miles away 
from the timber that would be considered grizzly range.
    Mr. Lamborn. OK, thank you. Ms. Robinson, I would like to 
ask you a question. I assume that you go to associations like 
NACO where county commissioners from around the West are 
gathered together, and you talk with these folks. Are they 
concerned about the sage grouse listing, because that could 
affect 11 different Western States?
    Ms. Robinson. Yes, Congressman. I am the Vice Chair of the 
Public Lands Committee for NACO, and I also am the Second Vice 
President, yes, Second Vice President of Western Interstate 
Region. And, yes, endangered species is a big concern.
    We have a resolution that we just passed in July in Fort 
Worth talking about sage grouse. And I did not bring that, but 
I would be happy to get you a copy.
    Mr. Lamborn. What was the gist of it?
    Ms. Robinson. I could not tell you off the top of my head. 
But the thing is, kind of with my testimony, we need not top 
down, but from grassroots efforts, and to deal with the people 
that are on the land with the sage grouse is better suited for 
the species rather than top down.
    Mr. Lamborn. Thank you.
    The Chairman. Ms. Robinson, would you get that letter so we 
can have it as part of the record?
    Ms. Robinson. Yes.
    The Chairman. Please get that to us.
    I thank the gentleman.
    I recognize Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. For anyone on the 
panel, is it true that when a species is headed for listing, 
that recovery criteria are established so you know what amount 
of species will constitute recovery? Does anyone know? Mr. 
Cebull?
    Mr. Cebull. Mr. Chairman, Representative Lummis, during my 
research for this panel hearing, I actually did read that. The 
response to the 1 percent success rate of the ESA was the fact 
that there are targets with endangered species. Many of those 
targets are multiple decade targets where they are expecting 
stabilization and growth, but it might take decades to see that 
happen. So in my research, I did find that.
    Mrs. Lummis. Are you aware of the goalpost ever moving? In 
other words, once a species reaches that criteria, the criteria 
was changed?
    Mr. Cebull. Yes, Representative. I think probably the most 
recent one that was very famous here was the wolves, and the 
fact that they were, in 2001, I believe, early on, that they 
were declared as being recovered. And then the goalpost kept 
moving as far as breeding pairs, number of wolves. And 
eventually it took us until congressional action to get the 
wolves off the list. It took years and years, and we had a 
tremendous amount of damage to our industry and our hunting 
industries because of the increasing number of wolves and 
livestock.
    Mrs. Lummis. Mr. Cebull, what has happened to the low low 
elk herd? Do you know about the low low elk herd?
    Mr. Cebull. I am sorry, Representative, I do not know.
    Mrs. Lummis. Mr. White, do you know anything about the low 
low elk herd?
    Mr. White. Thank you, Representative Lummis. The northern 
elk herd has been--I mean, that was up around 20,000 head, and 
I think it is down around 3,000, 4,000 now. From what I am 
hearing over in the low low, there are 1,700 to 1,500 elk where 
it was 5,000, 6,000, so.
    Mrs. Lummis. And when you have depletions of ungulates, 
especially huntable ungulates, in those kind of proportions, do 
the number of hunting licenses that are issued drop?
    Mr. White. They do.
    Mrs. Lummis. And what does that do to outfitters, guides, 
businesses that have thrived off of the hunting and recreation 
economy?
    Mr. White. Well, it has had a significant impact to local 
economies that many times in many places in the small 
communities in Central Montana, 70, 80 percent of their income 
is derived from that short hunting season. When you do not have 
the animals, you do not have the hunters, you do not have the 
income to the communities. Then those businesses, once 
flourishing, actually are gone.
    Mrs. Lummis. Mr. White, are there people in Montana who 
fill their freezers with wild game and have that as their main 
protein source through the winter?
    Mr. White. They do.
    Mrs. Lummis. Is that true also on the reservation, Mr. 
Whiteman?
    Mr. Whiteman. Sorry. Could you repeat the question?
    Mrs. Lummis. Are there tribal members on the reservation 
who use big game or wild meat as their main source of protein 
through the winter?
    Mr. Whiteman. Yes.
    Mrs. Lummis. And so, they are hunting. They are sustenance 
hunting. They are relying on hunting to feed their families.
    Mr. Whiteman. Yes.
    Mrs. Lummis. Is that true?
    Mr. Whiteman. Yes.
    Mrs. Lummis. Has the Endangered Species Act in any way, to 
your knowledge, interfered with the ability of Montanans, who 
rely on wild meat for food, to obtain adequate food from wild 
meat?
    Mr. Whiteman. No, it has not.
    Mrs. Lummis. Mr. Cebull, are you aware of any instances 
where that is true?
    Mr. Cebull. Representative Lummis, going back to your 
original question, the northern elk herd being an issue, that 
started out, and I will go back to when I was a kid back in the 
1980s. We used to have a late season down in Gardner, and there 
was over 10,000 cow tags issued in Gardner in a given year 
because these were 2-day hunts. They went out. This was a great 
family tradition.
    That hunt is completely gone now because the northern elk 
herd, as was cited earlier, is greatly diminished. So that 
being said, and understanding the pressure in the Madison 
Valley and western Montana, places that have large populations 
of wolves and grizzly bears, quite frankly, are doing a lot of 
predation on elk.
    It absolutely is affecting hunting opportunities and 
affecting people's ability to harvest elk, for example. And so, 
I absolutely would say that is impacting people's ability to 
put protein and put game meat in their freezer.
    Mrs. Lummis. For either Mr. Galt or Mr. Knox, could you 
give some quick examples of how litigation is affecting the 
efforts to recover species or the industries you are in? And I 
see that my time expired, so you know what I will do? I will 
save that question, so hold your thoughts on that. And if we 
have a second round, I will ask that again.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. We will have a second round. Mr. 
Cramer is recognized.
    Mr. Cramer. Thank you very much, Mr. Chairman, and thanks 
to each of the panelists here. Your testimony is quite 
compelling.
    In North Dakota, we do not have a lot of sage grouse. We 
have some, and they continue to increase about 15 percent per 
year. But the greater fear that is driven by the ESA in North 
Dakota is this issue of critical habitat. And it creates sort 
of a growing uncertainty. Can any of you describe for me what 
it is that makes something a critical habitat to the Fish and 
Wildlife Service? Mr. Galt?
    Mr. Galt. Mr. Chairman, Congressman Cramer, just from what 
I have learned on the Sage Grouse Council, they use a lot of 
analysis of bird populations and where those densities are 
heavier at their mating grounds than they are in other places. 
Those are kind of the dictum. Male lek attendance is a density 
issue that they drew the circles around and labeled those 
critical habitat.
    And you do have critical habitat right in Bowman County, 
North Dakota that is right east of the Cedar Creek Anticline, 
one of the oldest developments in the State of Montana, that 
makes our Cedar Creek Anticline critical because of the 
connection between your population and populations otherwise in 
Montana.
    Mr. Cramer. Well, I get the sense from time to time that 
this critical habitat definition becomes broader by virtue not 
of population density, but the potential possibility somewhere 
down the road perhaps of population. And that is what concerns 
me is just how broadly can they define critical habitat.
    And so I hear that fear a lot beyond Bowman County that, 
gee, our grass looks like theirs. Could they come and declare 
or determine this to be critical habitat as well.
    I want to ask, and this may be getting to what 
Representative Lummis was getting at. If we were to buy into 
and join the goals of the Endangered Species Act, how is it 
that litigation, a litigation strategy, actually enhances the 
goals of the act, or does it not? Because one of the things 
that concerns me, and here we live in this era of budget 
crunch, and approach $17 trillion debt, and the Federal 
Government trying to find more efficient ways to use money.
    And it seems to me that if our goal was really 
conservation, that diverting that conservation money to 
litigation or defending against litigation does not seem like 
it would really meet the goal. Is that an accurate observation, 
and could anybody elaborate on it?
    Mr. Knox. We have not in our area been sued specifically 
over sage grouse or anything ESA related with sage grouse. But 
the grazing management plan for the National Monument was, of 
course, challenged by the environmental groups, Western 
Watersheds being one of them. And they, of course, are very 
enthusiastic about ESA listing for the sage grouse.
    But it is a miserable, long, drawn-out process. We in the 
rural communities and agriculture, we always go back to the 
same well to raise money to defend ourselves from these sorts 
of things. And so, I guess the upshot is we came through the 
process all right, but we spent a lot of money, and money that 
would have been spent in our operations at home and staying at 
home in our communities. So that is, I guess, my view of it.
    Mr. Cramer. Do you think then along those lines, do you see 
this litigation wave, if you will, as a disincentive to do what 
comes naturally to us out here in the West, and that is to 
engage in voluntary conservation? In other words, are we 
robbing people of even their own natural instinct to be 
conservationists on the land if you are a stockman or a 
rancher?
    Mr. Knox. Yes, I believe that is definitely a part of it. 
As I included in my testimony, when leks were identified 
adjacent to Federal lands that were part of the monument 
designation, and showed up in the final management plan, it had 
a definite dampening effect on people's enthusiasm for 
cooperating with anyone inventorying sage grouse, leks. So, 
yes, to your point, we have seen that.
    Mr. Cramer. Thank you for your testimony. And I will yield 
back the remaining seconds.
    The Chairman. If I wait 5 seconds, it will be gone.
    [Laughter.]
    The Chairman. I will now recognize myself. I want to ask a 
question of all of the panelists. We have had a number of 
hearings on this, and what I am going to say has been alluded 
to by my colleagues, but it has also been alluded by you, about 
the litigious nature of implementing the Endangered Species 
Act.
    Now, when we have hearings, the litigants say that the ESA 
is 99 percent effective because it saves endangered species. 
Now, from what I hear of you, you are all on the front lines of 
these species conversation. So in your view, is 99 percent an 
accurate number that the litigants said?
    We will start with you. Yes or no, Ms. Robinson.
    Ms. Robinson. Mr. Chairman, do you want just a yes or no, 
or do you want just----
    The Chairman. Well, you can emphasize it if you would like. 
But I would like to have a yes or no.
    Ms. Robinson. OK, no.
    The Chairman. Yes. Mr. Knox?
    Mr. Knox. I would say no.
    The Chairman. Mr. Galt?
    Mr. Galt. I agree.
    The Chairman. Yes. Mr. Cebull?
    Mr. Cebull. Chairman Hastings, no.
    The Chairman. OK. And, Mr. Whiteman?
    Mr. Whiteman. Yes.
    The Chairman. OK. And, Mr. White?
    Mr. White. Mr. Chairman, no.
    The Chairman. No. OK. Well, I wanted to kind of get that 
out because the ESA was first passed in 1973, so it has been 
roughly 4 years. And I am going to talk here in round numbers. 
And we have roughly in the United States about 1,500 listings, 
and it took 40 years to get that 1,500 listings.
    But the mega settlement that I alluded to in 2011 has the 
potential of upwards of 750 to 800 listings. That means that in 
6 years, which is the timeframe of the mega settlement, the 
listings could go up by 50 percent.
    Do you think that with that burden, that transparency and 
good science can be applied to the next 700--and I will throw 
this out--if it was applied to the first 1,500? And I will ask 
Mr. Galt and Mr. Knox that question.
    Mr. Galt. Thank you, Mr. Chairman. I do not think it could. 
I think that is part of the problem we are facing right now is 
there is not any good science on there, and we have a ticking 
clock from the sue and settle crowd to make decisions on all 
these species that science cannot get to.
    The Chairman. OK. Mr. Knox, would you like to weigh in?
    Mr. Knox. Yes, I would agree with Mr. Galt on some of the 
definitions of species where there are sub species that have 
been listed that really should not have been. And if we are 
going to talk about 700 more, I guess I would be mistrustful of 
the science.
    The Chairman. And that kind of goes to the core of where 
our problem is because while I mentioned that ESA was passed 
initially in 1973, it has not been reauthorized as a law since 
1988. That is 25 years ago. And I daresay if you walk down any 
town main street in Montana, probably anyplace that is affected 
by the Endangered Species Act or any law, and since we enforce 
a law that has not been reauthorized for 25 years, I daresay 
you would probably get anybody to even say yes.
    But because of the process that we have to go through in 
Washington, DC when we appropriate any law, appropriate dollars 
to carry out any law, whether it has been reauthorized or not, 
it is de facto reauthorized. Now, that presents a real problem 
because in order to have a discussion on real reform, you have 
to have two sides that want to sit down and talk. But when one 
side, because of the de facto reauthorization of a law that I 
believe is flawed, you have a whole lot of difficulty trying to 
get people to sit down and talk.
    And I just want to say that is one of the reasons we are 
having these hearings around the country and this working group 
so we can get input, because we need to break through that. 
People need to understand the impact this will have on our 
economy.
    And, Mr. White, your circle was very good. Those are all 
parts of our economy and, frankly, our life whether you live in 
a rural America or urban America. But you cannot have these 
things unless you have these resources, and they are being 
greatly, greatly compromised because of a lack of trying to get 
things done. So I just wanted to point that out.
    We are going to do a second round now, and I will recognize 
Mr. Daines first.
    Mr. Daines. Thank you, Mr. Chairman. As part of the brief 
that was pulled together for this hearing, I was struck by a 
fact here that the Department of Justice responded to this 
committee when asked for the litigious behavior and activity in 
the last 4 years as it relates to the ESA. In just the last 4 
years, the Federal Government has defended more than 570 ESA 
related lawsuits, costing more than $15 million in funds paid 
from the judgment fund. This is not the cost of the lawyers in 
the Federal Government defending the ESA. These are dollars 
that were given to the plaintiffs as part of the Equal Access 
to Justice Act. This is taxpayer dollars, so we are paying 
their legal fees.
    Question: do the lawsuits from distant groups, like the 
Center for Biological Diversity, which they are the number one 
litigant. There 117 of these lawsuits that came from the Center 
for Biological Diversity. Do these lawsuits encourage or 
discourage voluntary efforts to conserve species? I would like 
to get some thoughts on that.
    Lesley, you are in the middle of some of these activities. 
Is it encouraging or discouraging?
    Ms. Robinson. I would say discourage. If you can work with 
the rancher and they do not have a fear of what is going to 
happen, then they are a lot more apt to work with you. And that 
is where the sage grouse are. They are right in the middle of 
ranches, so we know that is working. But I would say that there 
is a fear of it.
    Mr. Daines. Mr. Knox?
    Mr. Knox. I would say that it is also--it has made it more 
difficult in the relationship between ranchers and, for 
example, range conservationists, who we traditionally get along 
with pretty well, and the Bureau of Land Management, because 
some of these groups have the strategy to litigate and contest 
every aspect of a management plan, whether it is an ESA issue 
or some other kind of issue. And so, and the strategy is 
simple. Overwhelm the range people with paperwork so that they 
fall behind, they make a mistake, and then we can really nail 
them.
    And so, when you are the rancher caught in the middle of 
this and basically, we just want to run our cows and enjoy our 
lifestyle in our communities, it has a dampening effect. It 
definitely does.
    Mr. Daines. Well, speaking of paperwork, we are going to 
talk about Mr. White's stack over there in a minute. But I was 
struck by the testimony as well that--reminding ourselves in 
Montana we have a sage grouse hunting season. It just opened up 
September 1, two-bird limit, four in possession. And also, we 
are transporting birds to Canada for transplant purposes. And I 
think just a reminder for all of us, the goal here is we are 
trying to find ways to ensure we keep the sage grouse off the 
ESA as conservationists, as sportsmen and women here in this 
State.
    And in light of that, the need to reform the ESA, I would 
like to get thoughts from each of you, if you were President 
for a day and could wave a wand, and there were one or two 
things you would seek to reform in the ESA to take this 40-
year-old law and bring it to 2013, what might that be?
    And, Mr. White, given the fact you got a stack down there, 
maybe you could start that input.
    Mr. White. Thank you, Representative Daines. The litigation 
that you are speaking about on these lawsuits many times are 
compensated back to the environmental groups through the Equal 
Access to Justice Act. But these environmental groups do not 
have to post any kind of bond or anything. A 44-cent stamp will 
get them into the courtroom, and then if they prevail, they 
take that money and they turn around and sue again on another 
issue or another bird.
    So I think some sort of bonding requirement and damage, 
some sort of estimate on the damage that could be caused by the 
litigation, and have the environmental group or those litigants 
post some sort of a bond, I think, would discourage a lot of 
these litigations.
    Mr. Daines. Great. Thanks, Mr. White. Who else? I only have 
45 seconds. Who else has a thought? Mr. Galt and then Mr. 
Cebull?
    Mr. Galt. I think two things, Mr. Chairman, Congressman 
Daines. You really need to bring people together, take a look 
at how they look at the whole habitat issue. It is hard for us 
to understand that the wildlife professionals can stand up and 
say hunting does not have an effect on the mortality of the 
bird. But we have got a habitat issue, and you cannot have a 
surface disturbance next to a highway.
    And the second thing that I would like to add is that 
Congress, in the short term, really needs to take a look at 
that time schedule that is under effect on all of those species 
that are under the sue and settle agreement and see if we 
cannot push that date back, because we are making decisions 
based on science that was done before mitigation even started 
to work. And we are going to make that decision poorly.
    Mr. Daines. OK. I am out of time. I want to enter into the 
hearing record, Mr. Chairman, some contents of the American 
Motorcycle Association, Richland Prairie Counties, Senator 
Jennifer Fielder, and the Yellowstone Valley Audubon Society.
    The Chairman. Without objection, they will be part of the 
record.
    I recognize Mr. Lamborn from Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman. Ms. Robinson, for 
your own county and the people you talk to from around the 
country, I would like to get your perspective. Recently, the 
Obama administration finalized a rule and ignored significant 
opposing comments, a 10th Circuit Court of Appeal opinion, and 
letters from Members of Congress, such as ourselves, on how it 
will conduct economic analysis for critical habitat 
designations. And their rule will require Federal agencies 
administering the ESA to only analyze the actual cost of the 
designation, while ignoring all other costs that are caused by 
the listing of a species.
    Would it not be better to fully document the costs of the 
Endangered Species Act by analyzing its impact on, let us say, 
rural areas?
    Ms. Robinson. Mr. Congressman, it definitely would be 
important for us for them to analyze all of the costs, because 
if you look at how many people we are feeding in Phillips 
County, and if you cut our grazing rates, then what is the 
step-down effect of that? How many people are not going to have 
food? How many people in our little town of Malta, how many 
businesses will go broke because of fewer ranchers on the land? 
There is such a trickle-down effect of one decision, and it all 
needs to be analyzed.
    Mr. Lamborn. Thank you. I agree. That should not be 
ignored.
    Mr. White, Mr. Kieran Suckling, the Executive Director for 
the Center of Biological Diversity, was quoted in 2009 as 
saying, ``When we stop the same timber sale three or four times 
running, the timber planners want to pull their hair out. They 
feel like their careers are being mocked and destroyed, and 
they are. So they become much more willing to play by our 
rules. Psychological warfare is a very underappreciated aspect 
of environmental campaigning.''
    Do you think that this litigation approach on timber sales 
has affected the health of our forests, possibly contributing 
to an unhealthy condition that we see with catastrophic 
wildfires?
    Mr. White. Representative Lamborn, I definitely agree. And 
actually what I did is when I submitted my written testimony, I 
put in there a study that was done on a pilot project down in 
California where they went in and they put in a test well and 
did well monitoring on the water table level below where they 
thinned the Ponderosa Pine. And after the thinning project, the 
next year the groundwater recovered 100 feet. The static 
groundwater below that thinning project is now sitting at 15 
feet, and actually streams that were once dry with that 
overgrown forest have begun to run again.
    So what I am saying is every time you have got a tree out 
there, each one of those drinks water, and when you start 
pulling that amount of water out of the ground with an 
overgrown forest, what happens is it starves the next tree next 
to it and puts it in stress, and then creates a problem of that 
one more susceptible to disease. We have got a massive bug kill 
out in our forests. Almost 50 percent of the Beaverhead Deer 
Lodge National Forest is dead and dying.
    We cannot cut those dead trees, and after they burn, we 
cannot even salvage those salvage burn trees after they have 
burned and destroyed all the wildlife habitat and erosion, 
streams, and everything. So I think it is quite out of control.
    Mr. Lamborn. OK. Thank you so much. That is amazing.
    Mr. Cebull, one of the concerns of our committee is that 
the Federal Government should be incorporating more data from 
State and local governments and landowners. One example is from 
Garfield County, Colorado, where they spent millions counting 
and protecting sage grouse in their habitats. Yet the Fish and 
Wildlife Service has ignored them.
    Should the Federal Government use more studies than what 
they are accepting right now? Should tribes, States, 
localities, and landowners not have more input on these Federal 
decisions?
    Mr. Cebull. Mr. Chairman, Representative Lamborn, 
absolutely they should, and that was a big, big focus of my 
testimony. And something I would like to say is that you get a 
lot more common sense the closer to the ground you get. The ESA 
is a 60,000 foot approach. It is coming. It is that top down 
centralized approach. When you get on the ground, things look a 
whole lot different than they do from 60,000, and common sense 
prevails. Whether it is the landowner, the rancher, or the 
local administration, it definitely prevails.
    Mr. Lamborn. OK, thank you. I am going to try to squeeze 
one more in. Mr. Knox, when these taxpayer funds go to the 
plaintiffs' attorneys, who bring these fish in a barrel type of 
lawsuits, do those monies ever get turned around and used for 
species and habitat protection, to your knowledge?
    Mr. Knox. No, I am sure not. I know, for example, that the 
Western Watersheds group uses that money to roll into more 
lawsuits. And that is consistently what they do, and I am 
fairly sure that other environmental groups are doing it.
    Mr. Lamborn. Thank you.
    Mr. Knox. Treating the law the same way and the money the 
same way.
    The Chairman. I thank the gentleman. I recognize Mrs. 
Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. I also want to thank 
Mr. Cramer for following up on my questions about litigation 
with Mr. Knox and Mr. Galt.
    So I am going to go on with a question for Mr. Whiteman. I 
understand you are involved in coal mine reclamation. Can you 
tell me, if you are looking at a piece of land before it is 
mined, and then it is mined and reclaimed, is the reclaimed 
land capable of supporting the same species that were on the 
land before it was mined?
    Mr. Whiteman. Yes.
    Mrs. Lummis. And is that part of your obligation in terms 
of mine reclamation to reclaim it to a quality that existed 
before mine reclamation?
    Mr. Whiteman. Yes.
    Mrs. Lummis. Are you aware of any instances where the 
Endangered Species Act has prevented either coal mining or oil 
and gas development?
    Mr. Whiteman. Yes. Not really what I know with other--let 
me see. In the beginning of the 2000s, when coal methane--it 
hindered production. That was brought to my attention about a 
week ago because I had friends, co-workers that worked in that 
area.
    Mrs. Lummis. OK. Thank you, Mr. Whiteman.
    Mr. Galt, are you aware of any instance where the 
Endangered Species Act prevented oil and gas development?
    Mr. Galt. Mr. Chairman, Congresswoman Lummis, I would 
answer two ways. I think the concerns about the potential of 
the listing for the sage grouse has indeed slowed, if not 
removed, many acres of Federal land from the ability to be 
leased. And I would have to go back to my records, but I am 
particularly thinking of a sale in North Garfield County, 
Montana where Federal acres were removed over concerns about 
the bird in 2007 or 2008, quite a bit time ago.
    Mrs. Lummis. OK.
    Mr. Galt. Second, one of the areas in the States that does 
have a lot of interest in oil and gas development is along the 
east slope of the Rocky Mountains. That would be grizzly bear 
habitat. And I know companies that have worked in there have 
had a dickens of a time working with the various agencies in 
areas with listed species.
    Mrs. Lummis. Mr. Galt, again for you, with regard to data 
collection and dissemination, if the Department of the Interior 
were compelled to release its data so that independent analysts 
could attempt to replicate the data that they used to make 
listing decisions, would that be a helpful thing?
    Mr. Galt. Mr. Chairman, Congresswoman Lummis, I think it 
would be very helpful. And further than that, I think it would 
also be very important for the academics, if the study that 
they produce on taxpayer dollars used by the government to make 
widespread determinations, if that is the case, which it is, 
their data should be made public, too, and it is not. Thank you 
for that question.
    Mrs. Lummis. Now, also, Mr. Galt, if Congress were to allow 
Montana and other Western States time to implement, track, and 
analyze conservation plans, without the threat of a court 
designated listing deadline, would that be a helpful thing?
    Mr. Galt. Mr. Chairman, Congresswoman Lummis, I think so. 
When I started in this job in 2005, the ink was dry on the 
Montana Wildlife Conservation Strategy Book, and I cannot 
remember the name of it. But they had sage grouse, 
comprehensive sage grouse stipulations in that book that our 
members started to develop in 2005. The ink was not dry on 
that, and they were already saying that those stipulations were 
not good enough. And we have stipulations in the Wyoming plan 
that now people are saying are yet not good enough.
    And I think we really need to find out if the ones in 2005 
were really good because some of the studies are showing that 
what was thought to be a huge decimation of sage grouse in 
particular areas in your States are seeing the largest lek 
densities in the State. And they are certainly back in robust 
numbers.
    Mrs. Lummis. Now, for any of you, would it be reasonable 
for Congress to set some factors or criteria by which the U.S. 
Fish and Wildlife Service could rank order listing petitions 
based on imminent threat rather than using predictive models 
that reach forward for years, like trying to predict how global 
warming will affect species? Would that be helpful? Anyone?
    Ms. Robinson. I think that would be very helpful. I do not 
know how you can do predictions on global warming not knowing 
what tomorrow brings as far as that. And there should not be 
listings based on predictions.
    Mr. Galt. Mr. Chairman, Congresswoman Lummis, yes.
    Mrs. Lummis. Thank you. Mr. Cebull?
    Mr. Cebull. Mr. Chairman, Congresswoman Lummis, I would 
also like to encourage you to include economic impacts in that 
listing in that rating.
    Mrs. Lummis. Thank you very much. Mr. Chairman, I yield 
back. Thank you, panel.
    The Chairman. I recognize Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman. And before I forget or 
run out of time, Mr. Chairman, I know that the record will open 
for 10 more days. But I would like to offer the written 
testimony of Lynn Helms, the Director of Industrial Commission 
and Department of Mineral Resources in North Dakota.
    The Chairman. Without objection, it will be part of the 
record.
    Mr. Cramer. You know, one of my take-aways, and I am not 
surprised by it by listening to you all and being here, is that 
much like my State of North Dakota, you do not compromise 
quality of life for an improved standard of living. And you are 
to be commended for that. That is clear when you drive around 
this beautiful State of yours.
    And this issue of consent decrees becoming law by virtue of 
liberal organizations suing a liberal administration and coming 
to a settlement in a liberal judge's chambers is very 
concerning to me. And I am wondering if any of you and your 
organizations that you belong to or associations have ever 
considered using sue and settle as an offensive tool instead of 
it always being a defensive tool. Because, quite frankly, 
Napoleon once said, ``The logical conclusion of defense is 
defeat.'' And while our job is to create policy that does not 
encourage such a thing, I would be interested to know if you 
have ever considered using the tools that your opponents use 
against you.
    Mr. White. Representative, we have considered that under 
the Clean Air Act or the Clean Water Act as to what these fires 
are doing and erosion and stuff to our watersheds and stuff 
like that.
    These environmental impact statements, whether they be 
draft or final, right in the front when they start on the draft 
environmental impact statement, it says that a lot of the 
information in here are estimates, speculation, and 
assumptions. Put into a modeling program and out the back end, 
you get a prediction.
    And so, with that estimate and speculation and assumption, 
I believe that is the ESA. And that is all it is is people 
behind a desk creating models, putting in junk in the front and 
junk out the back.
    We do not have the tools. Congress did not give us an 
organization the tools to go out and sue to try to get our way. 
All we are trying to do is keep what we have. We are not asking 
for anymore. It is incrementally being taken away from us in 
rural America, resource industries, everybody on the panel, 
counties losing tax base.
    And one other thing. When Montana came into the Union, we 
did not get all our land under the Equal Footing Doctrine like 
the Eastern States. And so, that reduces our tax ability and 
our tax base within our State. So maybe transfer that land and 
dispose of that land back to the States might be a good idea, 
because I just do not think that the Federal Government is 
doing a good job of managing what they have, yet they go out 
through the Land and Water Conservation Fund and want to buy 
some more.
    Mr. Cramer. Right.
    Mr. White. And I just do not think that it is common sense, 
as was mentioned on the panel. Thank you.
    Mr. Galt. Mr. Chairman, Congressman Cramer, we have not 
done that within our organization. We have engaged in two 
lawsuits in my tenure as executive director. Both of the times 
we have intervened in support of the government, in one case 
the State government, in the other case, the Federal 
Government.
    So, we have a lot of projects at stake. We have a lot of 
time at stake. Making the decision to engage in litigation is 
very serious and a very big step for an organization as diverse 
as ours. But some of these NGO's, that is how they survive, and 
that is not how MPAs survive.
    Mr. Cramer. Anybody else?
    Ms. Robinson. As a County Commissioner, economically it is 
just not feasible for counties to go into a lawsuit or for a 
rancher. And we have intervened in different lawsuits, but the 
bottom line is the money just is not there to do it.
    Mr. Knox. We are a small organization. I am representing 
the Farm Bureau today, but I also am involved with the Missouri 
River Stewards. And I would echo what Lesley has said. So far, 
we have had intervener status and that sort of thing. And I 
think it goes to your point that we are playing defense, and we 
have talked about that.
    The Farm Bureau, who I am representing here today, is, of 
course, a bigger, more effective organization. And they have 
sued over the listing of the wolves, to varying degrees of 
success. But some of it has been done, but I guess we are not 
as good at it as the other side.
    Mr. Cramer. I want to wrap up with this quick question. 
Should litigants have to have a direct personal interest in the 
outcome of a lawsuit before they can engage in it? I mean, you 
all have had to intervene from time to time. Should litigants 
not have the same obligation or same relationship?
    Mr. White. Representative, yes, definitely.
    Mr. Cramer. I think so, too. With that, I thank you, 
Chairman. I thank the panel. And I look forward to eating some 
bread and beef from Phillips County.
    [Laughter.]
    The Chairman. Well, thank you. Let me wrap this up because 
we had a lot of discussion today on the sage grouse. And I have 
to tell you my first reaction when I heard about the potential 
listing of the sage grouse when it was described to me in this 
way. The sage grouse is endangered in 11 States covering 
260,000 square miles. Now, my first thought was, if one is 
dealing in common sense, that is a pretty darn big area in 11 
States to have a species be endangered.
    To put that in perspective, that is nearly 260,000 square 
miles. Montana has a square mileage of, I think, around 
147,000, so that just gives you the perspective of what this 
is. It cries for some sort of solution. But I just wanted to 
make that observation.
    Mr. Cebull, you said there should be an economic analysis. 
I totally agree with you. You may or may not be aware that this 
administration finalized a rule ignoring that, even a 10th 
Circuit Court of Appeals rule on that.
    Let me finish where I kind of started. I mentioned from the 
outset that I am from the Pacific Northwest where we have been 
greatly impacted, much longer, I think, than you are. I am not 
going to say exclusively, but certainly much longer. And I will 
tell you, and this is kind of a warning, it does not go away.
    Two issues: the spotted owl. The spotted owl has caused a 
decline in timber harvests on Federal lands in Oregon, 
Washington, and California by a factor of 90 percent--90 
percent. And now, we have discovered that it was not the lack 
of old growth that caused the demise, but rather a predator 
called the barred owl. So what is Fish and Wildlife solution? 
Shoot the bard owl. Now, that is not common sense. That is why 
this cries to be talked about.
    The other issue is the salmon issue. We have spent billions 
of dollars, taxpayer dollars and rate payer dollars because all 
of it is paid by rate payers, Bonneville Power, billions of 
dollars to save the salmon. The salmon runs are coming back in 
greater numbers now on average in the last couple of years 
since records have been kept in 1938.
    Yet there is an article in one of the Seattle newspapers 
talking again about removing four Snake River dams that 
generate--I forget how many megawatts of power, enough to do 
Seattle for about a year, to supposedly save the salmon. So 
these issues are not going to go away.
    So my message to you in that regard is this: you 
communicate here with people in Montana. You have to extend 
that network much, much farther. Commissioner Robinson, you 
said you have talked to other county commissioners. My appeal 
to you--I am not going to tell you what to do--my appeal to you 
is to be much more aggressive in that regard. Do not leave it 
up to just the Western States. You have got to engage county 
organizations in other States, because it is coming.
    Case in point: I remember several years ago when the issue 
of endangered species in the Permian Basin--you are familiar 
with the Permian Basin. It is an area that produces a lot of 
oil and natural gas, but because of new technologies, it may be 
even better. And my colleagues came up to me and said, boy, you 
have to do something about the Endangered Species Act. Now, I 
said this without trying to be flippant or anything, but I 
said, welcome to the club, because now you are part of this 
deal.
    So my appeal to you, Mr. Galt, is you are part of this 
association, and I know your members compete against each other 
trying to get jobs. But you have one commonality: if you do not 
have a robust organization out there, you are not going to have 
jobs. I mean, it is as simple as that. So you need to 
communicate with other associations in other States. They have 
to be part of this.
    Now, Texas settled. Not everybody was happy with that. But 
I guarantee you it is not going to go away in Texas. That was 
only one settlement. There will be others.
    And finally, I will just say this, and this is not in 
relationship to the Endangered Species Act. But, Mr. White, you 
talked about the catastrophic wildfires and what it does to our 
renewable resources. Just for your information, we passed out 
just before the August district work period--all of us voted 
for it--a bill dealing with healthy forests. We think there is 
a solution there, and if you have not looked at that, I would 
invite you to.
    So I want to thank especially the panelists. I thought the 
testimony was very thoughtful, the questions and answers. Well, 
the answers were maybe more than the questions. But 
nevertheless, I really want to thank you. And that is all going 
to be part of the record. I cannot emphasize. That is part of 
the record that we will buildup on.
    And for any of you that are in the audience, obviously if 
you have something that you would like to weigh in on, pro or 
con. By the way, I should say this: the House Natural Resources 
Committee is a bipartisan committee. It is made up of Democrats 
and Republicans. We happen to be all Republicans, so we called 
this hearing. And, of course, we fully expected the Democrats 
to participate. And by the way, they are the minority party. 
They had a chance to have witnesses at the table.
    They had an opportunity to do that, and they refused to 
have a witness here or to send a member of their party to this 
full committee hearing. So I just wanted to say that for the 
record.
    But I will leave it open. If anybody here has contrary 
views of what you have heard today, we certainly welcome that, 
and you can go to www.housenaturalresources.gov, or whatever it 
is. You can find it, just go online.
    So with that, again, I want to thank all of you, and you 
have been a very, very attentive audience. We appreciate that 
very much. Stay tuned because this issue is not going away. 
That is why we are having these field hearings. That is why we 
are having this working group made up of members from the 
eastern part of the United States so that when the political 
opportunity is right, we can move legislation hopefully that 
will correct what we all think are flaws in the ESA.
    So with that, thank you all, the panel. I want to thank my 
colleagues for being here, and certainly thank the audience.
    And with no further business, the committee stands 
adjourned.
    [Applause.]
    [Whereupon, at 3:30 p.m., the committee was adjourned.]

                                 [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
